No. 19-410

IN THE

Supreme Court of the United States
>>>>

RICHARD J. FIELDS,
Petitioner,
v.

DIANA PALMERI,
Respondent.
On Petition for an Extraordinary Writ of Mandamus
to the New York Court of Appeals and
the New York County Surrogate’s Court

OPPOSITION TO PETITION
FOR WRIT OF MANDAMUS
JULES MARTIN HAAS, ESQ.
Counsel of Record
845 Third Avenue, Suite 1400
New York, New York 10022
212-355-2575
attorney.haas845@gmail.com
and
NOVICK & ASSOCIATES P.C.
202 East Main St. Suite 208
Huntington, New York 11743
631-547-0300
amessina@novicklawgroup.com
October 28, 2019

Attorneys for Respondent

i
TABLE OF CONTENTS
Page

TABLE OF AUTHORITIES ..........................

x

PRELIMINARY STATEMENT .....................

1

STATEMENT OF FACTS .............................

2

Family History Leading Up to
the Will ..............................................

3

PROCEDURAL HISTORY ............................

7

ARGUMENT .................................................

10

POINT I
THIS MATTER IS NOT SUBJECT TO
FEDERAL JURISDICTION ..............

10

A. The Petition should be denied
because it is precluded by the
Probate Exception .......................

10

B. There is No Federal Question
or other basis for Subject
Matter Jurisdiction .....................

12

C. A Writ of Mandamus Is not a
Method for a Backdoor Appeal ...

15

ii
Page

POINT II
THE COURTS TO WHOM THE
ORDERS OF MANDAMUS
WOULD BE DIRECTED ARE
NECESSARY PARTIES ....................

17

POINT III
PETITIONER DID NOT EVEN
ENUNCIATE A BASIS FOR
FEDERAL JURISDICTION ..............

19

POINT IV
USE OF EXTRAORDIANRY WRITS
IS RARE ............................................

20

POINT V
MANDAMUS DOES NOT LIE WHEN
PETITIONER HAS ALREADY
HAD HIS CASE HEARD
APPROPRIATELY. IT IS NOT A
SUBSTITUTE FOR APPELLATE
REVIEW ............................................

22

POINT VI
THE CASE WAS CORRECTLY
DECIDED AT EVERY STAGE
BELOW ..............................................

25

CONCLUSION ..............................................

29

iii
Page(s)

APPENDIX
Table of Documents Which Were
Either Improperly Injected Into
the Petitioner’s Appendix or
are Otherwise Altered From the
Original Document Submitted to
the Trial Court ..................................

1a

Exhibit 1: Exhibit List Annexed to the
Affirmation of Jules M. Haas, Esq.,
in Support of the Motion for Summary
Judgment with Notice of Motion
Filed on November 30, 2018..............

6a

Exhibit 2: Affirmation of Richard A.
Chen, Esq., Submitted in
Opposition to Motion for Summary
Judgment with Exhibit List ..............

13a

Exhibit 3: Reply Affirmation of
Jules M. Haas, Esq., Submitted in
Further Support of the Motion
for Summary Judgment and
Exhibit List........................................

39a

Exhibit 4: Transcript of Proceedings
dated March 20, 2018 with Bench
Decision of the New York State
Surrogate’s Court, County of
New York, Granting the Motion
for Summary Judgment and
Stating that a Written Decision
Will Follow.........................................

109a

iv
Page(s)

Exhibit 5: Order of the New York State
Surrogate’s Court, County of
New York, dated March 26, 2018,
Granting the Motion for Summary
Judgment and Directing the
Settlement Of a Probate Decree........

140a

Exhibit 6: Notice of Settlement of
Probate Decree dated April 10, 2018
with Affidavit Of Service...................

150a

Exhibit 7: Notice of Motion of
Richard Fields, Pro Se, dated
April, 2018, to the New York State
Supreme Court, Appellate Division,
First Department, to Reopen Case
and to Proceed as a Poor Person .......

156a

Exhibit 8: Civil Appeal of
Richard Fields dated May 9, 2018
to the New York State
Supreme Court, Appellate Division,
First Department ..............................

163a

Exhibit 9: Note of Issue filed dated
July 5, 2018 by Richard Fields
filed in the New York State
Supreme Court, Appellate Division,
First Department, with Cover of
Appellant’s Brief................................

168a

v
Page(s)

Exhibit 10: Notice of Entry of Probate
Decree dated July 31, 2018
with Cover Letter and Affidavit
of Service ...........................................

173a

Exhibit 11: Probate Decree dated
July 20, 2018 of the New York
State Surrogate’s Court,
County of New York ..........................

181a

Exhibit 12: Notice of Motion of
Diana Palmeri to Dismiss Appeal
or Alternatively Strike Portions
of the Appellant’s Brief and Record
as Matters are dehors the Record
And to Adjourn With Summary
Statement on Application for
Expedited Relief and Affirmation
of Albert V. Messina Jr. Esq.,
dated August 3, 2018 in Support
of Motion............................................

186a

Affidavit of Richard Fields
dated August 21, 2018.......................

228a

Affidavit of Richard Fields
dated August 11, 2018.......................

240a

vi
Page(s)

Exhibit 13: Notice of Motion of
Richard Fields dated August 10,
2018 to the New York State
Supreme Court, Appellate Division,
First Department to Stay
Enforcement of the July 20, 2018
Probate Decree ..................................

253a

Exhibit 14: Summary Statement of
Richard Fields to the New York
State Supreme Court,
Appellate Division,
First Department and Denial of
Stay dated August 17, 2018 ..............

256a

Exhibit 15: Summons and Complaint of
Richard Fields dated September 4,
2018 Filed in the New York
State Supreme Court,
County of New York Seeking to
Stay Enforcement of the Probate
Decree ................................................

259a

Exhibit 16: Order to Show Cause
Filed by Richard Fields in the
New York State Supreme Court,
County of New York with Affidavit
in Support dated August 31, 2018,
The New York State Supreme Court,
County of New York Declined to
Sign the Order to Show Cause on
September 5, 2018 .............................

273a

vii
Page(s)

Exhibit 17: Notice of Entry dated
September 25, 2018 of an
Order of the New York State
Supreme Court, Appellate Division,
First Department dated
September 25, 2018, Dismissing
the Appeal and Denying the
Application to Stay ............................

278a

Exhibit 18: Motion by Richard Fields
to Reopen Case and For Poor Person
Relief dated October 28, 2018 and
Filed in the New York State
Supreme Court, Appellate Division,
First Department ..............................

285a

Exhibit 19: Order of the New York State
Supreme Court, Appellate Division,
First Department dated
December 27, 2018 Denying
Richard Fields’ Motion to Restore
Appeal................................................

293a

Exhibit 20: Notice of Entry of
December 27, 2018 Order dated
January 2, 2019 with Affidavit
of Service ...........................................

296a

Exhibit 21: Notice of Appeal of
Richard Fields dated January 21,
2019 to the New York State
Court of Appeals ................................

301a

viii
Page(s)

Exhibit 22: Letter from John P. Asiello,
Chief Clerk of the New York State
Court of Appeals to Richard Fields
dated January 28, 2019, directing
comments on Subject Matter
Jurisdiction and Designating
February 11, 2019 as the Return
Date of the Motion for Leave to
Appeal................................................

304a

Exhibit 23: Order of the New York State
Supreme Court, County of New York
dated January 30, 2019 Dismissing
the Complaint ....................................

307a

Notice of Motion of Richard Fields
dated August 10, 2018.......................

309a

Probate Decree dated July 20, 2018 ...

312a

Letter from Richard Fields to
Albert V. Messina Jr., Esq. ...............

316a

Letter from the New York State
Office of the Attorney General to
the Parties dated July 26, 2019 ........

317a

Exhibit 24: Opposition to Motion
for Leave to Appeal of
Jules M. Haas, Esq. with Cover
Letter and Affidavit of Service..........

318a

ix
Page(s)

Exhibit 25: Order of the New York
State Court of Appeals dated
April 2, 2019 Dismissing Appeal.......

332a

Exhibit 26: Notice of Entry of
April 2, 2019 Order with Affidavit
of Service ...........................................

335a

Exhibit 27: Motion to Reargue of
Richard Fields to the New York
State Court of Appeals dated
April 20, 2019 ....................................

340a

Exhibit 28: Affirmation of
Jules M. Haas, Esq. in Opposition
to Motion to Reargue To the
New York State Court of Appeals
with Cover Letter and Affidavit
of Service ..........................................

359a

Exhibit 29: Order of the New York
State Court of Appeals dated
June 27, 2019 Denying Motion
to Reargue ........................................

369a

Exhibit 30: Notice of Entry of the
June 27, 2019 Order of the
New York State Court of Appeals
with Notice of Entry dated
July 1, 2019 and Affidavit of
Service ...............................................

371a

x
TABLE OF AUTHORITIES
Page(s)

Cases
Allied Chem. Corp. v. Daiflon, Inc.,
446 US 33 (1980)......................................

16

American Fidelity Ins. Co. v. U.S. Dist.
Court for No. Dist. Of Cal.,
538 F.2d 1371 (1976)................................

20

Baker Perkins, Inc v. Werner and
Peleiderer Corp.,
(710 F.2d 1561 (1983) ..............................

13

Bankers Life & Casualty Co. v. Holland,
346 U.S. 379 (1953) .............................20, 22, 23
Carson v. Office of Special Counsel,
534 F. Supp.2d 103 (D.D.C. 2008) ...........

14

Cheney v. U.S. Dist. Court for Dist. Of
Columbia,
452 U.S. 367 (2004) on remand
406 F.3d 723 ........................................20, 21, 22
Clark v. Allen,
331 U.S. 503 (1947) ..................................

10

College Sports Council v. Government
Accountability Office,
421 F. Supp. 59 (D.D.C. 2006) .................

14

Conner v. Texas Court of Crim. Appeals,
481 Fed. Appx. 952 (5th Cir. 2012)..........

15

xi
Page(s)

Curtis v. Brunsting,
704 F.3d 406 (5th Cir. 2013) ....................

10

Ex Parte Fahey,
332 U.S. 258(1947) ...................................

15

Firestone Rubber v. General Rubber
and Firestone Rubber v.
Hon. Frank Battisti,
431 F.2d 1199 (6th Cir. 1970),
cert. den. 401 U.S. 975 ........................13, 16, 18
Henson v. Ciba-Geigy Corp,
261 F.3d 1065 (2001) cert. granted
534 U.S. 1126, cert. denied 534 U.S. 1134,
affirmed 537 U.S. 28 ................................

15

In re Attorney General of the U.S.,
596 F.2d 58, cert. denied
444 U.S. 903 (1976) ..................................

20

In re Grand Jury Subpoenas,
581 F2d 1103 (4th Cir. 1978)
cert. den. 440 U.S. 971.............................

20

In re Special March Grand Jury,
Ingram Corp. v. Hon. James B. Parsons,
United States District Court,
541 F.2d 166 (7th Cir. 1976) .................... 18, 21
In re: Campbell,
264 F.3d 730 (7th Cir. 2001) ....................

15

Luellen v. Luellen,
972 F. Supp.2d 722 ..................................

12

xii
Page(s)

Markam v. Allen,
326 U.S. 490. (1946) .................................

10

Marshall v. Marshall,
547 U.S. 293 (2006), 392 F.3d 1118
(2004) ...................................................10, 11, 12
Matter of Aho,
29 N.Y.2d 241 (1976)................................

24

Pennhurst State Sch. & Hosp. v.
Halderman,
465 U.S. 89 (1984)....................................

14

Peters v. Noonan Surrogate’s Court Judge,
871 F. Supp.2d 218 (W.D.N.Y. 2012) .......

18

Rodriquez v. Chapman-Perry,
63 A.D.3d 645 (1st Dept. 2009) ................

23

Schlagenhauf v. Holder,
379 US 104 (1964) ....................................

15

Skaggs v. Brunner,
588 F. Supp. 2d 828. (S.D. Ohio 2008)
vacated on other grounds 549 F.3d 468
(6thCir. 2008) ...........................................

14

Sporck v. Peil,
759 F.2d 312 (1985) cert. den.
474 US 903 ...............................................

16

Stein v. KPMG, LLP,
486 F.3d 753 (2nd Cir 2007) ....................

21

xiii
Page(s)

Telecommunications Research and
Action Center v. F.C.C,
750 F2d 70 (1984) ....................................

13

Three Keys Realty v. SR Util. Holding Co.,
540 F.3d 220 (3rd Cir. 2008) ....................

11

U.S. v. Denedo,
556 U.S. 904 (2009) ..................................

13

Weiser LLP v. Coopersmith,
74 A.D.3d 465 (1st Dept. 2010) ................

23

Will v. U.S.,
389 U.S. 90 (1967).................................... 16, 20
Zheng v. City of New York,
92 A.D.3d 412 (1st Dept. 2012) ................

24

Statutes
28 U.S.C. § 1651 ............................................ 12, 19
28 U.S.C. § 1651(a) ........................................

10

28 U.S.C. § 1652(a) ........................................

20

N.J.S.A. 9:2-7.1 .............................................

5

Rules
CPLR § 5512(a)..............................................

23

CPLR § 5513(a).............................................. 24, 25
CPLR § 5513[b]..............................................

25

Sup. Ct. R. 20.4(a).........................................

19

xiv
Page(s)

Other Authorities
Eleanor Swift
One Hundred Years of Evidence
Law Reform: Thayer’s Triumph,
88 Cal. L. R. 2437 et seq. (2000) ..............

27

PRELIMINARY STATEMENT
Sydney Field’s Will dated October 6, 2014, was
admitted to probate by a final decree of the New
York County Surrogate’s Court dated July 20,
2018. The Decree dismissed the objections interposed by Sydney’s son, Richard, who was represented by counsel in the Surrogate’s Court
proceedings. Richard had been estranged from his
father for nineteen (19) years prior to his father’s
death and had engaged in a campaign of terror
directed at his father, Sydney’s wife, Teresa, as
well as Sydney’s other son, Kenneth and Kenneth’s
children.
Richard’s numerous appellate filings with the
New York Appellate Division and New York Court
of Appeals were all denied based upon clear procedural and substantive grounds. The underlying
basis of Richard’s objections which included lack of
due execution, undue influence, and fraud, were
found by the trial Court to be meritless. The Will
itself, as well as the prior Will, specifically disinherited Richard pursuant to Article FIFTH (b)
which stated: “Because my Son Richard Fields
hired a lawyer to sue me for money and because I
had to have him arrested and brought to court for
harassment of me and my wife Teresa, I deliberately make no provision for him in the Will and it is
my intention that he receive no part of my estate.”
Richard’s Petition to this Court seeks a Writ of
Mandamus directed to the New York Court of
Appeals to re-open his appeal in that Court and to

2
the New York County Surrogate’s Court to vacate
the probate of the Will. Such relief should be
denied on the ground that it is meritless.1
In sum, the probate exception to federal jurisdiction precludes a federal court from reviewing a
purely local issue regarding the validity of the Will
and the administration of Sydney’s estate at the
most basic level.
Moreover, the Petition itself fails to present any
underlying basis for federal subject matter jurisdiction by this Court. Mandamus is an extraordinary remedy which is to be rarely granted and does
not confer subject matter jurisdiction by itself.
Petitioner has not presented evidence of extraordinary circumstances surrounding a local probate
dispute over the validity of a New York Will to support this Court’s intervention. The petition should
be dismissed.
STATEMENT OF FACTS
This Petition for Extraordinary Writ concerns
the Last Will and Testament of Sydney Fields
dated October 6, 2014 (the “Will”). Sydney Fields
died on November 10, 2015. Supp. Appx. 16a. The
1

The Appendix submitted by Richard with his Petition
and Brief contains material not used in any of the courts
below. He has also altered transcripts of testimony. At the
beginning of Respondent’s Supplemental Appendix, we have
included a chart indicating which items are dehors the
record. He has also included respondents who were not parties in any of the courts below. Supp. Appx. 1a-5a. Only Diana
Palmeri is a correctly named party.

3
Will left the bulk of Sydney’s estate to the family of
Sydney’s third and last wife, Teresa. Diana
Palmeri, Teresa’s niece, was nominated in the Will
to be the Executor and appears on the petition in
the Surrogate’s Court proceeding propounding the
Will. Richard Fields, the petitioner herein, is the
son of Sydney’s marriage to his second wife Gladys.
Family History Leading Up to the Will
Sydney was born on December 30, 1918. Appx.
187a. In 1943, he married his first wife, Sarah.
Appx. 173a. In or about 1946, Sarah and Sydney
had a child, Kenneth. Appx. 187a. In 1949, Sarah
became mentally ill and Sydney and his mother
raised Kenneth without her. In 1957, Sydney had
his marriage to Sarah annulled.
In 1960, Sydney married his second wife, Gladys.
They had a son, Richard, the petitioner herein, in
1963. Appx. 187a. Also, in 1963, Kenneth left home
to go to MIT and never returned to his family
home. Appx. 187a. Gladys was cruel to Kenneth.
Appx. 187a. In 1969, Sydney divorced Gladys, but
she maintained custody of Richard. Appx. 173a,
Pet. Brief at 28-29.
In 1975, Sydney married his third wife, Teresa.
Appx. 173a. In 1977, Kenneth returned from living
in the West and resumed a familial relationship
with Sydney. Appx. 173a. In 1980, Sydney loaned
$83,000 at below market rate to Kenneth and his
wife, Alice, to buy a home. App 174a.

4
In 1982, Alice gave birth to Elizabeth, Kenneth's
first child. App 174a. A second child, Alexander,
was born thereafter. Appx. 174a. Sydney described
the period from 1982 to 1992 as “best of relations
with Ken, his wife and especially the grandchildren”. Appx. 187a.
Beginning in February 1989, Richard began a
campaign of threats and harassment against Sydney, Kenneth, Sydney’s uncle Sol, and Kenneth's
minor children Elizabeth and Alexander. In 1989
Sydney forwarded a packet of threatening letters
that Richard wrote to Sydney and Sol to Kenneth.
More correspondence followed. Appx. 175a-178a. In
1991, Richard began writing threatening letters to
Kenneth. Appx. 179a. Sydney finally agreed to
have Richard examined by two psychiatrists who
diagnosed Richard as suffering from schizophrenia.
Sydney did not consent to Richard’s institutionalization. Appx.178a.
In May 1991, Kenneth concluded that he should
sever ties with Sydney in the hope that it would
lessen Richard’s animosity toward Kenneth and his
family. Kenneth was afraid that Richard was a
danger to Kenneth’s family. After the break,
Richard’s threats ceased. Appx. 179a. In 1992, Kenneth and Alice repaid the mortgage debt to Sydney
and cut off contact with Sydney. Appx. 174a. By
1995, Sydney had Richard arrested on a complaint
of domestic violence. Appx. 179a.
On May 2, 1997, Sydney made his first Will.
Richard received a small ($35,000) bequest and

5
money was to be left in trust for the minor grandchildren Elizabeth, Alexander, and Richard’s son
Lewis. Sol Rosen was also to receive a small
bequest. The Will expressly disinherited Kenneth
with no explanation. Appx. 130a-136a. In 1998,
Sydney sued Kenneth and Allison in New Jersey
under that state’s Grandparent Visitation Statute,
N.J.S.A. 9:2-7.1 in an effort to maintain contact
with Kenneth’s children (Sydney’s grandchildren).
Appx. 173a. After an evidentiary hearing, the New
Jersey Court concluded that “Kenneth’s fears,
although they have not been realized, are indeed
very real. Richard’s threats cannot be ignored.” The
Court entered an order denying Sydney’s application for visitation. Appx. 184a-185a.
Some years later, Sydney Fields prepared and
sent a handwritten draft of the bequest provisions
for a new Will to Edward Curtin, the attorney who
had drafted the 1997 Will. Appx. 144a-146a. Mr.
Curtin drafted a new Will including in it the
changes set forth in Sydney’s handwritten instructions. On July 27, 2006, Sydney executed his second Will. Teresa was the primary beneficiary and
there are bequests to some members of Teresa’s
family, a small bequest to Richard’s son Lewis and
to Solomon Rosen. Appx. 137a-143a.
Paragraph FIFTH (a) of the 2006 Will disinherits
Kenneth: “Because my son Kenneth L. Fields
refused to let me visit my grandchildren, Elizabeth
and Alex P. Fields and refused to have a relationship with me even after a lawsuit where I sought
visitation rights, I deliberately make no provision

6
in this Will and it is my intention that he receive
no part of my estate. Paragraph FIFTH(b) of the
2006 Will also disinherits Richard: “Because my
Son Richard Fields hired a lawyer to sue me for
money and because I had to have him arrested and
brought to court for harassment of me and my wife,
Teresa[,] I deliberately make no provision for him
in the Will and it is my intention that he receive no
part of my estate.” App 137a-143a.
Subsequent to the execution of the 2006 Will, Sol
died. Teresa died on September 5, 2014. Supp.
Appx. 19a. Because Teresa was the major beneficiary of Sydney’s 2006 Will, Sydney contacted Attorney Curtin to draft an updated will. Sydney hand
wrote out a list of beneficiaries and the percentages
of his estate that they were to receive. Supp. Appx.
32a. On October 6, 2014, Sydney executed his third
and final Will. This Will was the subject of the probate proceeding in the Surrogate’s Court. Paragraph FIFTH (a) and (b) carried over from the 2006
Will and specifically disinherits Kenneth and
Richard. Paragraph FIFTH(c) disinherits all three
(3) grandchildren “[b]ecause [they] refused to have
a relationship with me after reaching adulthood.”.
Appx.147a-152a.
The October 6, 2014 Will signing was supervised
by Edward Curtin, Esq. who also notarized the signatures of the attesting witnesses to the Will, Jill
Curtin and Susan Lehman. Appx. 151a-156a.

7
PROCEDURAL HISTORY
In the New York County Surrogate’s Court probate proceeding, Richard filed objections to the
Will. Supp. Appx. 7a. Following joinder of issue and
discovery, in November 2017, Diana Palmeri, the
proponent of the Will, filed a Notice of Motion for
Summary Judgment with Exhibits. Supp. Appx.
10a-12a. The motion sought a decree dismissing
Richard’s objections to the Will and admission of
the Will to probate. In January 2018, Richard
Chen, the attorney for Richard, filed an Opposition
to Motion for Summary Judgment with Exhibits.
Supp. Appx. 16a-38a. A Reply Affirmation with
Exhibits was filed in February 2018. Supp. Appx.
40a-108a.
Oral argument was held on March 20, 2018
(Supp. Appx. 110a-139a) and the Surrogate’s Court
issued a bench decision followed by a written Order
on March 26, 2018 which provided that the March
20th transcript plus the March 26th Order together
constituted the decision on the Summary Judgment
motion and directed “Settle Probate Decree”. Supp.
Appx. 141a-149a. The decision dismissed Richard’s
objections and admitted the Will to probate. The
March decision determined the Motion for Summary Judgment but was not the final Judgment in the
case. On April 10, 2018, a Notice of Settlement of
Decree was served on Richard. Supp. Appx. 151a155a.
On May 9, 2018, Richard filed a Civil Appeal
with the Appellate Division, First Department.

8
Supp. Appx. 164a-167a. On July 5, 2018, Richard
filed a paper entitled Note of Issue with the Appellate Division, First Department with Appellate
Brief and Appendix. Supp. Appx. 169a-171a.
On July 20, 2018, the Decree of Probate was
signed by the New York County Surrogate. Appx.
8a-11a. On July 31, 2018, a Notice of Entry of Probate Decree was served. Supp. Appx. 174a-180a.
Entry of the Decree of Probate terminated the right
to appeal from the March 26th interlocutory Order.
A Notice of Appeal from the Decree of Probate was
never served.
In August 2018 Diana’s Notice of Motion to Dismiss Appeal or to Strike Portions of Brief and
Record with supporting affirmation detailing
Richard’s improper attempt to inject new evidence
in the record that was not presented to the trial
Court was filed with the Appellate Division First
Department. Supp. Appx. 187a-227a.
In August 2018, Richard filed a motion for a stay
with the Appellate Division, First Department.
Supp. Appx. 253a-258a. His motion was denied on
August 17, 2018.
In September 2018, Richard filed a Summons
and Complaint in the New York County Supreme
Court to enjoin the administration of the Estate of
Sydney Fields. Supp. Appx. 260a-272a. The Supreme
Court, New York County declined to sign the Order
to Show Cause with Temporary Restraining Order
that same day. Supp. Appx. 274a-277a.

9
On September 25, 2018, the Appellate Division,
First Department dismissed Richard’s appeal and
denied his application for a stay. Appx. 6a-7a.
Notice of Entry was served on Richard on September 25, 2018. Supp. Appx. 279a-284a.
In October 2018, Richard filed a motion to
restore his appeal to the Appellate Division calendar and to proceed as a poor person. Supp. Appx.
286a-292a. That motion was denied on December
27, 2018. Appx. 4a-5a. On January 2, 2019, a
Notice of Entry of the Appellate Division, First
Department’s December 27, 2018 Order was
served. Supp. Appx. 277a-300a.
On January 22, 2019, Richard filed a Notice of
Appeal to the New York State Court of Appeals.
Supp. Appx. 302a-303a. On January 28, 2019, the
Clerk of the Court of the New York State Court of
Appeals sent a letter directing submissions by February 11, 2019. Supp. Appx. 305a-306a.
On January 30, 2019, Diana’s Motion to Dismiss
Richard’s Complaint was granted by the New York
State Supreme Court, New York County. Appx. 3a.
In February 2019, Opposition to Richard’s
Motion for Leave to Appeal is filed with the New
York Court of Appeals. Supp. Appx. 319a-331a. On
April 2, 2019, the New York Court of Appeals
issued an order dismissing Richard’s appeal and
denying his Motion for Leave to Appeal. Appx. 1a2a. On April 4, 2019, a Notice of Entry of the April
2, 2019, Order was served on Richard. Supp. Appx.
336a-339a. Subsequently, in April 2019, Richard

10
filed an application with the New York State Court
of Appeals for leave to reopen the Appeal. Supp.
Appx. 341a-358a. In May, Diana opposed the
Motion to Reopen. Supp. Appx. 360a-368a. On June
27, 2019, the Court of Appeals issued an Order
denying Reargument. Appx. 20a. On July 1, 2019, a
Notice of Entry of the June 27th Order was served
on Richard. Supp. Appx. 372a-379a.
ARGUMENT
POINT I
THIS MATTER IS NOT SUBJECT TO
FEDERAL JURISDICTION
A. The Petition should be denied because it
is precluded by the Probate Exception
The Judiciary Act of 1798 (All Writs Act, 28
U.S.C. § 1651(a)) did not confer subject matter
jurisdiction over probate matters to the federal
courts. Instead, jurisdiction over probate matters
was reserved to the state courts. Markam v. Allen,
326 U.S. 490, 494. (1946) reversed on other
grounds Clark v. Allen, 331 U.S. 503 (1947). “[T]he
probate exception reserves to state probate courts
the probate or annulment of a will and the administration of the decedent’s estate; it also precludes
federal courts from disposing of property that is in
the custody of the state probate court.” Marshall v.
Marshall, 547 U.S. 293, 311-312 (2006), Curtis v.
Brunsting, 704 F.3d 406, 409 (5th Cir. 2013). In the
instant petition, petitioner seeks to have this Court

11
issue a Writ of Mandamus, inter alia, to “direct the
New York County Surrogate’s Court to vacate the
order of Probate and enter judgement in favor of
petitioner”. Pet. Brief at 3-4.
This Court’s decision in Marshall established
that the probate exception applies, and denies the
federal courts jurisdiction, in three areas: 1) probating the will, 2) administering the decedent’s
estate, 3) assuming in rem jurisdiction over property already in the custody of the probate court.
Id. at 296, and see, Three Keys Realty v. SR Util.
Holding Co., 540 F.3d 220, 227 (3rd Cir. 2008).
Though the “Questions Presented” in the petition
(Pet. Brief at i) are actually questions of fact rather
than law, they all go to the issue of how the Will
was probated and what evidence the probate court
deemed credible or relevant when deciding to probate the Will. Clearly, this falls squarely within
the remaining contours of the post Marshall probate exception. “[A] claim falls within the probate
exception if it raises ‘questions which would ordinarily be decided by a probate court in determining
the validity of the decedent’s estate planning
instrument,’ whether those questions involve
‘fraud, undue influence [,or] tortious interference
with the testator’s intent’.” Marshall at 304, quoting, the same case in the court below, 392 F.3d
1118, 1133 (2004).
Further, in the Conclusion section of the petitioner’s Brief, petitioner appears to suggest that
this Court take jurisdiction over the property

12
already in the custody of the New York County Probate Court and turn it over to him and his ex-wife.
Pet. Brief at 31-36. At the very least, this goes to
the heart of how the estate is to be administered.
Federal jurisdiction fails under all three prongs
of the Marshall standard for a probate exception.
Luellen v. Luellen, 972 F. Supp.2d 722, 732-733
(W.D.Pa. 2013), generally.
As shown above, the petition should be denied
because it is precluded by the Probate Exception.
The March 26, 2018 Decision and Order on the
motion for summary judgment (sometimes referred
to as the “interlocutory order”) and the July 20,
2018 final Decree of Probate (sometimes referred to
as the “final order”) concern only the probate of the
Will and the limited objections interposed by
Richard as to the Will’s validity.
B. There is No Federal Question or other
basis for Subject Matter Jurisdiction
It is well settled that federal courts are courts of
limited jurisdiction, unlike state courts, and cannot
entertain a matter unless there is federal subject
matter jurisdiction. This petition is not a petition
for certiorari seeking ultimate appellate review, it
is a Petition for Extraordinary Writ under the All
Writs Act.
The All Writs Act allows for issuance of Writs of
Mandamus but does not itself confer jurisdiction
which must be separately established. Title 28
USC § 1651.

13
The All Writs Act does not confer subject matter
jurisdiction. “[T]he All Writs Act and the extraordinary relief the statute authorizes are not a source
of subject matter jurisdiction.” U.S. v. Denedo, 556
U.S. 904, 913 (2009). This Court held that the All
Writs Act should not be construed to grant jurisdiction to hear and determine the underlying cause of
action. Id. at 914. “The authority to issue a writ
under the All Writs Act is not a font of jurisdiction.” Id.
“The All Writs Act is not an independent grant
of jurisdiction; it merely permits courts to issue
writs in aid of jurisdiction acquired to grant some
other form of relief.” Telecommunications Research
and Action Center v. F.C.C., 750 F2d 70, 77 (1984).
“The All Writs Act is not an independent basis of
jurisdiction, and petitioner must initially show
that the action sought to be corrected by mandamus
is within the court’s statutorily defined subject matter jurisdiction. Baker Perkins, Inc v. Werner and
Pfleider Corp. (710 F.2d 1561 (1983).
In Firestone Rubber v. General Rubber and Firestone Rubber v. Hon. Frank Battisti, the appellant
asked the Court of Appeals to issue a Writ of Mandamus directing the District Judge to either
reverse his ruling on the issue of patent misuse or
to certify that the appellant should be allowed an
interlocutory appeal. The Court rejected the first
request as “a transparent attempt to substitute a
writ of mandamus for an appeal and we reject it as
being without merit.” 431 F.2d 1199, 1200 (6th Cir.
1970), cert. den. 401 U.S. 975. The Court also declined

14
“to issue a writ of mandamus directing the District
Judge to certify an interlocutory appeal. Id. The
Court of Appeals did “not consider his refusal to
certify an interlocutory appeal ‘a clear abuse of discretion or usurpation of judicial power warranting
issuance of an extraordinary writ. . .”. Id. internal
citations omitted.
A federal Court has no general jurisdiction to
issue Writs of Mandamus where that is the only
relief sought. “A federal court cannot issue a writ of
mandamus that compels state officials to comply
with state law”. Skaggs v. Brunner, 588 F. Supp. 2d
828, 833. (S.D. Ohio 2008) vacated on other grounds
549 F.3d 468 (6th Cir. 2008), relying on Pennhurst
State Sch. & Hosp. v. Halderman, 465 U.S. 89
(1984). “It is well settled that a federal court has no
general jurisdiction to issue writs of mandamus
where that is the only relief sought.” Id.
“[T]he All Writs Act allows a court to order a
remedy only where subject matter jurisdiction
already exists. Carson v. Office of Special Counsel,
534 F. Supp.2d 103, 104 (D.D.C. 2008). “[A]ll Writs
Act, . . . , is not an independent grant of jurisdiction, it merely permits courts to issue writs in aide
of jurisdiction acquired to grant some other form of
relief.” College Sports Council v. Government
Accountability Office, 421 F. Supp. 59, 71 (D.D.C.
2006).
The All Writs Act does not provide an independent basis for federal subject matter jurisdiction and
a plaintiff cannot sue invoking only the Court’s All

15
Writs power. Henson v. Ciba-Geigy Corp, 261 F.3d
1065, 1070 (2001) cert. granted 534 U.S. 1126, cert.
denied 534 U.S. 1134, affirmed 537 U.S. 28.
Richard has failed to assert any independent
jurisdictional basis for his Petition for Extraordinary Writ. Richard’s petition and supporting brief
are a naked request for mandamus without the
necessary jurisdictional underpinning.
C. A Writ of Mandamus Is not a Method for a
Backdoor Appeal.
It is well settled that a Writ of Mandamus is not to
be used as a substitute for an appeal. Ex Parte Fahey,
332 U.S. 258, 259-260 (1947). A Writ of Mandamus
is not to be used when the most that can be said is
that the District Courts erred in ruling on matters
within their jurisdiction. Schlagenhauf v. Holder,
379 US 104, 112 (1964). The Writ of Mandamus is
appropriate when there is a clear abuse of discretion.
Id. at 110.
“Federal courts have no authority to issue writs
of mandamus to direct state courts and their judicial officers in the performance of their duties
where mandamus is the only relief sought.” Conner
v. Texas Court of Crim. Appeals, 481 Fed. Appx.
952 (5th Cir. 2012). Federal Courts “cannot, as a
general rule anyway, . . . , use [its] power to control or interfere with state court litigation, thus
exceeding [its] jurisdiction. In re: Campbell, 264
F.3d 730, 731 (7th Cir. 2001).

16
“It is not disputed that the remedy of mandamus
is a drastic one, to be invoked only in extraordinary
situations.” Allied Chem. Corp. v. Daiflon, Inc. 446
US 33, 34 (1980). “Although a simple showing of
error may suffice to obtain a reversal on direct
appeal, to issue a writ of mandamus under such
circumstances ‘would undermine the settled limitations upon the power of an appellate court to
review interlocutory orders’.” Id. quoting Will v.
U.S. 389 U.S. 90, 98 (1967). “The peremptory writs
are among the most potent weapons in the judicial
arsenal.” Will at 107. As such, they are reserved for
really extraordinary causes. Id.
A Writ of Mandamus directing a federal judge to
certify an interlocutory appeal would not be issued
where the judge’s refusal to certify was not a clear
abuse of discretion. Firestone Tire & Rubber Co. v.
General Tire & Rubber Co., supra 431 F.2d 1200.
“[W]here a matter is committed to discretion, it
cannot be said that a litigant’s right to a particular
result is clear and indisputable, a writ of mandamus will only be granted for clear error of law.”
Sporck v. Peil, 759 F.2d 312, 314 (1985) cert. den.
474 US 903.
Richard has not presented a scintilla of fact or
even an assertion that any extraordinary situation
exists or that there was an abuse of discretion. The
underlying facts of this matter and its procedural
history conclusively establish that the Will was
duly executed under attorney supervision without
any undue influence or fraud. The language of the
Will itself demonstrates that Richard was disinher-

17
ited for the entirely logical reason of his threatening behavior toward Sydney and Teresa and his
decades long estrangement from his father. There
was nothing unusual or abusive in the proceedings
in the state courts and the credibility determinations were well within the normal discretion of a
court of first instance and well supported by competent evidence.
POINT II
THE COURTS TO WHOM THE ORDERS
OF MANDAMUS WOULD BE DIRECTED
ARE NECESSARY PARTIES
The Surrogate’s Court and the Court of Appeals
were not made parties to this petition. The failure
to join them as parties is fatal to the petition.
The Petition states that it seeks a Writ of Mandamus directed at the New York State Court of
Appeals. Pet. Brief at 1. The petition erroneously
claims that the Court of Appeals should be directed
to declare that a final decision exists from which an
appeal can be taken. Id. at 3. Petitioner misreads
the Order of the Court of Appeals.
Petitioner also seeks a Writ of Mandamus
“direct[ing] the New York County Surrogate’s Court
to vacate the [existing July 20, 2018] Order of Probate and enter judgment in favor of Petitioner”.
Pet. Brief at 3-4. The petition does not, however,
name the Surrogate’s Court or the New York Court

18
of Appeals as respondents in the petition.2 See
Peters v. Noonan Surrogate’s Court Judge, 871 F.
Supp.2d 218 (W.D.N.Y. 2012). See also In re Special
March Grand Jury, Ingram Corp. v. Hon. James B.
Parsons, United States District Court, 541 F.2d 166
(7th Cir. 1976). Firestone Rubber v. General Rubber
and Firestone Rubber v. Hon. Frank Battisti, supra.
There was a “final order” of the Surrogate’s
Court on July 20, 2018, its title is Decree of Probate. Appx. 8a-11a. Petitioner did not appeal that
final Order within the deadline for taking such
appeal. Instead, he appealed an interlocutory
Order dated March 26, 2018, the Decision and
Order of the Surrogate’s Court of New York. Appx.
12a-19a. The Appellate Division dismissed that
appeal on September 25, 3018. Appx. 6a-7a. Petitioner then made a motion to restore the appeal of
the non final interlocutory Order, which was
denied on December 27, 2018. Appx. 4a-5a. He then
applied for leave to appeal to the New York State
Court of Appeals. Appx. 1a-2a. The Court of Appeals
denied his application for leave to appeal from the
September 25, 2018 Appellate Division Decision
because it was not appealed in a timely manner.
The Court of Appeals denied the appeal from the
2

The petition names Diana Palmeri, Olga Plameri,
Victor Palmeri, Cynthia Palmeri, and Ana Garzon Yepez.
Only Diana Palmeri, executrix of the estate, was a party to
the proceedings below. There is no explanation in the petition
as to why the other parties, who along with Diana are beneficiaries under the will, were added or what jurisdiction is
obtained over them since they were not parties to the proceedings below.

19
December 27, 2018 Appellate Division decision on
the motion to restore the appeal to the Appellate
Division’s calendar as not an appeal from a final
order. On June 27, 2019, the New York State Court
of Appeals denied a motion for reargument. Appx.
20a.
At no time did Petitioner actually take an appeal
from the final Order of the Surrogate’s Court (the
July 20th Decree of Probate) and his time to do so
has long since expired. Further, as both Orders of
the Surrogate’s Court demonstrate, the correct
decision was reached in that Court. Appx. 12a-19a
and 8a-11a.
POINT III
PETITIONER DID NOT EVEN ENUNCIATE
A BASIS FOR FEDERAL JURISDICTION
On page 2 of the petitioner’s Brief is the following assertion: “This Petition for Extraordinary Writ
of Madamus is filed pursuant to Sup. Ct. R. 20.4 (a).
This Court has jurisdiction under 28 U.S.C. § 1651.
S.C.R 20.4(a) relates to habeas corpus petitions,
not mandamus petitions. Section 1651, as noted
above, does not confer jurisdiction; it allows the
issuance of extraordinary writs in aid of jurisdiction that otherwise already exists. Review of the
remainder of petitioner’s brief does not reveal an
assertion of a basis for jurisdiction. Schnagelhauf,
supra.

20
POINT IV
USE OF EXTRAORDIANRY WRITS IS RARE
The power of federal courts to issue a Writ of
Mandamus comes from the All Writs Act. 28 U.S.C.
§ 1652(a) allows: “[t]he Supreme Court and all
courts established by Act of Congress may issue all
writs necessary or appropriate to their respective
jurisdictions and agreeable to the usages and principles of law.” “Although courts have not confined
themselves to an arbitrary and technical definition
of ‘jurisdiction’,” (Will v. U.S., 389 U.S. 90, 95
(1967).) “only exceptional circumstances amounting to a judicial “usurpation of power”,” (ibid.) or
a “clear abuse of discretion’ (Bankers Life & Casualty Co. v. Holland, 346 U.S. 379, 383 (1953).) “will
justify the invocation of this extraordinary remedy”
(Will, 389 U.S. at 95.). Cheney v. U.S. District
Court for the District of Columbia, 542 U.S. 367,
380 (2004).
Only the truly exceptional cases warrant a Writ
of Mandamus. In re Attorney General of the U.S.
596 F.2d 58, 63, cert. denied 444 U.S. 903 (1976).
[N]ot every hardship to a litigant warrants
issuance of a writ [of mandamus]. American Fidelity Ins. Co. v. U.S. Dist. Court for No. Dist. Of Cal.,
538 F2d 1371,1376 (1976).
A party who seeks the extraordinary remedy of
mandamus to compel a court to take a certain
action has a heavy burden. In re Grand Jury Subpoenas, 581 F2d 1103, 1107 (4th Cir. 1978) cert.

21
den. 440 U.S. 971. The Court must “be persuaded
that the petitioner has a clear and indisputable
right which the district court by its action has
abridged, . . .”. Id. The instant petition does not
even allege that Richard has a clear and indisputable right to his late father’s estate. It speculates about whether or not his father should have
forgiven Richard’s threats to Sydney, to Teresa, to
Richard’s brother Kenneth and to Richard’s niece
and nephew. The undisputed facts are that
Richard’s threats and the fear for personal safety
that he created destroyed the family bonds and
Richard’s carping that it’s not fair that his father
didn’t forgive him hardly meets this stringent
standard.
Before issuing a Writ of Mandamus the Court
must be satisfied by a three-pronged test. “[F]irst,
the party seeking relief must have ‘no other adequate means to attain the relief he desires,’ second,
the petitioner must show that his right to the writ
is ‘clear and indisputable’, and third, the issuing
court must be satisfied that the writ is appropriate
under the circumstances.” Stein v. KPMG, LLP,
486 F.3d 753, 759-760 (2nd Cir 2007), quoting
Cheney v. U.S. Dist. Court, 542 U.S. 367, 380-81
(2004). “The placing of such a heavy burden on the
party seeking mandamus and the requiring of
exceptional circumstance to activate appellate
jurisdiction arise from the same policy that gave
rise to the finality statute.” In re Special March
1974 Grand Jury, Ingraham Corp. v. Hon. James

22
Parsons, United States District Court, 541 F.2d
166, 171-172 (7th Cir. 1976).
This Court has the power to issue Writs of Mandamus against judges, but such remedies are drastic and extraordinary and should be reserved for
cases where appeal is inadequate. Bankers Life and
Cas. Co. v. Holland, 346 U.S. 379, 384-385 (1953).
Mandamus does not lie where a decision, even if
erroneous, does not involve an abuse of judicial
power. Id. 382.
POINT V
MANDAMUS DOES NOT LIE WHEN
PETITIONER HAS ALREADY HAD
HIS CASE HEARD APPROPRIATELY.
IT IS NOT A SUBSTITUTE FOR
APPELLATE REVIEW
The instant petition is not one for certiorari. It
does not seek appellate review by this Court. It is a
Petition for Mandamus and, thus, the Court’s role
is limited to the relief requested by petitioner.
Three conditions must be met before a writ of
mandamus can issue: 1) the party seeking the writ
must have no other adequate means to attain the
relief he desires; 2) petitioner must satisfy the burden of showing that his right to issuance is clear
and undisputable, 3) the issuing Court, in the exercise of it’s own discretion, must be satisfied that
issuance is appropriate under the circumstances.
Cheney v. U.S. Dist. Court for Dist. Of Columbia,

23
452 U.S. 367, 380-381 (2004) on remand 406 F.3d
723. The traditional use of mandamus is to confine
an inferior Court to the lawful exercise of its prescribed jurisdiction or to compel it to exercise
authority when it has a duty to do so. Bankers Life
& Cas. Co. v. Holland, 346 U.S. 379, 382 (1953).
Petitioner had the opportunity to take an appeal
from the Surrogate’s Court’s final order, the July
20, 2019 Decree of Probate. He did not do that. He
was represented by counsel in the Surrogate’s
Court proceedings. At the time petitioner filed his
Notice of Appeal on April 24, 2018, no final judgment had been entered in the Surrogate’s Court.
(the March 26, 2018 Order states “[t]his decision,
together with the transcript of the March 20, 2018
proceedings, constitutes the order of the court.
Settle Probate Decree. Appx. 19a. It is well settled
that ‘[n]o appeal lies from a decision directing settlement of judgment.” Weiser LLP v. Coopersmith,
74 A.D.3d 465, 469 (1st Dept. 2010). See CPLR
§ 5512(a); Rodriquez v. Chapman-Perry, 63 A.D.3d
645, 646 (1st Dept. 2009) (“Since the record does
not contain the settled order that the motion court
directed to implement its decision to dismiss the
complaint as to respondents, the issues regarding
the finding that respondents are entitled to summary judgment are not properly before this court.
No Appeal lies from that decision”).
The petitioner not only improperly appealed from
the Order directing the settlement of the Probate
Decree, he improperly appealed from the interlocutory March 26, 2018, Order alone and not from the

24
two (2) documents that the Surrogate’s Court stated
constitute the Order of the Court, the March Order
plus the transcript of the hearing. Appx. 19a.
On July 20, 2018, the final Decree in this matter
issued Appx. 8a-11a. It is well settled that any
right to appeal from an interlocutory order terminates with the entry of the final judgment. Matter
of Aho, 29 N.Y.2d 241, 248 (1976). See Zheng v. City
of New York, 92 A.D.3d 412, 413 (1st Dept. 2012)
(“This Court is now obligated to dismiss plaintiffs’
appeal since well-established precedent mandates
that, once a final judgment is entered, the right to
directly appeal from an interlocutory order terminates”). Thus, even if Petitioner had a right to prosecute his Appellate Division appeal of the March
26th Decision, and even if he had done so correctly,
the appeal would have terminated by action of law
when the July final Decree was issued. CPLR
§5513(a) states that an appeal as of right must be
taken within 30 days after service by a party upon
the appellant of a copy of the of the judgment or
order appealed from and written notice of its entry.
The Decree of Probate with Notice of Entry was
served on July 31, 2018. Supp. Appx. 151a-155a.
Clearly, the time to take that appeal was long past
by the time the Appellate Division dismissed the
appeal of the March 26th Decision on September
25, 2018. Appx. 6a-7a. The petitioner’s motion to
restore the case to the Appellate Division calendar
was denied as well in December of 2018. Appx.
4a-5a.

25
Instead of taking a timely appeal from the Appellate Division rejections, petitioner filed a new
action in New York County Supreme Court, which
was dismissed for lack of jurisdiction in January
2019. Appx. 3a. Petitioner’s Motion for Leave to the
Court of Appeals was denied. The Appeal from the
September 25, 2018 Appellate Division decision
was untimely under CPLR 5513[a] and CPLR
5513[b]. The appeal from the December 2018
Appellate Division decision regarding restoring the
case to the Appellate Division calendar was dismissed because it was not an order that finally
determines the proceedings, but rather a post
determination procedural decision. Appx. 1a-2a.
Despite the fact that the second Appellate Division decision (December 27, 2018) and the Court of
Appeals decision (April 2, 2019) were made on a
procedural basis, both sides argued the underlying
merits at each juncture. Both the Appellate Division and the Court of Appeals had the underlying
merits available to them and could have chosen to
waive procedural defects if they had any qualms
about an injustice occurring.
POINT VI
THE CASE WAS CORRECTLY DECIDED
AT EVERY STAGE BELOW
Petitioner is the estranged adult child of the
maker of a Will offered for probate in New York
County Surrogate’s Court. Appx. 8a. Objections
were made to the Will by petitioner who was repre-

26
sented by counsel. Appx. 9a. Petitioner admits that
he did not see his father for the last 19 years of the
father’s life (Appx. 12a.) and that he sent harassing
letters and photos to his father and to his half
brother and that Orders of Protection were issued
against him and criminal charges were filed
against him in connection with his behavior
towards the father, the father’s third wife and the
half brother and the half brother’s children. Appx.
12a-13a, footnote 1.
In reality, this “harassment” constituted death
threats (Appx. 1776a-178a) and photos of petitioner with guns and bombs to demonstrate that he
wanted his family to believe that he had the wherewithal to carry out those death threats. Appx.
190a-191a. Because Sydney refused to end his relationship with Richard when Richard began to
threaten the lives of Richard’s niece and nephew,
Sydney lost contact with his other son Kenneth and
Kenneth’s two children. Pet. Brief at 29. Kenneth’s
family was also disinherited in the probated Will.
Appx. 148a-149a.
Both the Will that was probated and the Will
that it replaced contained identical clauses making
it crystal clear that the testator explicitly disinherited his son, the petitioner herein. Appx. 13a. Article Fifth (b) of the Will states: “Because my son
Richard Fields hired a lawyer to sue me for money
and because I had to have him arrested and
brought to court for harassment of me and my wife,
Teresa[,] I deliberately make no provision for him

27
in this Will and it is my intention that he receive
no part of my estate.” Id.
Petitioner raised several objections to the probate of the Will: lack of testamentary capacity;
undue influence; duress, mistake or fraud, and that
it was not duly executed. Appx. 14a. Extensive discovery was taken, excerpts of which were included
in the petitioner’s appendix despite being dehors
the record. See the table appearing at 1a-5a of the
Supp. Appx. It is respectfully requested that the
court take judicial notice of this chart, and use it to
take note of petitioner’s attempts to misrepresent
the record and to inject new allegations that are
dehors the record, as detailed in said table. In the
March 26, 2018, interlocutory Decision and Order
issued on the motion for summary judgment dismissing the objections and directing the probate of
the Will, Judge Mella discussed the various medical records, testimony and contemporaneous
records which she relied on in determining each of
the objections. Appx. 12a -19a. She also made credibility determinations, something well within the
discretion of a Court of original jurisdiction.
Eleanor Swift One Hundred Years of Evidence
Law Reform: Thayer’s Triumph, 88 Cal. L. R. 2437
et seq. (2000).
The final, appealable, decision of the Surrogate’s
Court, the July 20, 2018, Decree of Probate specifically lists the information which the Court relied
upon in reaching the decision to declare the Will
admitted to probate. Appx. 8a-11a.

28
For reasons unknown to the opponents of the
Petition of Extraordinary Writ, petitioner took an
appeal from the interlocutory March motion Decision, not the final July Decree of Probate. Appx. 6a.
It was his failure to appeal the Decree of Probate
that led to the procedural decisions in the New York
appellate Courts, See Point V above. The underlying merits were in the records on appeal and all the
appellate judges had the ability to consider them
and avert a miscarriage of justice if it appeared to
them. Clearly, given the uncontroverted facts, the
validity of the Will was soundly recognized at all
judicial levels.

29
CONCLUSION
In view of the above, Richard’s Petition for mandamus relief should be denied in its entirety. Both
the probate exception and the fundamental lack of
any jurisdictional basis to support mandamus
relief is fatal to the Petition and require its dismissal. Moreover, the underlying factual setting
provides overwhelming evidence that the Surrogate’s Decisions were soundly made and that
Richard’s objections to the probate of the Will were
meritless.
Respectfully submitted,
___________________________
JULES MARTIN HAAS, ESQ.
Counsel of Record
845 Third Avenue, Suite 1400
New York, New York 10022
212-355-2575
attorney.haas845@gmail.com
and
NOVICK & ASSOCIATES P.C.
202 East Main Street, Suite 208
Huntington, New York 11743
631-547-0300
amessina@novicklawgroup.com
Attorneys for Respondent
October 28, 2019

APPENDIX

1a
Appendix

Page Document
No.

Appendix B 34a

Appendix B 53a

Appendix B 59a

Appendix B 64a

1

Note

Subpoena
Duces Tecum
to Dr. Janet
Searle

Records were
our Exhibit Q
but the subpoena
itself is not part
of the record1
Letter dated This letter is
March 24,
not part of the
2016 from
record
Objectant
forwarding
Vanguard’s
USB to
Petitioner
Vanguard
telephone
transcripts;
phone
conversation
between
Jeffrey Kern
and Sydney
Fields
Letter from
Sydney
Fields to
Jeffrey Kern
(no date)

This is not part
of the record

This letter is
not part of the
record

The words “not part of the record” means that the documents were not presented to the trial court by any party on
the motion for summary judgment.

2a
Appendix

Page Document
No.

Appendix C 68a

Appendix C Page
69a
Appendix C Page
70a
Appendix C Page
78a

Appendix C Page
78a

Testimony
of Diana
Palmeri

Note

Excerpts from
this page are not
in the record.
Portions of the
excerpts on this
page are from
page 26 of
Diana Palmeri’s
transcript and
from page 30 of
Edward Curtin’s
transcript.
Testimony
Excerpts from
of Diana
this page are not
Palmeri
in the record
Testimony
Excerpts from
of Diana
this page are not
Palmeri
in the record
Testimony
Excerpts from
of Ed Curtin this page have
been changed
from the original
testimony
Testimony
Excerpts from
of Ed Curtin this page have
been altered
from the original
transcript

3a
Appendix

Page Document
No.

Note

Appendix C Pages Testimony of The testimony
78a Ed Curtin
at the bottom
and
paragraph of
79a
page 78a is from
page 49 of the
deposition transcript until the
sentence beginning with “I know
he was focused
on”, and the words
completing the
same sentence
“the certain boilerplate that he
was quite familiar with” is from
page 52 of the
deposition transcript, ending
with the words
“was there.” The
quoted excerpt is
misrepresented
as a continuous
excerpt when in
fact it was manufactured from
two separate
pages from the
same transcript.

4a
Appendix

Page
No.
Appendix C Page
81a84a
Appendix C 90a

Document

Note

Testimony of Excerpts from
Ed Curtin
this page are not
in the record
Letter from This letter is not
Novick &
part of the
Assoc. to
record
Richard
Chen, Esq.
dated
08.24.18

Appendix D 93a96a

Testimony
This testimony
of Pia Fields is not part of the
record
Appendix D 97a- Pia Fields
Not part of the
105a Provides in record
Deposition
(Exhibit 3)
Appendix G 164a Letter from Not part of the
Jules
record
Haas, Esq.
To Jay C.
Laubscher,
(Court
Referee)
Appendix G 168a Letter from Not part of the
Dr. Mihailescu record
and
Dr. Giove

5a
Appendix
Appendix

Appendix

Appendix

Appendix

Page Document
No.
H 171a Letter from
Albert V.
Messina
Jr., Esq.
To Richard
Chen, Esq.
Dated April
16, 2019
H 172a Opinion of
Superior
Court of
New Jersey,
Chancery
Division
dated May
14, 1998
H 187a Sydney
Fields Brief
Autobiography
H 196a Family Photo

Note
Not part of the
record

Not part of the
record

Not part of the
record
Not part of the
record

6a

EXHIBIT 1

7a
Exhibit List
Exhibit A:

Probate Petition dated Dec. 1, 2015

Exhibit B:

Last Will and Testament dated
October 6, 2014

Exhibit C:

Objections to Probate dated Feb. 24,
2016

Exhibit C-1:

Preliminary Letters Testamentary
dated Jul. 19, 2016

Exhibit C-2:

Death Certificate of Sydney H. Fields

Exhibit C-3:

Affidavit of Diana Palmeri sworn to
on Nov. 28, 2017

Exhibit C-4:

Death Certificate of Teresa Fields

Exhibit C-5:

Affirmation of Edward R. Curtin,
Esq. dated Nov. 27, 2017

Exhibit D:

Deposition Transcript Excerpts of
Susan Lehman, Nov. 14, 2016

Exhibit E:

Deposition Transcript Excerpts of
Jill Curtin, Nov. 14, 2016

Exhibit F:

Deposition Transcript Excerpts of
Edward Curtin, Feb. 1, 2017

Exhibit G:

Handwritten Last Will and Testament

Exhibit H:

Last Will and Testament dated
July 27, 2006

Exhibit I:

Demand for a Verified Bill of Particulars

Exhibit J:

Amended Verified Bill of Particulars

8a
Exhibit K:

Deposition Transcript Excerpts of
Richard Fields, Feb. 24, 2017 &
Apr. 20, 2017

Exhibit L:

Deposition Transcript Excerpts of
Pia Fields, Jun. 14, 2017

Exhibit M:

Deposition Transcript Excerpts of
Maxine Neil, Jul. 24, 2017

Exhibit N.

Chase Bank Subpoena Response

Exhibit O:

Vanguard Records

Exhibit P:

Dr. Elizabeth B. Harrington Records

Exhibit Q:

Dr. Janet B. Searle Records

Exhibit R:

Dr. Arthur J. Kennish Records

Exhibit S:

Pre-Trial Stipulation Apr. 20, 2017

Exhibit T:

Handwritten Residuary Percentages

Exhibit U:

Markup Draft

Exhibit V:

Orders of Protection

Exhibit W:

Richard Fields Affidavit sworn to on
May 24, 2016

Exhibit X:

Family and Criminal Court Documents

Exhibit Y:

Photographs and
Richard Fields

Exhibit Z:

Signature Exemplars

Exhibit AA:

William McAllister Affidavit sworn
to on September 30, 2016

Exhibit BB:

Arthur Fishelman Affidavit sworn to
on June 12, 2017

Letters

from

9a
Exhibit CC:

Adrienne Lawler Affidavit sworn to
on September 14, 2016

Exhibit DD:

Stuart Michael Affidavit sworn to on
September 14, 2016

Exhibit EE:

Irving Rothbart Affidavit sworn to
on September 14, 2016

Exhibit FF:

Gloria Madero Affidavit sworn to on
July 12, 2017

10a
SURROGATE’S COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
File No.: 2016-111
Filed November 30, 2017
Probate Proceeding, Will of
SYDNEY H. FIELDS,
Deceased.
NOTICE OF MOTION
PLEASE TAKE NOTICE that upon the affirmation
of Jules Martin Haas, Esq., dated November 28,
2017, with exhibits annexed thereto, the affirmation of Edward R. Curtin, Esq., dated November 27,
2017, the affidavit of Diana Palmeri, sworn to on
November 28, 2017, the affidavit of Adrienne
Lawler sworn to on September 14, 2016, the affidavit of Stuart Michael sworn to on September 14,
2016, the affidavit of Irving Rothbart sworn to on
September 14, 2016, the affidavit of William
McAllister sworn to on September 30, 2014, the
affidavit of Gloria Madero sworn to on July 12,
2017, and upon all the papers and proceedings
heretofore had herein, the undersigned will move
this Court, at 31 Chambers Street, Room 503,
New York, New York, on January 9, 2018 at 10:00
o’clock in the forenoon of that day, or as soon thereafter as counsel may be heard, for an Order pur-

11a
suant to CPLR § 3212 granting Petitioner Diana
Palmeri’s motion for summary judgment dismissing objections to probate Richard Fields to the Last
Will and Testament of Sydney H. Fields and admitting said instrument to probate, together with such
other and further relief as may be just, proper, and
equitable.
PLEASE TAKE FURTHER NOTICE that pursuant to
CPLR §2214(b), opposing papers, answering affidavits and notices of cross-motion with supporting
papers, if any, must be served upon the undersigned no less than seven (7) days before the return
date of this motion.
Dated: New York, New York
November 28, 2017
/s/ JULES MARTIN HASS
Jules Martin Hass, Esq.
Co-Counsel for Petitioner
845 Third Avenue, Suite 1400
New York, New York 10022
212-355-2575
To:
Richard Alan Chen, Esq.
Attorney for Objectant, Richard Fields
41-60 Main Street, Suite 203
Flushing, New York 11355
(718) 886-8181

12a
Attorney General of the State of New York
Lisa Barbieri, Esq.
Assistant Attorney General
Charities Bureau
120 Broadway
New York, New York 10271
(212) 416-8396

13a

EXHIBIT 2

14a
EXHIBIT LIST
EXHIBIT A:

Affidavit of Richard Fields

EXHIBIT B:

Probate Proceedings of Teresa Fields

EXHIBIT C:

Will of Sydney Fields dated May 20,
1997

EXHIBIT D: Will of Sydney Fields dated July 27,
2006
EXHIBIT E:

Last Will of Sydney Fields dated
October 6, 2014

EXHIBIT F:

Pages of Deposition Transcript of
Edward Curtin, February 1, 2017

EXHIBIT G: Pages of Deposition Transcript of
Jill Curtin, November 14, 2016
EXHIBIT H: Deposition Transcript of Susan
Lehman, November 14, 2016
EXHIBIT I:

Pages of Phone Conversation Between
Jeffrey Kern and Sydney Fields
dated October 1, 2014

EXHIBIT J:

Medical Records subpoenaed by Mount
Sinai Hospital

EXHIBIT K: Letters from Richard Fields to
Sydney Fields
EXHIBIT L:

Handwriting Expert Report by
Curt Baggett dated October 13, 2017

EXHIBIT M: Affidavit of Gloria Madero and
Petitioner’s List of Witnesses

15a
EXHIBIT N: Bates Stamp 1965 Exhibit
EXHIBIT O: Pages of Phone Conversation dated
March 17, 2016 between Jeffrey Kern
and Diana Palmeri
EXHIBIT P:

Deposition Transcripts of Diana
Palmeri and Edward Curtin on the
“Will Reading”

16a
SURROGATE’S COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
File No.: 2016-111
In the Matter of the Last Will and Testament of
SYDNEY H. FIELDS,
Deceased.
AFFIRMATION WITH LEGAL CITATIONS
IN OPPOSITION TO PETITIONER’S
MOTION FOR SUMMARY JUDGMENT
RICHARD ALAN CHEN, an attorney admitted to practice in the State of New York, hereby affirms under
penalty of perjury:
1.

I am the attorney for the Objectant, Richard
Fields, in this action and, as such, I am familiar with the facts and circumstances of this
case.

2.

I make this Affirmation in opposition to Petitioner’s Motion for Summary Judgment, which
seeks to (1) dismiss all objections filed by
Objectant; and (2) admit the Will to probate.
BACKGROUND

3.

Sydney H. Fields (“Decedent”), a C.P.A., died
on November 10, 2015, at 96 years old, leaving
an estate of approximately $9,729,286.00.

17a
4.

Objectant, Richard Fields, is one of only two
offsprings of the Decedent. The other, Kenneth
Louis Fields, has not filed objections or
appeared in this proceeding.

5.

Decedent was born on December 30, 1918, one
day after his father died due to an influenza
pandemic. Decedent’s religion was Judaism,
and Decedent was forced to work to support his
mother from 16 years old, due to his father’s
death at the early age of 32. Decedent grew up
with strong work and family values, and his
goal in life, according to his son, Objectant
Richard Fields, was to “bring his family up to
the middle class.” See Affidavit of Richard
Fields, attached hereto as Exhibit A.

6.

Decedent married, Sarah Fields in 1943, when
he was 23. Decedent did not serve in the armed
forces during WWII as he had extreme myopia,
which gave him an exemption from the draft.
Decedent and Sarah had one child, Kenneth
Louis Fields, who was born on February 26,
1946. (Again, Kenneth Louis Fields has not
filed any objections to the Will proffered for
probate or otherwise appeared.) Sarah was
institutionalized in 1948 with a mental illness,
and Decedent annulled the marriage on April
8, 1957. See Exhibit A.

7.

Decendent married Gladys Fields, a NYC public school teacher, on December 11, 1960. Their
child, Objectant Richard Fields, (half-brother
to Kenneth Fields), was born on February 6,

18a
1963, in Brooklyn, New York. Decedent separated from Gladys in 1968, and they divorced
in September, 1969. Objectant continued to
live with his mother after the separation.
Gladys suffered from mental illness after the
separation from Decedent. Gladys died in
Queens on July 26, 2010. See Exhibit A.
8.

Objectant Richard Fields has a bachelor’s
degree attained from Hunter College, City
College of New York, in 1992. Objectant has
suffered from mental illness from childhood.
Decedent was very concerned about Objectant’s
health and wellbeing through his young adulthood. Decedent helped Objectant, when Objectant
was 23 years old, to obtain an apartment in
Manhattan, and paid all tuition, fees and books
for Hunter College, and used his connections
to obtain employment for Objectant. See
Exhibit A.

9.

Gladys, still smarting from the separation from
Decedent, drove a wedge between Objectant
and Decedent, causing him to resent his father
for not supporting the family to his mother’s
satisfaction. See Exhibit A.

10. Thus, as pointed out in Petitioner’s Affirmation
in Support, Objectant’s mental illness drove
him to send harassing communications to
Decedent, seeking to get his father to give him
money, and do other improper actions. Objectant
has been diagnosed as a paranoid schizophrenic,
penniless, and lives in a group home. Although

19a
he tried to contact the Decedent by phone over
the last nineteen years, Objectant did not have
any direct contact with Decedent for that period.
See Exhibit A.
11. Decedent married Teresa Fields (maiden name
Garzon) on September 26, 1975. They did not
have any children. Teresa Fields died on
September 4, 2014. Her Will is being probated
in this Court. See Probate Proceeding of Teresa
Fields attached hereto as Exhibit B.
12. The Petitioner, Diana Palmeri, is the niece of
Teresa Fields and all other individual distributees under the Will are related to Teresa
Fields, by blood or marriage. No blood relatives
of Decedent are distributees under the Last
Will of Decedent dated October 6, 2014.
PRIOR WILLS
13. On May 20, 1997, Decedent executed a testamentary instrument, which had been prepared
by Attorney Edward Curtin. Under the instrument, Decedent bequeathed money to Teresa
Fields’ family members, by blood or marriage.
Decedent also bequeathed $35,000 to Objectant
and the same to Objectant’s son, Lewis Fields,
leaving Pia Fields, Objectant’s former wife as
Trustee. Objectant did not leave any money for
his son, Kenneth Louis Fields. See Will of
Sydney Fields dated May 20, 1997, attached
hereto as Exhibit C.

20a
14. On July 27, 2006, Decedent, at the age of 87,
executed a new will, which was also drafted by
Attorney Edward Curtin. Decedent bequeathed
money to grandchildren of Teresa Fields’s
nieces and nephews, by blood or marriage. The
provision for Objectant’s son, Lewis Fields,
remained the same. In this will, however,
Decedent did not leave any money to Objectant
because Objectant hired an attorney to sue
Decedent. See Will of Sydney Fields dated July
27, 2006, attached hereto as Exhibit D.
15. The Decedent executed a new will on October
6, 2014, the subject of this probate proceeding.
In this last will, Decedent bequeathed almost
the entire estate to the Teresa Fields’ family
members, leaving nothing to Objectant and
Objectant’s son, and Kenneth Louis Fields, his
only living blood relatives. See Last Will and
Testament dated October 6, 2014, attached
hereto as Exhibit E.
LEGAL STANDARD
16. Summary judgment is rare in a contested
probated proceeding. Matter of Castiglione,
40 Ad3d 1227 (3rd Dept. 2007), lv denied
9 NY3d 806 (2007).
17. Summary judgment is proper where the proponent established a prima facie case for probate
and the objectant fails to raise a material triable issue of fact. Matter of Leach, 3 Ad3d 763
(3rd Dept. 2004).

21a
18. However, where “there is conflicting evidence
or the possibility of drawing conflicting inferences from undisputed evidence” summary
judgment is inappropriate. Matter of Kumstar,
66 NY2d 691 (1985); Matter of Williams,
13 AD3d 954 (3rd Dept. 2004), lv denied
5 NY3d 705 (2005).
19. Petitioner’s motion for summary judgment is
improper as there clearly exist triable issues
of fact. This Court should not dismiss the
Objections filed by the Objectant Richard
Fields and should not admit the Will to probate.
ISSUES OF FACT PRESENTED
I.

THE ATTORNEY DRAFTSMAN AND
THE ATTESTING WITNESSES ARE
NOT CREDIBLE

A) FAILURE TO IDENTIFY CARETAKER
AT WILL SIGNING
Incredibly, the attorney-draftsman, Edward
Curtin, and the two attesting witnesses, Susan
Lehman (paid witness) and Jill Curtin, all claimed
in deposition testimony that they were unable to
identity, the name, or even race or color, of the caretaker who arrived with Decedent for the Will execution. See their deposition testimony at Exhibits F,
G and H. Despite discovery requests, no further
information about the identity of the caretaker has
been provided by Petitioner, and Objectant has

22a
been unable to obtain any information on that person.
On the Day of the Will Signing, Edward Curtin
saw a caretaker assisting Decedent to his office. He
knew that it was a “she”, but was not able to provide any racial description of the caretaker.
Q: Did Mr. Fields have an assistant or someone, an attendant, with him at the time
the will was executed in your office?
A: Yes.
..........
Q: That aide, can you describe her physical
characteristics?
A: I thought about this and I can’t. I just
have no recollection of what she looked
like.
Q: As you sit here today, do you recall if she
was white or black?
A: I do not.
See Deposition of Edward Curtin, Page 33: 13-20,
attached hereto as Exhibit F.
Jill Curtin was aware that a caretaker accompanied the Decedent to Edward Curtin’s office for the
Will Signing. However, she was unable to provide
any racial description of the caretaker. She testified:
Q: Did he have any anyone with him?
A: Yes.

23a
Q: Who did he have with him?
A: I don’t know this person. It was an aide,
home help, or something. And he said, I
don’t need her (indicating), and he pointed
to her behind him.
Q: Can you describe the person at all?
A: It was a woman and I’m going to guess she
was in her 40s.
Q: I have to ask this: Was she white, black or
Hispanic?
A: You know, I can’t recall. I’m sorry.
See Deposition of Jill Curtin, Page 21: 2-14,
attached hereto as Exhibit G.
Susan Lehman, a paid attesting witness, also
recalled a caretaker with the Decedent as she
entered Edward Curtin’s office for the Will Signing.
However, when asked the description of the caretaker, she had no recollection. She testified:
Q: Now, you said that Mr. Fields had an aide
with him; is that correct?
A: I think he had an aide, but I don’t remember that the aide came into the room
where the signing happened.
Q: As you sit here today, could you please
describe the aide to me; physical attributes, racial characteristics, ethnic–whatever you can pick out–age?

24a
A: Senior person. I think it was a woman. I
think it was an aide.
Q: White or black, if you remember?
A: I don’t think about that. I don’t remember.
Q: But you said “senior,” so you mean over
50?
A: Yeah, I think so. As I remember.
See Deposition of Susan Lehman, Pages 35: 6-24,
attached hereto as Exhibit H.
It is obvious the Petitioner does not want
Objectant, or this Court, to hear from that caretaker, who has important information on the
Decedent’s condition at the time alleged Will signing. See Deposition testimony of Edward Curtin,
Jill Curtin, and Susan Lehman at Exhibits F, G
and H.
B) DECEDENT WAS LEGALLY BLIND,
YET THE ATTESTING WITNESSES
TESTIFIED DECEDENT’S EYESIGHT
WAS NOT A PROBLEM FOR WILL
SIGNING
There is no question that prior to and at the time
of Will execution, Decedent was legally blind. On
October 1, 2014, five days before Will execution,
Decedent spoke to Jeffrey Kern, his Vanguard
Financial Advisor, informing him that he had difficulty filling out forms since Decedent was “legally
blind.”

25a
Kern:

I also understand that you were having some difficulty with the, the forms
that Andrew had sent to you.

Fields: Yes, because I can’t read, know, I’m,
I’m legally blind, although I–that’s
not like being actually blind, but—
Kern;

Right, I know I called you—

Fields: I can’t read, I can’t read, I can’t read
any type, you know, and, and that’s
why I can’t handle those pages, you
know, I, I have, I have the Death Certificate of Theresa Fields and I can
mail you in the Death Certificate, but
I, I can’t fill out those, those papers
that were mailed to me.
Kern:

Okay, can you see them at all to read
them or even if you—

Fields: I, I, I, I, I can’t, I can’t read them, no,
I can’t read.
Kern:

Okay.

Fields: I mean, with my magnifying glass I
can read large print, but I can’t read
anything that’s 00 that’s on, that’s on
the papers.
See Transcript of Phone Conversation between
Decedent and Jeffrey Kern on October 1, 2014,
obtained by subpoena, attached hereto as Exhibit I.
Medical records subpoenaed from Mount Sinai
Hospital dated October 7, 2014, the day after the

26a
Will Execution, confirming the Decedent was
“legally blind.” See Medical records, attached hereto as Exhibit J.
Attesting witnesses Susan Lehman and Jill
Curtin testified that Decedent had no problem at
all with his eyesight at the Will Execution. At deposition hearing, Susan Lehman stated that
Decedent was able to see, and that Decedent did
not have any impairments of sight or hearing.
Q: Was he able to see? Was he able to see
you, as far as–
A: Yes, yes.
Q: Was he able to speak to you?
A: Oh, yes.
See Exhibit H, Pg. 39.
Q: Did he seem to have any impairments of
sight or hearing or anything like that?
A: No.
See Exhibit H, Page 56:24-25; Page 57:1-3
Jill Curtin testified Decedent’s eyesight was not
a problem either, although she contradicted herself
by mentioning she “wasn’t sure” if he used a magnifying glass.
Q: As far as his eyesight, was it clear or did
he appear to need any help or have a problem with that?
A: It appears to be clear. I have this little
memory of maybe a magnifying glass, but
I’m not sure if that was Mr. Fields.

27a
Q: When you say “magnifying glass,” do you
recall if he was using a magnifying glass?
A: He might have used it and then initialed,
and he signed (indicating).
Q: But you’re not sure?
A: I am not sure.
Q: Also, since you testified Mr. Curtin did not
read—or you didn’t hear Mr. Curtin hear
Mr. Curtin read the will out loud—
A: Yes.
Q: —did you see Mr. Fields read the will, with
or without the magnifying glass?
A: Well, I have this little memory of him with
the magnifying glass, but. . .
Q: Sitting here today, do you know any reason
why Mr. Fields would be using a magnifying glass to read his will
A: I don’t know what the reason—I don’t
know of any reason.
Q:· Was there any mention at the table about
that before, during or after the signatures?
A: No. There was no—I don’t recall any mention of it, except that we had—I remember
him saying the he didn’t—he didn’t like the
eyedrops or something. He had to get eyedrops.
Q: So is it correct to state that, as you sit here
today, in your memory, you’re saying it’s

28a
possible that he had a problem with his
eyesight at the time that you signed the
will?
A: Maybe. I don’t know. I don’t know.
See Exhibit G, Pages 54-56.
Yet, once again incredibly, both attesting witnesses swore to an attestation affidavit that
Decedent “. . .was suffering from no defect of
sight. . .” at the time of Will signing. Thus, under
oath, both witnesses have been shown not credible,
by Decedent’s own words, and his diagnosis at
Mount Sinai hospital, as “legally blind.”
Q: Did you see Mr. Curtin put these Xs
there?
A: He may have. II don’t recall.
Q: Did you see Sydney put these Xs there?
A: I don’t recall.
Q: But you do recall Mr. Sydney Fields signing here?
A: Yeah.
See Exhibit G, pages 32: 23-25; 33: 2-13.
Further, the Will does not contain “X’s” where
Decedent supposedly initialed the Will on pages “1”
and “2.” There is an open question how Decedent
was able to initial without “X’s,” but was unable to
sign without “X’s.”
Note also Susan Lehman did not mention the X’s,
and she stated in deposition she “did not
recall watching him (Decedent) sign” the Will.

29a
Ms. Lehman also did not recall who asked her to
sign the Will and attestation Affidavit, or even the
order she signed the Will and Attestation clause.
At her deposition testimony, Ms. Lehman testified:
Q: Did you see Sydney Fields sign this document?
A: I must have.
Q: But sitting here today, do you recall him
sign—
A: I don’t recall.
See Exhibit H, pg. 72: 16-21.
This outside of the requirement of EPTL Section
3-2.1, “Each of the witnesses signed the instrument
as a witness at the testator’s request.” A trial is
necessary to determine if the EPTL requirements
were met for this alleged Will dated October 6,
2014 signing by Decedent.
Note, there were no “X’s” placed on the Will
where Decedent supposedly “initialed” the Will. If
Decedent was not able to sign on page 3, how was
it that he was able to “initial” without the help of
“X’s?” Further, this confirms that Decedent had a
problem with his eyesight and signing the Will,
contrary to the testimony of the two witnesses.
It is obvious, there is a contradiction between the
two attesting witnesses, Jill Curtin and Susan
Lehman, as to whether the Will Execution Procedures of Section 3-2.1 of the EPTL were complied
with, requiring a trial to determine if Decedent did

30a
sign the Will, ask the Witnesses to do same, and
his health and eyesight at the time.
D) THE WILL AND ATTESTATION AFFIDAVIT HAS OTHER IRREGULARITIES
The witness clause of the WILL on page 3 indicates “Testator. . .declared same to be her Last
Will and Testament; We, thereupon at her request
and in her presence. . .”
As stated in response to Petitioner’s last Summary Judgment Motion, there is a question if the Witnesses read the attestation clause and when they
signed it, being the mistake on it is so glaring.
Further, the Attestation Affidavit of the Witnesses
has the wrong date, which Edward Curtin stated he
corrected and initialed, which renders the same
ineffective and a trial is necessary to prove the
proper procedures were followed and Decedent
signed the Will. See SCPA Sec. 1406 (a), as Objectant is raising objection to the Affidavit of the Witnesses. At deposition, Mr. Curtin testified:
Q: If you would, please explain us how those
initials came to pass, who they are and
how that happened?
A: Okay. The–after the two witnesses had
read and signed this affidavit and I had
signed as the notary, Jill, my wife, was
making copies of the will and she pointed
out to me in the process of making copies
that this was–there was a blank in there
and there was the date July 2006 and at

31a
that point I realized it was a carryover
from a prior will, probably the prior will of
Sid Fields off my word processing computer.
And so in the presence of the witnesses
and Mr. Fields, I made the correction on
the–to reflect the actual date that it was,
October 6, 2014, and initialed it.
Q: Did you request the witnesses to initial
that change on their affidavit?
A: No.
Q: Why not?
A: I didn’t think it was necessary.
See also Exhibit F pg. 66:9-25; 67:1-7, Deposition
testimony of Edward Curtin concerning the date
mistake, which Mr. Curtin and his attorney are
alleging was not a “mistake.”
The handwritten document concerning the residuary estate given to Edward Curtin by Decedent at
the October 3 meeting is at question since Edward
Curtin testified that he was not sure if the Decedent wrote this document. At the deposition testimony, Mr. Curtin testified:
Q: Now, Mr. Curtin, you testified that you
recognize this document. Can you tell me
what it is, that’s Exhibit 8?
Mr. Hass: Which document are you referring
to?
A: Eight

32a
Mr. Hass: You testified that you recognized
that before?
A: Yes. Just a short while ago.
Q: Yes.
A: This is a piece of paper with handwritten
names and numbers next to those names
that was given to me when I met with Mr.
Sid Fields the first time for the purpose of
preparing this 2014 will.
Q: Did Mr. Fields make out this sheet in
front of you no?
A: No.
Q: Can you tell me what he said, what you
said, concerning when this was handed to
you?
A: He said this is the way I want to have the
–his estate, his residuary estate distributed.
Q: And, do you know if this document was
made out by Mr. Fields?
A: I don’t know for certain, but he is the only
person that gave it to me, so.
Q: So, all you know is that he gave it to you,
correct?
A: Yes.
See Handwritten Document Bates Stamp 1965,
attached hereto as Exhibit N.

33a
E) SUSPICIOUS CIRCUMSTANCES SURROUNDING TIMING OF WILL EXECUTION
The initials “SHF” of the Decedent are in question surrounding the timing of the Will Execution.
At deposition testimony, Mr. Curtin stated that
Decedent put his initials in a Sharpie marker on
the lower-left hand pages of the Will before Decedent signed the last page. He also testified that it
was his practice to ask the testator to initial the
pages that he was not signing the will. Mr. Curtin
testified:
Q: At the time he signed, did you instruct
Mr. Fields as to where to sign as he was
signing?
A: Well, with respect to the Pages 1 and 2, I
asked him to initial the lower left-hand
corner. And on Page 3 I asked him to sign
above where his name was typed. At that
time he asked me to put Xs there to help
guide him and then he processed to sign.
Q: Is it correct to state that at the title that
this will was executed, it was your practice as the supervising attorney to ask the
testator to initial the pages that he was
not signing on the will?
A: That is my practice.
See Exhibit F, Page 65: 6-20.
However, Curt Baggett, a handwriting expert,
submitted by the Petitioner, analyzed the signatures of the Decedent from various documents

34a
including the same. Mr. Baggett concluded that
someone, besides the Decedent, forged the initials
of the Decedent on the last page of the Will. He
reported in his own words:
“Based upon thorough analysis of these items,
and from an application of accepted forensic
document examination tools, principles and
techniques, it is my professional expert opinion that a different person authored the initials of SHF on the questioned document.
Someone did indeed forge the initials of SHF
on the questioned document, ‘Q2’.
See Handwriting Expert Report Curt Baggett
dated October 13, 2013, attached hereto as
Exhibit L.
Petitioner has not provided a handwriting expert
nor any reports from a handwriting to disqualify
Mr. Baggart’s report. This requires a trial to determine whether the Decedent initialed the pages of
the Will dated October 6, 2014. Thus, Petitioner’s
motion for summary judgment should be denied.
F) FROM THE PREVIOUS WILL, DRASTIC
CHANGES
BENEFIT
THE
“PALMIERI” FAMILY IN THE LAST
WILL, RAISING QUESTIONS OF THE
VERACITY OF THE PRESENT WILL
The proffered 2014 Will contains significant
changes to the bequests as compared to the alleged
2006 Will. Charitable bequests to the United Jewish Appeal of New York, and several CUNY entities
were reduced from large percentages of the Estate

35a
to minute fixed bequests in the nominal amount of
$500 a piece, while the Palmeri family (individuals
who were not named in the alleged 2006 Will and
are also not blood relatives of the Decedent), suddenly became the primary beneficiaries of the
Estate. The Estate presents no evidence from
individuals with knowledge who might be able to
explain the Decedent’s reasoning or the circumstances that lead to such dramatic changes to those
bequests. Without such evidence it appears those
charities received nominal gifts simply because
their complete absence from the Will would
undoubtedly should undue influence on the part of
those beneficiaries who took their place, and they
wanted that undue influence to go unnoticed. Petitioner’s Motion for Summary Judgment must be
denied to these questions of fact.
G) Party Not Listed in Petitioner’s List of
Witnesses Must be Deposed
The affidavit of Gloria Madero should be ignored
as the following: 1) she was not listed as a witness
or otherwise advised by Petitioner’s attorney to
Objectant’s attorney; 2) she was never deposed;
and 3) there was no supporting documentation as
to why her testimony is included in the motion. See
Petitioner’s List of Witnesses, attached hereto as
Exhibit M.
WHEREFORE, Objectant RICHARD FIELDS respectfully
requests that Petitioner’s Motion for Summary
Judgment be denied in total,

36a
TOGETHER WITH costs, disbursements, fees and
such other and further relief as the Court deems
just, fair, and equitable.
Dated: Flushing, New York
January 22, 2017
Law Offices of Richard Alan Chen, Esq.
/s/ RICHARD ALAN CHEN
Richard Alan Chen, Esq.
Attorney for Objectant
41-60 Main Street, Suite 203
Flushing, New York 11355
(718) 886-8181
To: Albert V. Messina, Esq.
Attorney for Petitioner
202 East Main Street
Huntington, New York 11743
(631) 547-0300
Edward R. Curtin, Esq.
Co-Counsel for Petitioner
220 West 71st Street, Suite 31
New York, New York 10023
Jules Martin Haas, Esq.
Co-Counsel for Petitioner
845 Third Avenue, Suite 1400
New York, New York 10022

37a
EXHIBIT LIST
EXHIBIT A:

Affidavit of Richard Fields

EXHIBIT B:

Probate Proceedings of Teresa Fields

EXHIBIT C:

Will of Sydney Fields dated May 20,
1997

EXHIBIT D: Will of Sydney Fields dated July 27,
2006
EXHIBIT E:

Last Will of Sydney Fields dated
October 6, 2014

EXHIBIT F:

Pages of Deposition Transcript of
Edward Curtin, February 1, 2017

EXHIBIT G: Pages of Deposition Transcript of
Jill Curtin, November 14, 2016
EXHIBIT H: Deposition Transcript of Susan
Lehman, November 14, 2016
EXHIBIT I:

Pages of Phone Conversation
Between Jeffrey Kern and Sydney
Fields dated October 1, 2014

EXHIBIT J:

Medical Records subpoenaed
Mount Sinai Hospital

by

EXHIBIT K: Letters from Richard Fields to
Sydney Fields
EXHIBIT L:

Handwriting Expert Report by Curt
Baggett dated October 13, 2017

EXHIBIT M: Affidavit of Gloria Madero and Petitioner’s List of Witnesses

38a
EXHIBIT N: Bates Stamp 1965 Exhibit
EXHIBIT O: Pages of Phone Conversation dated
March 17, 2016 between Jeffrey Kern
and Diana Palmeri
EXHIBIT P:

Deposition Transcripts of Diana
Palmeri and Edward Curtin on the
“Will Reading”

39a

EXHIBIT 3

40a
Exhibit List to Reply Affirmation
Exhibit A Pages 185-186 from the deposition
testimony of Richard Fields
Exhibit B Pages 33-34 from the deposition testimony of Edward Curtin
Exhibit C Pages 153-156 from the deposition
testimony of Edward Curtin
Exhibit D WebMD Article
Exhibit E American Foundation for the Blind
Article
Exhibit F Letter from Jules Martin Haas, Esq. to
Richard Alan Chen, Esq. dated March
20, 2017
Exhibit G Vanguard Subpoena
Exhibit H Letter from Richard Alan Chen Esq., to
Albert V. Messina Jr. Esq. dated March
22, 2017
Exhibit I

Letter from Albert V. Messina Jr. Esq.
to Richard Alan Chen, Esq. dated
March 23, 2017

Exhibit J Page 152 from the deposition testimony
of Edward Curtin
Exhibit K Pages 149-150 from the deposition
testimony of Edward Curtin
Exhibit L Objectant’s Amended Verified Bill of
Particulars

41a
Exhibit M

Petitioner’s Demand for Expert Witnesses

Exhibit N

Pages 79-80 from the deposition testimony of Edward Curtin

Exhibit O

Richard Fields Affidavit sworn to on
May 24, 2016

Exhibit P

Pages 378-379 from the deposition
testimony of Richard Fields

Exhibit Q

Pages 381-382 from the deposition
testimony of Richard Fields

Exhibit R

Pages 383-384 from the deposition
testimony of Richard Fields

Exhibit S

Page 82 from the deposition testimony
of Edward Curtin

Exhibit T

Petitioner’s September
Amended Witness List

22,

2017

42a
SURROGATE’S COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
File No: 2016-111
PROBATE PROCEEDING
Will of SYDNEY H. FIELDS,
Deceased.
REPLY AFFIRMATION IN
SUPPORT OF MOTION
FOR SUMMARY JUDGMENT
JULES MARTIN HAAS, an attorney admitted to
practice in the State of New York, hereby affirms
under penalty of perjury:
1. I, along with Edward R. Curtin, Esq., and
Novick & Associates, P.C., represent Diana Palmeri
(“Diana”) the petitioner herein and the named
Executor in the instrument offered for probate
herein.
2. This Reply Affirmation is based upon my
review of the evidentiary matter and the prior proceedings in this case. This Reply Affirmation is
submitted in further support for Diana’s Motion for
Summary Judgment: (i) dismissing all of the Objections filed by Richard; and (ii) admitting the Will to
probate as Sydney’s Last Will and Testament and
granting letters testamentary to Diana.

43a
3. The shortened references and abbreviations
referred to in my Affirmation in Support of the
Motion dated November 28, 2017 are sometimes
utilized herein. Additionally, it is respectfully
noted that for purposes of economy this Affirmation
contains references to legal authorities as well as
factual information.
4. As set forth below, Richard has failed “to produce evidentiary proof in admissible form sufficient
to establish the existence of material issues of fact
which require a trial of the action.” Alvarez v.
Prospect Hospital, 68 NY2d 320, 324, 508 NYS2d
923 (1986) (internal citations omitted). “[M]ere conclusions, expressions of hope, or unsubstantiated
allegations or assertions are insufficient” Zuckerman
v. City of New York, 49 NY2d 557, 562, 427 NYS2d
595 (1980) (internal citations omitted). The Will
was executed in conformity with EPTL 3-2.1. There
are no substantive issues regarding the Objections
based on lack of testamentary capacity or the presence of any alleged false statements, forgery,
duress, fraud, mistake or undue influence. In fact,
Objectant has abandoned his fraud, duress, mistake and undue influence objections.
5. In this regard, the Affirmation with Legal
Citations in Opposition to Petitioner’s Motion for
Summary Judgment of Richard Alan Chen dated
January 22, 2017 (the “Chen Affirmation”), along
with its accompanying Exhibits, is entirely insufficient to give rise to any issue of fact.

44a
6. For purposes of efficiency, the Objectant’s
responses to Diana’s motion are discussed in the
order presented in the Chen Affirmation. Reference
is first made to the portion of the Chen Affirmation
at page 3 labeled Background. Mr. Chen wrongly
asserts at ¶ 10 of his affirmation that petitioner
“pointed out” that “Objectant’s mental illness drove
him to send harassing communications to Decedent, seeking to get his father to give him money,
and do other improper actions”. Petitioner never
sought to provide such an excuse for Objectant’s
blatant and offensive conduct. The Objectant’s
attempt to falsely portray himself as a innocent
misguided individual is disingenuous and contrary
to the factual information in this matter. The
Objectant’s sole motivation in threatening and
attempting to intimidate his father was pure greed.
The Objectant’s attempts to pull at the heartstrings of the Court should not be considered. The
Objectant clearly acted with intent in formulating
a scheme to frighten his father and his wife, Teresa.
The Objectant intentionally created photographs of
himself bearing weapons and explosives and sent
them to the decedent. As admitted by Objectant in
his deposition:
A. Oh, I just wanted to add one thing.
Q. Sure.
A. I got motor vehicle records for my father
from these private investigators. Ok, go
ahead.

45a
Q. What was your motivation against for getting all this information about your dad?
A. I wanted to know what his net worth was.
Q. And why is that? Why. Why did you want
to know.
A. A lot of people do that.
Q. But why did you want to know?
A. I wanted to know what my mother could
ask for in a court proceeding. My mother
was going to court all the time suing him
for money and I wanted to know what I
could possibly get when he died as an
inheritance.
Q. And that’s because you were concerned
that Teresa or your brother might interfere
with your inheritance; is that correct?
A. Well, I know that they could get something, but that doesn’t mean I wouldn’t get
more or I wouldn’t get a substantial
amount. I was concerned they would interfere with it, but I wouldn’t—but I would
understand I would get some of it and not
all of it in regards to the inheritance.
Q. But you wanted all of it, correct?
A. Yeah. But I wouldn’t do anything illegal.
It was just a hypothetical or theoretical
situation. Yes, I wanted all of it, but a lot
of people do.

46a
Richard Depo. at p. 185 ln 5 - p.186 ln 20 (Exhibit
A hereto).
A. The reason why I threatened my father is
because I both legally and illegal obtained
records of my father’s assets or finances,
assets, however you want to say it. Any
assets, income and finances which showed
that he had millions of dollars in assets. I
don’t remember the exact number. I didn’t
calculate exactly that number. But it was
a few million dollars and I can’t be more
specific than that. And I wanted him to
either give me something while he’s alive
or leave it to me as an inheritance, and I
thought if he saw pictures like this he
would think that if he doesn’t something
bad could happen. Something violent could
happen with regards to these weapons. I
wasn’t actually going to do anything like
that, but I thought he would think that
and leave me—he would either give it to
me when he was alive or leave it to me as
an inheritance.
Q. So would it be a fair statement to make
that your motivation in doing this was to
instill some type of fear or concern in your
dad with respect to violence so he would
then make you a beneficiary of his estate?
A. Yes, that’s correct.
Richard Depo. at p. 253 ln 5 - p. 254 ln 11 (Haas
Nov. 28, 2017 Aff. Exhibit K).

47a
7. Another misstatement is made at ¶ 14 of the
Chen Affirmation where it is noted that “Decedent
did not leave any money to Objectant because Objectant hired an attorney to sue Decedent”. In fact, as
provided by the decedent in Article FIFTH(b) of the
Will, which the decedent himself wrote, the full
and unabbreviated reason the Objectant was disinherited was:
Because my son Richard Fields hired a lawyer
to sue me for money and because I had to have
him arrested and brought to court for harassment of me and my wife, Teresa I deliberately
make no provision for him in this Will and it
is my intention that he receive no part of my
estate.
8. With regard to Objectant’s substantive
response to petitioner’s motion, the Chen Affirmation at page 5 provides only one main category constituting Objectant’s opposition, that being “1. The
Attorney Draftsman and the Attesting Witnesses
Are Not Credible.” This category regarding credibility is then discussed in Sections A-G of the Chen
Affirmation.
9. Section A is entitled “Failure to Identify Caretaker at Will Signing”. Beginning at page 5, the
Chen Affirmation recounts that neither Mr. Curtin
nor the attesting witnesses, Jill Curtin (“Jill”) and
Suzanne Marie Lehman (‘Suzanne”), could recall
any details regarding the so-called “caretaker” who
accompanied the decedent to Mr. Curtin’s office on
October 6, 2014, which was the day the Will was

48a
executed. Mr. Chen then concludes that “it is obvious the Petitioner does not want Objectant, or this
Court, to hear from that caretaker, who has important information on the Decedent’s condition at the
time alleged Will signing.” (Chen Aff. at p.7).
10. Mr. Chen’s above statement lacks any substantive value and is blatant speculation. Moreover, it is entirely false.
11. Mr. Chen fails to provide any factual support
that any of the witnesses have not testified truthfully. Such a baseless accusation is highly improper.
Moreover, Mr. Chen’s unsubstantiated insinuation
that petitioner in some manner prompted the witnesses to secrete information and alter their testimony is outrageous.
12. A similar factually deficient assertion is
made by Richard in his Affidavit sworn to on January 22, 2018 (the “Richard Affidavit”), which is
annexed as Exhibit A to the Chen Affirmation,
where Richard provides at ¶ 14 “For instance, the
attorney-draftsman and the witnesses all conspiring to not ‘remember’ the identity or race or ethnic
group of the caretaker. . . .”
13. Neither Richard nor Mr. Chen provide any
facts to support their preposterous claim of a conspiracy or coverup.
14. Significantly, the Objectant has been
engaged in discovery in this case for well over a
year. Mr. Chen has demanded and received hundreds of documents from the petitioner and third
parties. Furthermore, nothing prevented Objectant

49a
from issuing subpoenas or utilizing other discovery
devices. If Objectant was of the opinion that any
discoverable information was not forthcoming pursuant to any of the Objectant’s discovery demands,
then an appropriate application should have been
made to this Court. No such application was filed
with this Court because no discovery was withheld.
15. As noted by the Court in Estate of Korn, 25
A.D. 3d 379, 808 NYS2d 48 (1st Dept. 2006), where
the admission of a Will to probate was upheld:
“Insofar as the Objectant insists that summary
judgment was improper without permitting him to
continue discovery, this claim is undermined by his
failure to move for additional discovery or to seek
a continuation so he could procure necessary
affidavits.”
16. Furthermore, Mr. Chen fails to identify the
nature of the so-called “important information on
the Decedent’s condition” that such caretaker may
possess. The “caretaker” did not act as a witness to
the Will. According to all of the uncontroverted and
admissible evidence, the caretaker was not present
at or a participant at the Will signing ceremony. As
a result, the “caretaker’s” identity reasonably
appears to have been a non-factor for Mr. Curtin,
Jill and Susan who were clearly focused on, and
attentive to, their roles regarding the execution of
the Will.
17. While p. 5 of the Chen Affirmation provides a
limited portion of Mr. Curtin’s deposition, Mr.
Curtin’s deposition testimony continues at page 33

50a
1ine 21 through page 34 line 24 (Exhibit B,
hereto), as follows:
Q. On that day what did you observe of her
interaction with Mr. Fields in your office,
I will make it specific?
A. Well, she didn’t come into my office. They
came into the entry of my suite, my apartment, really had no interaction. I believe
that Sid came into my office, we sat down
and reviewed the will and provisions but
sat out in the living room area and I think
with my wife, Jill, but I had no interaction
with her at all.
Q. Was she present in the room when the will
was signed?
A

No.

Q. And the will?
A. No.
Q. Do you happen to know of what agency she
worked for?
A. No idea.
Q. Were you introduced to this person at all
by anyone?
A. Possibly Sid stated that, I don’t know if he
introduced her by name, but that there
was somebody who was there to help him
ambulate.

51a
18. As noted by the Court in In re James, 62
A.D.3d 707, 708, 878 NYS2d 195 (2nd Dept. 2009),
in affirming summary judgment dismissing objections and admitting a Will to probate:
The Objectants have now deposed the executor,
the drafting attorney, the two witnesses to the
execution of the will, and all but one of the
beneficiaries. The whereabouts of the sole beneficiary yet to be deposed are unknown, and
she is not within the control of anyone involved
in the proceedings (see Karras v. County of
Westchester, 71 A.D.2d 878, 419 N.Y.S.2d
653). Moreover, there is no need for additional
discovery. The objectants’ contention that the
missing beneficiary, who was a child when the
will was executed, has information relevant to
this matter is purely speculative (see Matter of
Korn, 25 A.D.3d 379, 380, 808 N.Y.S.2d 48;
Matter of Leach, 3 A.D.3d at 766, 772 N.Y.S.2d
100; Matter of Wilson, 266 A.D.2d 164, 698
N.Y.S.2d 854; Friend v. Regina, 189 A.D.2d
853, 592 N.Y.S.2d 973). Accordingly, the
Surrogate’s Court properly denied the objectants’ cross motion.
19. In view of the above, the non-identification of
the “caretaker” is a non-event having no bearing
factually or otherwise on the validity of the Will.
No issue of fact is created regarding this matter
and no additional discovery is required or permissible.

52a
20. Section B, appearing on page 7 of the Chen
Affirmation, is entitled “Decedent was legally
blind, yet the attesting witnesses testified Decedent’s eyesight was not a problem for Will signing”.
While in Section B the Objectant asserts that the
decedent had diminished eyesight, the Objectant
fails to demonstrate that such physical defect, to
the extent it actually existed at the Will signing,
created an issue of fact regarding the decedent’s
testamentary capacity or the due execution of the
Will. The Objectant’s presentation regarding these
statutory prongs for probate is confined solely to an
attempt to question the credibility of the attesting
witnesses.
21. The law in New York is clear that blindness
or some other physical impairment does not prevent someone from validly executing a Will. The
issue that arises in such cases is whether such disability affected the decedent’s capacity or interfered with the due execution process. As stated by
the Court in In re McCabes Will, 75 Misc 35, 36 134
NYS 682 (Surr. Ct. NY County 1911):
A blind person may make a will. Such a condition as that of testatrix merely casts upon the
proponents the burden of proving, with greater
particularity, that the paper propounded was
the conscious act of a free and capable testatrix, and that no imposition was practiced on
her. It seems to me that the proponents have
discharged this burden resting upon them sufficiently in this cause. That the provisions of
the will were dictated by testatrix herself, and

53a
that the Will was read over to her before execution, is established, and it is not contradicted.
There is an absence of proof of weakness of
mind. The will is sufficiently rational on its
face to furnish no inherent evidence of a disordered intellect.
Here, Mr. Curtin testified that he read the provisions of the 2014 Will to the Decedent “that related
to who was getting what and the two sections dealing with his sons and the executor” on October 6,
2014. (Hass Nov. 28, 2017 Aff. Exhibit F at p.5253).
22. As noted above, the Objectant does not present any factual evidence that the decedent’s testamentary capacity was affected whatsoever by any
alleged physical disability. Additionally, the Objectant does not provide any evidence as to what
extent, if any, the decedent’s eyesight resulted in
the execution of the Will failing to satisfy the dictates of EPTL 3-2.1.
23. The uncontradicted combined testimony of
Mr. Curtin, Jill and Suzanne was that the decedent
made a conscious decision to have his Will re-done
after Teresa died, that he intentionally and with
purpose consulted Mr. Curtin in furtherance of
such re-draft and that his actions and conduct on
the day of the Will execution were competent and
free from restraint and that he participated in the
Will preparation and signing process naturally and
intelligently under the supervision of Mr. Curtin
and in the presence of the witnesses.

54a
24. As recounted by Mr. Curtin in his deposition
testimony, prior to signing the Will, Mr. Curtin and
the decedent sat together and reviewed the Will
contents:
I think my recollection—my recollection is that
we sat side by side and we went over page by
page and there was certain boilerplate that he
was quite familiar with, since this was our
third will, one of which in fact in 2006 he had
written himself, so he was conversed with that
boilerplate part of the will, but that we both
focused on and reading the who was getting
what and who wasn’t getting what, and those
he was particularly interested in. And in those
cases, I think he also used his magnifying
glass to ascertain that what I was saying was
there, was there.
Curtin depo. at p. 51 ln 23-25 and p. 52 ln 1-12.
(Haas Nov. 28, 2017 Aff. Exhibit F). See In re
McCabe’s Will, 75 Misc at p. 36.
25. The Objectant has not offered a scintilla of
evidence, admissible or otherwise, that could possibly present a factual issue on these matters.
26. In this regard, the Objectant’s conclusion at
the end of the Section B on page 9 that the witnesses
are “not credible” because the Witness Affidavit
provides that the decedent “was suffering from no
defect of sight. . . .”, is misleading and meritless.
The actual text of the paragraph in the Witness
Affidavit provides that such “impairment would
affect his capacity to make a valid Will.” Objectant

55a
has not established that any defect of sight affected
the decedent’s testamentary capacity.
27. The Witness Affidavit and deposition testimony are clear that no factor existed that affected
the decedent’s testamentary capacity. Thus, the
witness testimony is totally credible and uncontroverted.
28. The topic regarding the decedent’s eyesight,
as well as the referenced wording in the Witness
Affidavit, was testified to by Mr. Curtin at his deposition, as follows:
Q. Now, if you go back to the affidavit, the
witness affidavit.
A. Right.
Q. That is on Page 4 of the Objectant 6, on
Page 4 of that document. If you just take a
second and read through the paragraphs
there.
A. Okay.
Q. Would you say that the statement in that
affidavit accurately reflects the events that
occurred on October 6, 2014?
A. Yes.
Q. Would you have supervised the execution
of this will if you believed that it was not
done in accordance with the statutory
requirements required for the execution of
a will? Would you have supervised this
Will if you believed that it wasn’t prepared

56a
and executed in accordance with the statutory requirements.
A. No.
Q. Would you have supervised the execution
of this Will if you believed that Sydney
Fields did not have the capacity to sign the
will on that date?
A. I would not have.
Q. Is it your belief that on October 6, 2014
that Sydney Fields appeared to be of
sound mind, memory and understanding?
A. Yes.
Q. Is there any doubt in your mind that he
totally understood that he was signing his
will on that date?
A. No doubt whatsoever.
Q. Now, you testified that Sydney Fields complained about his eyesight?
A. Well, he complained about his eyedrops.
Q. His eyedrops. And that based on your
observation of him he did have some difficulty with his eyesight; would that be correct?
A. That would be correct.
Q. When he came to the will signing on October 6, 2014, you testified that he brought
his own pen, which was called a Sharpie
with him; is that correct?

57a
A. That’s correct.
Q. And he insisted on using that pen to sign
the will?
A. That is correct.
Q. You also said that during the little session
that you had with him before the will was
signed, that you read portions of the will
aloud to him and that he also read portions of the will himself; is that correct?
A. With a magnifying glass, yes.
Q. And, the magnifying glass that he read the
will with, where did that come from?
A. He brought it.
Q. He brought the magnifying glass with
him?
A. That’s correct.
Q. What did that look like?
A. As I recall, it was a rectangular lens with
some kind of stick, I guess.
Q. So, he put that down to the paper and he
looked through it.
A. Yes.
Q. And he used it to read?
A. Yes.
Q. Based on your observation, you saw him
reading that will?

58a
A. Yes.
Q. So, would it be fair to say that whatever
inability or deficit he had with respect to
eyesight, based on his use of the magnifying glass and your reading the will to him,
that his eyesight didn’t affect his ability to
read and understand that will?
A. He knew everything that was in that will.
Q. So, the statement in this affidavit where it
says he was suffering from no defect of
sight, hearing or speech, would be an
accurate statement; am I correct?
A. Well, coupled with what words that are
directly after that, which would affect his
ability to make a valid will.
Q. This is correct.
Curtin Depo. at p. 153-156 ln. 22 (Exhibit C
hereto).
29. Moreover, the assertions set forth by the
Objectant mischaracterize the nature of the decedent’s eyesight. At the outset of Section B, Mr.
Chen states on page 7 of his Affirmation that “there
is no question that prior to and at the time of Will
execution, Decedent was legally blind.” Mr. Chen
does not assert to have any personal knowledge
regarding the extent of the decedent’s eyesight.
Nowhere in Objectant’s opposition is there provid-

59a
ed any credible or authenticated medical diagnosis1
or evidence as to the decedent’s eyesight at the
time the Will was executed.
30. The Chen Affirmation at page 7 refers to
an alleged conversation by the decedent with a
Vanguard Financial Advisor named Jeffrey Kern.
Putting aside the unauthenticated nature and
objectionable use of this paper (see discussion
below), the decedent allegedly states in said communication that “I’m legally blind, although I –
that’s not like being actually blind. . . .” (Chen
Aff. Exhibit I).
31. Not only does the decedent’s alleged statement reflect his cognitive awareness of his physical
abilities, as explained below, it points to the misleading and falsity of the Objectant’s attempt to
portray the decedent as incapable of viewing his
Will. It is also noted that the decedent appears to
be conversing with his financial advisor by himself
and without reference to anyone else and without
any assistance.
32. As to the decedent’s eyesight, a simple
Google search provides that “legal blindness” is
only a government definition used to determine a
person’s eligibility for benefits. It is not a medical
definition regarding a person’s ability to see or
read. The term is not synonymous with complete
blindness and does not mean that a person cannot
1

Objectant’s bald, conclusory allegation that the decedent had “eye cancer” has no support in the record. (Richard
Fields Aff. ¶ 14).

60a
otherwise function. Annexed as Exhibit D hereto
is a printout from WebMD which I obtained from
an on-line search on February 10, 2018. As stated
therein:
What Does It Mean To Be Legally Blind:
You might be surprised to learn that it’s Uncle
Sam, not the doctor, who defines whether
you’re legally blind.
The government uses the term “legal blindness” to decide who can get certain benefits,
like disability or job training. It is not the
same as being totally blind. If you’re completely blind, you can’t see any light or form. Only
about 15% of people can see nothing at all. If
you’re legally blind, you can still see – just not
that clearly.
Normal vision is 20/20. That means you can
clearly see an object 20 feet away. If you’re
legally blind, your vision is 20/200 or less.
That means if an object is 200 feet away, you
have to stand 20 feet from it in order to see
it clearly. But a person with normal vision
can stand 200 feet away and see that object
perfectly.
An estimated 1.1 million Americans are legally
blind. Some conditions, like glaucoma, cataracts,
and diabetes, can affect your sight to the point
that you may be diagnosed ·with the condition.

61a
Tests for Legal Blindness
Your doctor will check your vision during a
standard eye exam.
She’ll measure your eyesight while you’re
wearing glasses or contact lenses. Your vision
might fall below 20/200 without them. It is
improves when you put on your glasses or contacts, you’re not considered legally blind.
What’s It Like to Have the Condition
It varies from person to person. You might be
able to see objects at a distance but not from
the sides of your eyes (peripheral vision). Or,
you might have great peripheral vision but
trouble seeing objects far away.
33. Annexed as Exhibit E hereto is a copy of an
excerpt printed by me from the internet site of the
American Foundation for the Blind on February 10,
2018 which simply states:
Legal blindness is a level of vision loss that
has been legally defined to determine eligibility for benefits. In the United States, this refers
to a medically diagnosed central visual acuity
of 20/200 or less in the better eye with the best
possible correction, and/or a visual field of 20
degrees or less. See the Blue Book Disability
Evaluation Under Social Security. Often, people who are diagnosed with legal blindness
still have some usable vision.

62a
34. Similarly, the alleged medical excerpts from
Mount Sinai Hospital (see discussion below) while
making a reference to “legally blind” at page 1 provides on page 2 of 3 of Dr. Elizabeth B. Harrington’s Vascular Consult dated October 7, 2017 that
the decedent has “No Blurred Vision, No Diminished Vision, No Discharge, No Blindness, No Eye
Pain, No Red Eyes.”
35. As noted above, the information provided by
Vanguard and its use by Objectant herein were
previously objected to by petitioner and such objection is continued herewith with regard to those portions of Chen’s Affirmation which encompass such
information.
36. Annexed hereto as Exhibit F is a letter sent
by me to Mr. Chen dated March 20, 2017 which sets
forth petitioner’s objections to discovery demands
made by Mr. Chen to third parties. In particular,
one of these items related to subpoenas sent by Mr.
Chen to “Jeffrey A. Kern c/o Vanguard Group, Inc.
Attn: Legal Department – M35, 400 Devon Park
Drive, Wayne, Pennsylvania 19087” and to “Vanguard Group, Inc.” at the same address (Exhibit G
hereto).
37. The essence of petitioner’s objection, as set
forth in detail in my letter, related to Mr. Chen’s
failure to provide opposing counsel with proper
notice regarding the service of such subpoenas
[CPLR § 3120(3)] and the issuance of subpoenas to
out-of-state parties.

63a
38. Mr. Chen refused to withdraw his subpoenas.
His responsive letter dated March 22, 2017
(Exhibit H hereto), states, in part:
Vanguard’s response to the Subpoena was
received Monday, March 20, 2017, on an
encrypted USB flash drive. I will forward you
a copy of same after I determine how to duplicate the drive (either another drive or hard
copies of documents).
There is no prejudice to the Estate as to Vanguard production and you haven’t alleged any.
Your objections are reserved anyway until
trial. I will not withdraw the Subpoena—but I
will supply you with the production by Vanguard.
39. The “flashdrive” which was forwarded to
petitioner’s counsel contains alleged unauthenticated recordings which apparently were transcribed
by Objectant (unauthenticated) and utilized in the
Chen Affirmation. In addition, the “flashdrive” was
not accompanied by a business records certification
pursuant to CPLR § 3122-a. The “flashdrive” and
its contents are, therefore, inadmissible.
40. Significantly, the Chen Affirmation does not
contain any authentication reference for the
alleged conversation between Mr. Kern and the
decedent. Moreover, Objectant has submitted no
evidence showing that the transcript of this conversation was sent to one of the alleged participants
for review and signature pursuant to CPLR
§ 3116(a). The transcript does not have a CPLR

64a
§ 3122-a business records certification either. The
purported transcript annexed as Exhibit O to the
Chen Affirmation is dated March 17, 2016, containing an alleged conversation between Mr. Kern and
the decedent, who had died five months earlier on
November 10, 2015. The entire Vanguard production is, therefore, inadmissible.
41. Similarly, the Objectant never forwarded to
petitioner any discovery records Objectant received
from Mt. Sinai Hospital despite the fact that Petitioner demanded the production of any documents
pursuant to any “subpoena to which notice had not
been provided” as well as any documents responsive to “any authorization previously provided by
Petitioner”, which includes the Mt. Sinai Hospital
records. (Exhibit I hereto). The first five (5) pages
of Objectant’s Exhibit J have not previously been
produced. In any event, the entirety of Objectant’s
Exhibit J is not accompanied by a business records
certification pursuant to CPLR § 3122-a and the
documents are therefore inadmissible. Thus, any
use or reference to such documents by Objectant for
the purposes of this motion, albeit without any
merit, is objected to. Additionally, no authentication of such records is produced in the Chen
Affirmation.
42. While Objectant’s use of the Vanguard and
Mt. Sinai materials is improper, there is no dispute
that any deficiencies regarding the decedent’s eyesight had no impact regarding the decedent’s
capacity to execute the Will and to fully comply
with the requirements of EPTL 3-2.1. Therefore,

65a
Section B has not presented any issue of fact that
would prevent the granting of summary judgment
to petitioner.
43. Section C, beginning at page 10 of the Chen
Affirmation, is referred to as “Attorney Draftsman
and Witnesses Did Not Follow Required Will Execution Procedures”. This section contains various
assertions by Objectant none of which raise an
issue of fact that would preclude the granting of
petitioner’s motion.
44. The section begins with a reference to Mr.
Curtin’s deposition testimony regarding the placing of two “X” marks on the signature line of the
Will. Mr. Chen then notes that attesting witness
Jill could not recall who placed the X’s on the Will
although Jill recalls the decedent signing the Will
(Chen Aff. at p. 11). Mr. Chen then notes that the
Will does not contain “X” marks on pages 1 or 2
where the decedent placed his initials. Chen Aff. at
p.11.
45. Based upon the above, Mr. Chen asserts that
“there is open question how Decedent was able to
initial without “X’s”. Chen Aff. at p. 11. Similarly,
Mr. Chen asserts on page 12 of his affirmation that
“If Decedent was not able to sign on page 3, how was
it that he was able to ‘initial without the help of
“X’s?”.
46. Once again, the thrust of Objectant’s assertions completely mischaracterize the events taking
place and fail to create any issue regarding the
decedent’s capacity to execute his Will. The fact

66a
that the decedent placed his initials randomly on
the lower portion of pages 1 and 2 and between two
X marks on the signature line is inconsequential
regarding his capacity and the requirements of due
execution.
47. Mr. Curtin in his deposition testimony
explicitly set forth the procedure that was followed
with regard to the decedent’s initialing and signing
the Will, as follows:
Q. So, is it correct to state that Mr. Fields
brought the Sharpie to the will signing?
A. That’s correct.
Q. In looking at the document, the will, from
the handwritten Page Number 1 and 2,
there are initials there. Can you tell me
how those initials in a Sharpie were
placed there?
A. Yes, after I asked Mr. Fields in the presence of the witnesses whether he had read
this will and that he was declaring it to be
his last will and testament, I asked him to
initial the lower left hand pages of Pages 1
and 2 because 3 he was going to sign.
Q. And he did so?
A. He did. Those are his initials with his
Sharpie, yes.
Curtin Depo. at p. 63 ln 15 - p. 64 ln 8. (Haas Nov.
28, 2017 Aff. Exhibit F).

67a
48. The happenstance that “X’s” were placed on
the signature line of the Will and not on pages 1 or
2 where initials are typically randomly placed in
the lower margin area of the page, is completely
irrelevant to the issues of capacity and statutory
compliance.
49. Contrary to the Objectant’s unsubstantiated
and clearly inaccurate assertion that the “Decedent
was not able to sign on page 3” (Chen. Aff. at p. 12),
the deposition testimony of Mr. Curtin, Jill and
Suzanne and the presence of the attestation clause
and the Witness Affidavit all combine to demonstrate without any doubt that the decedent had full
capacity and that the Will was a result of his intentional actions.
50. There is not a scintilla of evidence, authenticated or otherwise, that the decedent’s eyesight
impacted in any manner on his capacity and ability
to have his Will prepared and duly executed on
October 6, 2014.
51. In Section C, the Objectant also refers to a
small portion of Susan’s deposition testimony in a
misleading manner by pointing to her lapse of
memory regarding the particulars of the Will signing ceremony.
52. The law is clear that while an attesting witness may have a lapse of memory regarding details
of a Will ceremony, such deficiency does not mean
that the formalities required by EPTL 3-2.1 did not
take place. Moreover, a failed memory of a witness
does not diminish the various presumptions of due

68a
execution. As noted by the Court in In re Lambros,
2007 WL 7686326, 2007 N.Y. Misc. LEXIS 8160
(Surr. Ct. NY 2007), where the Court granted judgment admitting a Will to probate:
As to objectant’s other challenge to due execution, namely that the execution ceremony itself
was deficient, he relies primarily on misleading excerpts of Mrs. Zitniak’s testimony. In
any event, her testimony that she had no specific recollection of the execution ceremony is
not, as objectant contends, evidence of lack of
due execution (see e.g. Matter of Collins, 60
NY2d 466; Matter of Finocchio, 270 AD2d 418;
Matter of Ruso, 212 AD2d 846) Instead, when
read in its entirety, Mrs. Zitniak’s testimony
supports a finding of a due execution (see
Matter of Collins, 60 NY2d 466, supra; Matter
of Rosen, 291 AD2d 562).
Id. See also Estate of Ruso, 212 A.D.2d 846, 847 622
NYS2d 137 (3rd Dept.1995):
The failure of the attesting witnesses to recollect the event may be significant in determining whether the formalities of execution were
followed, but it does not preclude the court as
a matter of law from admitting the will to probate (see Matter of Collins,60 N.Y.2d 466, 473,
470 N.Y.S.2d 338, 458 N.E.2d 797).
53. A reading of Suzanne’s entire deposition
transcript (annexed as Exhibit H to the Chen Affirmation) demonstrates without any doubt that the
formalities required by EPTL 3-2.1 were adhered to

69a
and, in fact, participated in by Suzanne. Suzanne’s
testimony recounts that she was a neighbor of Mr.
Curtin and was requested by Mr. Curtin to act as a
witness to the Will on October 6, 2014. On said
date, Suzanne was present in Mr. Curtin’s office
along with Mr. Curtin, the decedent and Jill, and
no one else. Suzanne signed as a witness. Excerpts
from Suzanne’s testimony (annexed as Exhibit H to
Mr. Chen’s affirmation) are as follows:
Q. So is it correct to state that when you witnessed Mr. Sydney Fields’ will, it was
October 6th, 2014; is that correct?
A. That’s correct.
Q. And the document reflects your recollection; is that correct?
A. That’s correct.
Suzanne Depo. at p.14, lns 12-19.
Q. Mr. Curtin, he asked you to be a witness
for the will; is that correct?
A. That’s correct.
Suzanne Dep. at p. 19, lns 21-23.
Q. On October 6th, 2014, what time did you
go to Mr. Curtin’s apartment?
A. Very often, around 1:00. For that day I
think it would have been 1:00-ish.
Suzanne Depo. at p. 29, lns 5-9.

70a
Q. For this particular will—and you did sign
that document? You recognize your signature?
A. Oh, yes.
Q. And you recall signing it; is that correct?
A. Oh, I do.
Suzanne Depo. at p. 41, lns 3-9.
A. I signed after the prior witness, which is
Jill Curtin.
Suzanne Depo. at p. 41, lns 21-22.
A. It’s a process that you sign, you sign, this
is where you sign, which I did as I was
instructed to do so.
Q. Did you see Mr. Fields sign the document?
A.

Yes. Yes.

Suzanne Depo. at p. 42, lns 17-22.
Please forgive me, but I don’t remember
exactly, but it was all of a piece. We all—
we signed, we signed, he signed, and that’s
—and I definitely saw him sign the will.
Q. You did see him sign the will?
A. Absolutely, because I recognize—I recognize the—the name, because I—because—
as I’m seeing this here, he signed basically
over—his own name is down here (indicating), but I can see and I knew it was him.
I—Sidney H. Fields.

71a
Suzanne Depo. at p. 44, lns 8-20.
Q. I presume that Mr. Curtin was involved?
A. It was as if we were being guided—he was
the lawyer—we were guided as to what to
do. Whether it was a—different than—he
signed, I signed, Jill signed, or Jill 2
signed, I signed, he signed, it was all of
the same process that was the will signing
of Mr. Fields’ will.
Suzanne Depo. at p. 48, lns 14-23.
Q. The question is, sitting here today, was
Mr. Fields competent to make his will,
based on what you said in this affidavit?
A. I thought so, absolutely, at the time.
Q. On what did you base your judgment?
A. He spoke only when spoken to. He did
not— as you have indicated, he might have
said—asked me about this stuff—he would
not have done that. It was up to his lawyer
to do that. He was able to discern what
was being said to him.
Suzanne Depo. at p. 55, lns 20-25 and p. 56, lns
2-11.

2

Ultimately, Suzanne testified at her deposition that
she signed the Will after the decedent signed the Will.
Suzanne Depo. at p. 87, ln 16 - p. 88, ln 17. (Chen Aff. Exhibit
H) (“Q. –do you recall if you signed before or after Mr. Fields
signed that document? A. I signed after he did.”).

72a
Q. Now, when you signed this paper, did you
sign this paper in the presence of Sydney
Fields and the other witness, Jill Curtin?
A. Yes.
Q. Did you see the other witness, Jill Curtin,
sign her name on this papers?
A. Yes.
Q. And you were all present at the same time?
A. Yes.
Q. At the time you signed this paper, you also
saw Sydney Fields sign this paper; is that
correct?
A. Yes.
Suzanne Depo. at p. 78, lns 9-23.
Q. Now, would you say that this affidavit
accurately reflects the events that occurred
on October 6th, 2014?
A. Yes.
Q. Would you have signed this affidavit if
any part of it was not true?
A. Would I have signed it if it was not true?
No.
Suzanne Depo. at p. 80 lns 21-25 and p. 81 lns 2-4.
54. Based upon the above Section C has not presented any issue of fact to preclude the granting of
summary judgment.

73a
55. Section D, appearing on page 12 of the Chen
Affirmation, is entitled “The Will and Attestation
Affidavit Has Other Irregularities.” There are no
matters set forth in Section D that raise any issue
of fact precluding summary judgment.
56. On page 12 of the Chen Affirmation the
Objectant asserts that the use of the word “her”
instead of “him” in the attestation clause of the
Will calls into question whether the decedent read
the Will. The Objectant’s contention in this regard
fails to overcome the clear and overwhelming evidence regarding the decedent’s testamentary
capacity and full compliance with EPTL 3-2.1. As
stated by the Court in Probate Proceeding, Will of
Eleanor Martinico, 2014-3403, NYLJ 1202270885618
at 1, 10/28/2016 N.Y.L.J. 41 (Surr. Ct. Kings 2016),
where the Court granted summary judgment
admitting a Will to probate:
Based on the record presented, the proponent
has provided prima facie evidence of due execution of the propounded instrument. In re
Weinberg, 1 A.D.3d 523 (2nd Dept. 2003). The
supporting affidavits of the attorney-drafter
and Caruso, who both witnessed and supervised the propounded instruments execution,
support a finding that the propounded instrument was duly executed in accordance with the
requirements of EPTL § 3-2.1. Further, where,
as here, an attestation clause accompanies the
instrument, there is a presumption that the
statutory requirements have been met (Matter
of Farrell, 84 AD3d 1374 [2nd Dept. 2011]),

74a
thus shifting the burden to the objectants to
proffer evidence in admissible form that the
instrument was not duly executed. The decedent’s so-called lack of objection to being erroneously described as a “he” in the propounded
instrument does not negate the propounded
instrument’s execution in accord with EPTL
§ 3-2.1, nor does it negate the testimony of the
two witnesses, both attorneys, who knew the
decedent for many years, and represented her
on other matters.
57. On page 12 of the Chen Affirmation, it is
similarly wrongfully asserted that Mr. Curtin’s correction of a typographical error regarding the date
of the Will execution on the Witness Affidavit
somehow “renders the same ineffective and a trial
is necessary to prove the proper procedures were
followed and the Decedent signed the Will”
58. In this regard, there is nothing put forward
by Objectant that in any way diminishes the presumptions and direct evidence concerning the Will
being duly executed for all purposes.
59. The Objectant’s bare statement that a trial is
needed to determine if the “Decedent signed the
will”, is totally flawed and is nothing more than an
unsubstantiated fabrication.
60. The attesting witnesses both testified completely as to the above execution of the Will. The
Objectant has failed to provide any indicia of factual evidence to upset the presumptions of compli-

75a
ance with the standards needed for the Will to be
admitted to probate.
61. At page 13 of the Chen Affirmation, reference is made to handwritten notes provided to Mr.
Curtin by the decedent at a meeting during which
the terms of the Will were being discussed. With
regard to this document, a copy of which is annexed
to the Chen Affirmation as Exhibit N, Mr. Curtin
testified that he did not know whether such document “was made out by Mr. Fields”.
62. Based upon this circumstance, the Chen
affirmation at page 13 concludes that “the handwritten document concerning the residuary estate
given to Edward Curtin by Decedent at the October
3 meeting is in question. . . .”
63. Significantly, the precise “question” being
raised is not disclosed by Mr. Chen. More importantly there is no disclosure or identification of any
actual facts or issues that are being raised by this
circumstance that concern the due execution of the
Will or could overcome the uncontrovented evidence presented in support of probate. In fact, Mr.
Curtin testified that the decedent “gave me that
piece of paper, appears to be handwritten. I know it
was handwritten by him because he told me that.”
(Haas Nov. 28, 2017 Aff. Exhibit F at p.13 ln 21-24).
In response to this testimony, Objectant submitted
no proof to show that this document was not written by the decedent.
64. Therefore, Section D does not raise an issue
of fact.

76a
65. Section E of the Chen Affirmation is entitled
“Suspicious Circumstances Surrounding Timing of
Will Execution”. In this Section, which begins on
page 14 of the Chen Affirmation, reference is again
made to the decedent’s initials which appear at the
left hand bottom of pages 1and 2 of the Will. The
Chen Affirmation at page 15 then asserts that “Curt
Baggett, a handwriting expert, submitted by the
Petitioner, analyzed the signatures of the Decedent
from various documents including the same. Mr.
Baggett concluded that someone, besides the decedent, forged the initials of the Decedent on the last
page of the Will.”
66. The Baggett Report is annexed to the Chen
Affirmation as Exhibit L. The Chen Affirmation
then provides: “Petitioner has not provided a handwriting expert nor any reports from a handwriting
to disqualify Mr. Baggett’s report. This requires a
trial to determine whether the Decedent initialed
the pages of the Will dated October 6, 2014. Thus,
Petitioner’s motion for summary judgment should
be denied.” Notably, in assembling, laying bare and
revealing his proofs, as required on this motion
for summary judgment, Rosado v. Kulsakdinun,
32 AD3d 282, 284 (1st Dep’t 2006); Schiraldi v. U.S.
Mineral Prods., 194 AD2d 482, 483 (1st Dep’t
1993), Objectant argues that the “initials” are
forged. Objectant does not argue that the decedent’s signature was forged. He is, therefore, limited by the evidence he submitted on this motion.

77a
67. Objectant’s contention regarding the need for
a trial and his reliance upon the Baggett Report
are misplaced.
68. As a preliminary matter, EPTL 3-2.1 does
not require that the pages of a Will be initialed.
The decedent’s Will was executed by him on page 3.
There is no dispute that such signature is genuine
since Objectant does not challenge the authenticity
of the decedent’s signature on page 3. While the
Chen Affirmation refers to an alleged forgery of the
decedent’s “initials on the last page of the Will”
(Chen Aff. at p. 15), there are no initials on the last
page of the Will which is page 3. Page 3 only contains the full decedent’s signature. The Baggett
Report refers to initials on page “Q2” which are
referred to in the Report as “Initials bottom of Page
1. The Chen Affirmation does not clarify these
inconsistencies. The Chen affirmation also does not
explain why exemplars of the decedent’s signatures
contained in the Baggett report were not written
with a Sharpie pen, unlike the October 6, 2014
Will. Therefore, the Court should not be fooled by
this transparent effort to concoct an issue of fact.
69. The initials that appear on page 2 of the Will
seem virtually the same as the initials on page 1.
Objectant does not challenge the authenticity of
the decedent’s initials that appear on p. 2 of the
Will or the decedent’s signature on page 3.
70. While it seems that Objectant’s contention is
that the page 1 initials were made by someone other
than the decedent, the Objectant is not questioning

78a
the decedent’s capacity or the validity of the execution ceremony that resulted in the unchallenged
signature on page 3.
71. Moreover, the Baggett Report itself fails to
raise any issue of fact regarding the authenticity of
the due execution of the Will. Paragraphs 1 and 2
of the Baggett Report allege that:
I have examined three (3) documents with the
known signatures of Sydney Fields. For the
purpose of this examination I have labeled
these exhibits “Kl’’ through “K3”.
Today I have compared the signatures of Sydney
H. Fields on the ‘K’ documents to the SHF initials on the questioned document, identified
herein as ‘Q2’, to determine if the author of the
Sydney H. Fields signatures on the ‘K’ documents was the same person who authored the
initials on SHF on the questioned document:
Typed Last Will and Testament, Initials bottom
of Page 1.
72. With regard to the above, Baggett does not
claim to have examined any original or authenticated documents. Remarkably, Baggett does not
claim to have even examined the original of the
Will. Baggett merely says that he “compared the
signatures of Sydney H. Fields on the ‘K’ documents to the SHF initials on the questioned document, identified herein as ‘Q2’. . . .”

79a
73. The ‘K’ documents referred to by Baggett,
which are annexed to the Baggett Report, are as
follows:
(a) K1 – partial copy of what appears to be
the front of a check dated 9/24/91.
(b) K2 – partial copy of what appears to be
the front of a check dated September 10,
2014.
(c) K3 – copy of what appears to be a check
dated January 3, 2015.
74. None of the ‘K’ documents are authenticated
in any manner and none of the ‘K’ documents have
any alleged “SHF” initials.
75. The so-called “questioned document”, “Q2”, is
a photocopy of what appears to be page 1 of the Will
upon which there is a check — mark in the margin
at Article THIRD. There is also a handwritten
notation at the bottom of page “Q2” as follows: “Q2
Problem page”. There is no indication as to the
manner by which these extraneous writings were
made on the “Q2” page.
76. CPLR 4536 provides: “Comparison of a disputed writing with any writing proved to the satisfaction of the court to be the handwriting of the
person claimed to have made the disputed writing
shall be permitted.”
77. The McKinney’s Practice Commentaries to
CPLR 4536 (Vincent C. Alexander) (2017), note
that: “[w]hen proof of handwriting is made on the
basis of comparison, CPLR 4536 requires that the

80a
genuineness of the specimen first be established to
the court’s satisfaction.” The Practice Commentaries continue by pointing out that the Court of
Appeals in “People v. Molineux, 1901, 168 N.Y. 264,
329-30. . . . identified several methods by which
the genuineness of the sample may be established;
concession by the adversary either before or during
trial; testimony by the adversary; testimony by a
witness who observed the creation of the sample;
testimony by a witness who is familiar with the
handwriting of the author of the sample; or evidence that the purported author of the sample had
recognized it or acted upon it in his or her business
transactions or other activities. 168 N.Y. at 328.”
78. The Objectant has not demonstrated, or even
attempted to demonstrate, that the alleged specimen handwritings are genuine or authentic. See
Kanterakis v. Minos Realty I, LLC, 151 AD3d 950,
55 NYS3d 452 (2nd Dept. 2017); where the Court
stated:
The plaintiff failed to present evidence authenticating the group of 31 exemplars upon which
the plaintiffs handwriting expert primarily
relied (see CPLR 4536; see also Banco Popular
N. Am. v. Victory Taxi Mgt. 1 N.Y.3d at 384,
774 N.Y.S.2d 480, 806 N.E.2d 488; Matter of
Dane, 32 A.D.3d 1233, 1234, 821 N.Y.S.2d
699; Matter of James, 17 A.D.3d 366, 367, 792
N.Y.S.2d 601).
151 AD3d at 952.
79. Following paragraph 1 and 2 of the Baggett
Report, the Report contains 6 paragraphs which

81a
are only general statements regarding handwriting
document examination. These paragraphs consist
almost entirely of reproduced excerpts from an
alleged professional text. Following the recitation
of this general textual matter, the Baggett Report
provides the following conclusion:
Based upon thorough analysis of these items,
and from an application of accepted forensic
document examination tools, principals and
techniques, it is my professional expect opinion
that a different person authored the initials of
SHF on the questioned document. Someone did
indeed forge the initials of SHF on the questioned document, ‘Q2’
80. Notwithstanding, the above alleged conclusion or opinion, the Baggett Report does not provide any “analysis” or any detail regarding the
“application” of so-called “examination tools, principals and techniques”. Instead, the Baggett Report
is nothing more than: (i) a reference in paragraphs
1 and 2 to unauthenticated non-original papers
allegedly signed by the decedent; (ii) followed by
general references to brief parts of an alleged
handwriting book; and (iii) which then ends with
the conclusion that “someone” forged “the initials
of SHF” on document ‘Q2’. Most significantly, there
is no assertion whatsover that the SHF initials on
page 2 of the Will do not match the the “S”, “H” or
“F” of Sydney H. Fields’ signature on page 3 of the
Will, which has not been challenged.

82a
81. It is submitted that the Baggett Report fails
to provide any reasonable professionally accepted
indication that the so-called ‘Q2’ initials are not
authentic. Clearly, no issues of fact are raised in
light of the completely unsubstantiated and speculative quality of this submission by Objectant. Any
expert opinion that amounts to nothing more than
bare conclusions unsupported by any evidentiary
matter cannot provide a basis to deny summary
judgment. As stated by the Court in Murphy v.
Conner, 84 NY2d 969,622 NYS2d 494 (1994), where
a summary judgment dismissal was upheld:
Plaintiff provided an affidavit of an engineering expert. Ordinarily, the opinion of a qualified expert that a plaintiffs injuries were
caused by a deviation from relevant industry
standards would preclude a grant of summary
judgment in favor of the defendants (see, e.g.,
Trimarco v. Klein, 56 N.Y.2d 98, 106, 451
N.YS.2d 52, 436 N.E.2d 502). Here, however,
there was no indication by plaintiff of exactly
where she fell and the expert’s examination of
a part of the general area is insufficient to preclude summary judgment for defendants.
Moreover, the expert’s affidavit was conclusory, raised no triable issues of fact and, as such,
was properly disregarded by the Appellate
Division.
84 NY2d at 972. See also Rosario v. Trump Management, Inc., 7 A.D. 3d 504, 775 N.Y.S.2d 578
(2nd Dept. 2004) “In opposition, the plaintiff submitted the report and affidavit of an engineering

83a
expert whose conclusions were, among other things,
conclusory and failed to raise a triable issue of fact
(citation omitted).
82. It cannot be overlooked that Mr. Baggett
cannot be certified as a handwriting expert in this
case. His alleged ‘certification’ is from the “American Bureau of Document Examiners.” (Chen Aff.
Exhibit L). However, research has been unable to
uncover the existence of any accredited organization with this name. It appears that Mr. Baggett is
attempting to make it appear as though he is certified with the American Board of Forensic Document Examiners. See Wolf v. Ramsey, 253 F. Supp.
2d 1323, 1342 (N.D. Ga. 2003) (“The only recognized
organization for accrediting forensic document
examiners is the American Board of Forensic Document Examiners (‘ABFDE’)”). While Mr. Baggett
claims to have a “certificate of completion from the
American Institute of Applied Science”, there is no
indication that such a certificate is related in any
way to forensic document examination or that this
institution is certified with the ABFDE. Moreover,
it cannot be overlooked that Mr. Baggett has been
denied certification as a handwriting expert
numerous times in Federal Court, most recently in
January, 2017. See Balimunkwe v. Bank of Am.,
N.A., 2017 U.S. App. LEXIS 19875 at *2-3 (6th Cir
Jan.17, 2017) (excluding Mr. Baggett as an expert
“due to his lack of qualifications as an expert and
because his methodology was not reliable”); U.S. v.
Revels, 2012 U.S. Dist. LEXIS 65069 at *22 (E.D.
Tenn. May 9, 2012) (finding that Mr. Baggett’s tes-

84a
timony cannot pass the “minimum indicia-of-reliability” standard); Dracz v. Am. Gen. Life Ins. Co.,
426 F. Supp.2d 1373, 1378-79 (M.D. Ga 2006) affd
201 F. Supp.2d 1373 (11th Cir. 2006) (noting, inter
alia, Mr. Baggett’s “paltry” qualifications, his lack
of certification “by or of any of the twenty recognized document examiner trade organizations in
the United States” and that his “training in the
field” was from “Dr. Ray Walker, whose own qualifications as a document examiner are suspect”.).
Mr. Baggett’s alleged ‘credentials’ here are nonexistent. The report of Objectant’s “expert” concerning the “Initials on bottom of Page 1” lacks a
reliable foundation.
83. Even putting aside the total lack of evidentiary sufficiency appearing from the face of the
Baggett Report, the Objectant has not provided any
particulars in authenticated form or otherwise,
regarding the events or circumstances by which
such alleged forgery occurred. In In re: Herman,
289 A.D.2d 239, 734 NYS2d 194 (2nd Dept. 2001),
the Court granted summary judgment admitting a
Will to probate, stating:
The petitioners’ motion for summary judgment
dismissing the objections to the probate of the
decedent’s will dated May 18, 1994, and to
admit the will to probate should have been
granted. The petitioners demonstrated, prima
facie, that the will was properly executed pursuant to the formal requirements set forth in
EPTL 3-2.1. “Where, as here, the attorneydraftsman supervised the will’s execution,

85a
there is a presumption of regularity that the
will was properly executed in all respects”
(Matter of Finoccio, 270 A.D.2d 418, 704
N.Y.S.2d 634; see; Matter of Esberg, 215
A.D.2d 655, 627 N.Y.S.2d 716; Matter of
Posner, 160 A.D.2d 943, 554 N.Y.S.2d 666). In
opposition, the objectants failed to raise a triable issue of fact as to whether the decedent’s
signature was a forgery. Where the objectant
intends to offer that the instrument has been
forged by another, the proponent is entitled to
particulars of the forgery, and where known,
the name and addresses of the person or persons who forged the instrument” (Matter of
DiScala, 131 Misc. 2d 532, 534, 500 N.Y.S.2d
976). Here, the objectants failed to provide any
such particulars. Therefore, their claim of forgery did not warrant denial of the motion.
289 AD2d 239-40. See also Matter of Harper,
11/12/2014 N.Y.L.J. 22 (col. 4) (Surr. Ct. Bronx
County) (“The objectant has not provided any specific details as to the alleged act of forgery other
than her conjecture about the different possible
ways the forgery may have occurred. Having failed
to offer evidence in admissible form as to the existence of an issue of fact with respect to the genuineness of the decedenes signature, the proponent
is entitled to have the objection alleging forgery
dismissed.”); In re: James, 17 A.D.3d 366, 792
NYS2d 601 (2nd Dept. 2005) (“[T]he testimony of
the objectants’ expert did not, as a matter of law,
establish that the will was forged.”).

86a
84. The deposition testimony of Mr. Curtin and
the attesting witnesses all unequivocally show that
“Q2” was not and could not have been forged. Mr.
Curtin testified as follows:
Q. At the time you gave the October 6, 2014
will to him, would you say that the will
that you’re looking at here today which is
Exhibit 6, which is a certified copy of that
will, is exactly the same as the will that
you gave him duly executed on October 6,
2014?
A. Yes.
Q. There’s no change in this document, whatsoever, from the time you gave it to him
until the time you’re looking at it presently?
A. Correct.
Curtin Depo. at p. 152, lns 13-25. (Exhibit J hereto).
Q. Now, at the time that the will was signed
and you were together with Sydney Fields
and Jill Curtin and Suzanne Lehman, did
you or do you have any knowledge regarding anyone forging or otherwise tracing
the signature of Sydney Fields that appears
on the October 6, 2014 will?
A. No, I saw Sydney Fields sign the will.
Q. So, you have no knowledge or any information that that document was in any way
forged; is that correct?

87a
A. It could not be; I saw him sign the will
with his own Sharpie.
Curtin Depo. at p. 149, lns 15-25 and p. 150, lns
2-4. (Exhibit K hereto).
85. Both Jill and Suzanne also testified at their
depositions that they did not see any indication of
a forgery:
Q. At the time the will was signed, did you
see anyone that attempted to forge Mr.
Fields’ signature?
A. No.
Q. At the time the will was signed, did you
see anyone that attempted to trace or otherwise fake Mr. Fields’ signature?
A. No.
Suzanne’s Depo. at p. 81, lns 17-24. (Chen Aff.
Exhibit H).
Q. Now, at the time that the will was signed,
did you notice anyone that attempted to
forge Mr. Fields’ name on the will?
A. No.
Q. Or on any document that was signed on
that day?
A. No.
Jill Deposition at p. 51, lns 9-16. (Haas Nov. 28,
2017 Aff. Exhibit E).

88a
86. Annexed as Exhibit J to my Affirmation
dated November 28, 2017 in Support of Petitioner’s
Motion is a copy of the Objectant’s Amended Verified Bill of Particulars dated October 11, 2016.
A copy of such document is annexed hereto as
Exhibit L for convenience.
87. The Objectant’s responses in said Verified
Bill include the following:
(a) Under Answer 1(2):
the persons aforementioned did conspire with
each other, or independently, or both, with
EDWARD CURTIN, as attorney draftsman,
JILL CURTIN and SUSAN LEHMAN, as witnesses, and possibly with third parties yet to
be discovered, to forge and/or trace with black
permanent marker the signature of SYDNEY
H. FIELDS on the will proferred for probate
and pretend same was signed by SYDNEY H.
FIELDS.
(b) Under Answer 2 (2):
SYDNEY H. FIELDS was without the mental
and physical capacity to execute the Will at the
time of alleged execution. All parties above
named, including the beneficiaries of the Will
and attorney draftsman and attesting witnesses,
did cajole, threaten, intimidate, misrepresent
as to contents, or otherwise tricked SYDNEY
H. FIELDS into executing the Will proferred
for probate or forged or traced his signature
with or without his presence.

89a
88. During the course of Richard’s deposition
testimony, Richard was unable to provide any particulars or information regarding any alleged forgery of the Will. The testimony concerning the
Amended Bill of Particulars was as follows:
Q. Mr. Fields, you signed that document, correct? That is your signature at the end of
the document, correct?
A. Yes.
Q. And you verified that everything in this
document is true to your knowledge, correct?
A. Yes.
Q. Okay. So if you take a look then again at
the Amended Verified Bill of Particulars.
A. Yes.
Q. In the little paragraph 2, which is on the
second page—
A. Yes.
Q. —and if you read that little paragraph it
says, the persons aforementioned did conspire with each other or independently or
both, all right, with Edward Curtin, Jill
Curtin and Suzanne Lehman as witnesses
and possibly third-parties yet to be discovered to forge and/or trace with black permanent marker the signature of Sydney
Fields.

90a
Now, again, none of these individuals
that are named here, Edward Curtin, Jill
Curtin, Suzanne Lehman are named in
your objection to probate; is that correct?
A. Yes.
Q. So could you tell me in what manner or
based on what information Edward Curtin,
Jill Curtin and Suzanne Lehman conspired with each other or with anyone else
to either forge or trace the signature of
Sydney Fields?
A. I don’t have any information with regard
to that.
Q. Do you have any information with respect
to any person, all right, to the extent that
they conspired with each other to forge or
trace with black permanent marker the
signature of Sydney Fields?
A. No. I can’t tell you that.
Richard Depo. at p. 369 lns 1-25, p. 370 lns 2-25
and p. 371 lns 2-8. (Haas Nov. 28, 2017 Aff. Exhibit
K).
Q. And if you read further down in paragraph 2 under Answer 2, it says, All
parties above named, including the beneficiaries of the will and attorney draftsman
and attesting witnesses, did cajole, threaten, intimidate, misrepresent as to contents
or otherwise tricked Sydney H. Fields into
executing the will proffered for probate or

91a
forged or traced his signature with or
without his presence.
Do you have information with respect
to any specific acts or facts that any of
those parties engaged in any of those activities?
A. No.
Q. And so you didn’t have any of those facts
at the time that you signed this; is that
correct?
A. Yes.
Q. And do you have any of those facts as we
sit here today?
A. No.
Richard Depo. at p. 372 lines 21-25 and p. 373 lns
2-19. (Haas Nov. 28, 2017 Aff. Exhibit K).
89. As shown herein, the Objectant has not and
could not provide any particulars whatsoever
regarding any alleged forgery as it relates to the
initials on “Q2” or otherwise. All of the parties who
attended the Will signing ceremony provided
uncontroverted testimony that there was no indication of a forgery. Neither the petitioner nor anyone
else who is a beneficiary under the Will were
involved with the preparation or execution of the
Will.
90. Objectant also fails to inform the Court that
the October 13, 2017 report from Mr. Baggett was
not provided to Petitioner’s counsel in discovery.

92a
Petitioner served an expert witness demand on
July 28, 2016. (Exhibit M, hereto). The October
13, 2017 report was not seen in this case until
Objectant filed his opposition to the instant motion
on January 22, 2018. Objectant has shirked his
obligations under CPLR § 3101(h). Objectant knowingly kept this report secret until his opposition to
the instant motion was filed, while complaining
that “Petitioner has not provided a handwriting
expert” to “disqualify Mr. Haggart’s [sic] report.”
(Chen Aff. At p.15). Since the October 13, 2017
report was not disclosed until after Petitioner filed
her motion for summary judgment, it is unclear
how an expert could “disqualify” Mr. Baggett’s
October 13, 2017 report when Objectant filed his
opposition papers on January 30, 2017. The Court
cannot condone Objectant’s ridiculous conduct.
91. Based upon the above, the Objectant’s submission of the Baggett Report, which provides a
purely speculative conclusion coupled with Objectant’s inability to particularize a factual predicate
for a claim of forgery, fails to raise an issue of fact.
The Baggett Report cannot overcome the clear presumptive validity of the Will. Thus, Section E cannot preclude petitioner’s summary judgment
motion.
92. Section F, appearing on page 16 of the Chen
Affirmation, is entitled “From The Previous Will,
Drastic Changes Benefit The ‘Palmeri’ Family in
the Last Will, Raising Questions of the Veracity of
the Present Will.” There are no matters set forth in

93a
Section F that raise any issue of fact precluding
summary judgment.
93. The meritless assertion presented in Section
F is that the changes made to the decedent’s Will
as executed on October 6, 2014 as compared to the
dispositions provided in the decedent’s prior Will
dated July 27, 2006, reflect the presence of undue
influence and, therefore, create issues of fact
regarding the validity of the will.
94. The Objectant’s position is completely flawed
on a number of grounds. While the provisions of a
prior Will that deviate from a Will under consideration is a factor to consider to indicate whether
undue influence is present, In re Zirinsky, 10 Misc.
3d 1052 (A), 809 NYS2d 484 (Surr. Ct. Nassau
2005), “it is also important to remember that in
order to defeat a motion for summary judgment, the
Objectant must demonstrate that there is a genuine
triable issue by allegations which are specific and
detailed, substantiated by evidence in the record
and that mere conclusory assertions will not suffice
(Matter of O’Hara, 85 A.D.2d 669, 671 [1981]).” Id.
95. As fully set forth in petitioner’s papers submitted in support of her motion for summary judgment, the Objectant has not provided any particulars
with regard to undue influence by anyone associated
with the Will whatsoever.
96. Furthermore, the Chen Affirmation does not
provide any indication of undue influence. As discussed above, the only category of opposition to
petitioner’s motion set forth in the Chen Affirma-

94a
tion appears on page 5 and refers only to the
alleged credibility3 of the attorney draftsperson
and the attesting witnesses.
97. Section F contains the words “undue influence” but does not set forth any facts concerning
the basis for such claim.
98. Annexed to the Chen Affirmation as Exhibit
H is a copy of the decedent’s Will dated July 27,
2006. A review of the 2006 Will shows that no radical change to the decedent’s testamentary plan
occurred in the October 6, 2014 Will. First and foremost, both the 2006 Will at Article FIFTH(b) and
the 2014 Will at Article FIFTH (b) contain the
same exact language:
Because my son Richard Fields hired a lawyer
to sue me for money and because I had to have
him arrested and brought to court for harassment of me and my wife, Teresa I deliberately
make no provision for him in this Will and it
is my intention that he receive no part of my
estate.
99. In the 2006 Will the decedent left the vast
majority of his estate to his wife, Teresa. In Article
THIRD the decedent’s condominium apartment
20P at 372 Central Park West, New York, NY was
devised to Teresa, as well as an outright disposi3
Objectant’s claim that Petitioner is not credible concerned events that occurred after the Decedent’s death which
are barred by 22 NYCRR § 207.27 and are, in any, event irrelevant to the execution of the October 6, 2014 Will. (Richard
Fields Aff. ¶ 19; Chen Aff. Exhibit P).

95a
tion of 50% of the decedent’s “remaining gross
estate”. Also, the residue of the estate (Article
SIXTH) was left to Teresa in trust.
100. The 2006 Will also recognizes and makes
provisions for Teresa’s family which includes
Victor Palmeri, Jr., Cynthia Palmeri and Diana
Palmeri Lukac (Article FOURTH). In fact, Victor
Palmeri is named as a Fifty Percent (50%) remainder beneficiary of Teresa’s trust (Article SIXTH)
and also of the estate residue if Teresa was to
pre-decease the decedent (Article SIXTH). Victor
Palmeri, Jr. was named as a Co-Trustee of the
trust and as the alternate executor (Article
EIGHTH).
101. Teresa died on September 5, 2014. The
decedent was then motivated to redraft his Will. As
Mr. Curtin testified in the deposition:
Q. I’m specifically going to read a section that
you wrote concerning the will. And it
would be in the middle of that Section 2.
In the previous superseded will, Mr. Fields
had left the bulk of his estate to his wife,
Teresa Fields, but when she died in
September of 2014, Mr. Fields was compelled to have a new will drafted, wherein
he provided for his residuary estate to be
distributed amongst members of his
deceased family whom he had come . . .
A. Deceased wife’s family.
Q. Deceased wife’s family, whom he had come
to embraces as his own family. Specifically

96a
I’m going to zero in on questioning about
Mr. Fields was compelled to have a new
will drafted. You did write this, right, Mr.
Curtin?
A. Those are my words.
Q. So, could you please just explain what you
meant by Mr. Fields was compelled to
have a new will drafted?
A. What I intended to convey there was that
Mr. Fields on his own initiative determined that he needed to have a new will. It
may have been in-artfully stated by me;
the word compelled was not in any way
intended to indicate that he was under any
kind of duress, but that it was his own initiative to have a new will drafted because
his wife had died.
Q. Did he ever tell you why he wanted to
change his will from the previous will in
effect, which was the 2006 will?
A. Yes, because the 2006 will left substantial
portions of his estate, there was some kind
of life estate, was left to his wife, his then
living wife, Teresa. After she had died, she
was no longer there to be a beneficiary and
Mr. Fields decided to have a new will
drafted.
Curtin Depo. at p. 78 lns 23-25 and p. 79 lns. 2-25
and p. 80 lns. 2-15. (Exhibit N hereto).

97a
102. In view of the above, the decedent created a
new Will dated October 6, 2014. However, the 2014
Will reflected the same testamentary scheme as
the 2006 Will. Teresa and her family were the dominant beneficiaries and Richard, as well as Kenneth and his children, were still explicitly
disinherited.
103. While the charitable bequests in the two
Wills differed, it is clear that the charitable provisions were limited and did not dominate the 2006
Will and were only secondary in nature. In this
regard, Richard was questioned at his deposition
regarding references made concerning the decedent’s charitable bequests in an affidavit Richard
had submitted to this Court sworn to by him on
May 24, 2016 entitled “Affidavit of Richard Fields”
(the “2016 Richard Affidavit”). A copy of the 2016
Richard Affidavit is annexed hereto as Exhibit O.
In paragraph 4 of said Affidavit Richard asserted
as follows:
My father always put a lot of pressure on me
and my brother to pursue education. I know he
valued CUNY, and I not believe he would
revise his will to diminish his gifts to City College and Baruch from a significant percentage
of his estate to only $500 dollars a piece. The
gift to United Jewish Appeal was also diminished significantly. My father was traditional.
He had a strong connection to his Jewish heritage. He was buried in a Jewish Ceremony.
Given how significant the changes are, and the
fact that they went from percentage gifts to

98a
fixed dollar amounts, it looks like someone
said we better put nominal amounts in the will
for those charities, otherwise someone may
question what happened.
104. In this deposition testimony (Exhibit A
hereto) Richard stated that his Affidavit allegations were nothing more than “conjecture”:
Q. Now, when you say, I did not believe —
continued on page 4, front page. See at the
bottom it says, And I do not believe?
A. And I do not believe — it should say it do
not believe.
Q. Okay, it’s typo. I not believe, right, see
that?
A. Yes.
Q. I not believe he would revise his will to
diminish his gifts to City College and
Baruch. Did you see that?
A. Yes.
Q. What is the basis upon which you made
that statement?
A. Conjecture.
Q. You have no basis, correct?
A. Correct.
Q. It’s pure speculation?
A. Correct.

99a
Richard Depo. at p. 378 ln 9- p. 379 ln 5 (Exhibit
P hereto).
Q. Now, you go on to say that a significant
percentage of his—reducing essentially, a
significant percentage of his estate to only
500 a piece. See the rest of that statement?
A. Yes.
Q. And, again, would it be correct to say that
that’s pure speculation?
A. Yes.
Q. You have no facts to base that statement
on, am I correct?
A. You’re correct.
Q. Thank you. Now, with respect to the next
sentence it says, The gift to United Jewish
Appeal was also diminished significantly.
Do you have any information that your
father gave charitably at any point to the
United Jewish Appeal?
A. No.
Richard Depo at p. 381 ln 4- p. 382 ln 3 (Exhibit Q
hereto).
Q. Okay. So if you take a look at the next sentence beginning with the word “given”.
Given how significant the changes are,
and the fact that they went from percentage gifts to fixed dollar amounts, it looks
like someone said we better put nominal
amounts in the will for those charities,

100a
otherwise someone may question what
happened. Do you see that sentence?
A. Yes.
Q. Do you have any factual basis for making
that assertion?
A. I have no factual basis for making that
assertion.
Q. And would it be correct to say that that’s all
based on pure speculation?
A. That would be correct. I know that he gave
a hundred dollars to Baruch College Fund.
Not in the will, but when he was alive, they
asked for a contribution from the alumni
and I read on the computer when I was
looking it up that for him it was a hundred
dollars.
Richard Depo at p. 383 ln 21 - p. 384 ln 22.
105. As shown above, there is no factual basis to
Objectant’s claim that the decedent’s intentions
regarding his charitable bequests were somehow
affected by undue influence. No Objections to the
Will were interposed by any of the charities. More
importantly, the decedent’s testamentary plan as
reflected in the 2014 Will was a reflection of his
desires that permeated both the 2006 and 2014
Wills.
106. The words of the Court in In re Dunn, 184
A.D. 386, 171 NYS 1056 (3rd Dept. 1918), in which

101a
the Court reversed a denial of probate, are reflective of the within matter:
Where a will, made by a concededly competent
person, is identical in its scheme with that of a
subsequent will, varying merely in detail, and
the details of which are not unreasonable or
freaky, the natural inference would be that the
later will was merely the result of maturer
deliberation, not that it was the result of irrationality on the part of the testator, or fraud on
the part of those who chanced to be benefitted
by the changes.
184 AD at 390.
107. After Teresa died, the decedent immediately prepared and signed a new Will which provided
for Teresa’s family in the same manner the 2006
Will provided for Teresa. The decedent clearly
wished to benefit Teresa’s family which the decedent had embraced as his own family after her
death. As stated in paragraph 6 of the Affidavit of
Arthur Fishelman, a disinterested person, sworn to
on June 12, 2017 which was submitted by petitioner as Exhibit BB in support of her motion:
After Teresa died in 2014, I spoke with Syd on
several occasions by telephone. Each time he
underscored how helpful his niece Diana was
and how grateful he was to Diana and her
family for their ongoing support. Syd referred
to Diana and her family as his only family.

102a
108. A similar sentiment was stated by Stuart
Michael, a neighbor and disinterested person, in
paragraph 4 of his affidavit sworn to on September
14, 2016 (Exhibit DD to petitioner’s motion):
Sydney also spoke to me about the affection
and gratitude he had for his niece Diana and
the other members of his deceased wife Teresa’s family for the love and care they gave him
when his physical health began to deteriorate.
He also told me he had two sons but had not
been in touch with them for many years and
was not at all happy with them, although he
didn’t tell me the reasons.
109. Finally, no member of the Palmeri family
was involved with the preparation or execution of
the 2014 Will. As testified by Mr. Curtin:
Q. Prior to Mr. Fields executing this particular will, had you personally had any contact with parties by the name of Olga
Palmeri, Victor Palmeri Senior, Diana
Palmeri, David Palmeri, Victor Palmeri
junior, Cynthia Palmeri and Ana Maria
Garzon Yepez?
A. None of the above.
Q. Thank you. No contact at all?
A. No contact at all.
Q. Did Mr. Fields mention to you when he
was telling you how to put together this
will that we are objecting to, any of those

103a
parties beside the fact that they were distributees? Did he mention anything about
his relationship with any of them?
A. I think there was a discussion as to who
they were. I — I believe he indicated that
Olga was his deceased wife’s sister and
that Diana was her daughter, sister’s
daughter.
Curtin Depo. at p. 82 lns 2-23. (Exhibit S hereto).
Objectant has abandoned his undue influence
objection by failing to allege facts to show motive,
opportunity or the actual exercise of undue influence.
110. Based upon the above, Section E fails to
raise any issue regarding the presence of undue
influence as indicated by a change in the decedent’s
testamentary plan or otherwise.
111. Section G, appearing on page 16 of the Chen
Affirmation, is entitled “Party Not Listed in Petitioner’s List of Witnesses Must Be Deposed”. Not
only does Section G fail to raise any issue of fact,
Gloria Madero was listed in petitioner’s Amended
Witness List dated September 22, 2017 that was
served upon Mr. Chen. (See Exhibit T with affidavit of service annexed hereto).
112. Therefore, Section G provides no basis that
could preclude summary judgment for petitioner.
113. As fully discussed above, the Objectant has
not set forth any substantive matter that presents
an issue of fact regarding any of the allegation in

104a
the Objections. While the Objectant has attached
his affidavit to the Chen Affirmation as Exhibit A,
this Affidavit fails to provide any substantive foundation for the Objectant’s claims. Essentially, the
Objectant’s case is nothing more than a reflection
of his disdain for his father and Teresa and the
Palmeri family which is clear from Objectant’s
statement in paragraph 14 of his January 22, 2018
affidavit in opposition to the instant motion that: “I
do not think it is fair that the Teresa Fields’ relatives, none of whom are blood related to my father,
should divvy up 10 Million Dollars of my father’s
money, when there are questions as to the validity
of Will execution.” What the Objectant, who repeatedly threatened the life of decedent and his wife
with graphically menacing photographs and letters,
deems to be unfair, is irrelevant to the validity of
the Will.
Conclusion
113. In support of her motion, Petitioner has set
forth a prima facie case of entitlement to judgment
as a matter of law dismissing the objections to probate. In addition to the presumptions of regularity
and testamentary capacity, she has submitted testimony and documentary evidence demonstrating
that the October 6, 2014 Will was duly executed in
compliance with EPTL § 3-2.1, that the decedent
had the requisite testamentary on October 6, 2014,
that the decedent was not unduly influenced, that
the decedent was not defrauded and that the Will is
genuine in all respects.

105a
114. In opposition to this prima facie showing,
Objectant has submitted pure” conjecture” in support of his conclusory allegations. Objectant’s opposition does not address the elements of his duress,
mistake, fraud or undue influence objections. Similarly, Objectant’s attempt to elevate allegations of
poor eyesight to show a lack of testamentary capacity has no basis in law or fact. Objectant’s attempt
to distract this Court by alleging that the identity
of an aide must be established is irrelevant and it
does contradict the testimony of the attorneydrafter and attesting witnesses that the Decedent
was fully coherent and intended to execute his Will
on October 6, 2014 and that he did so in compliance
with EPTL § 3-2.1. Objectant’s previously-undisclosed handwriting expert’s conclusion that the
“Initials on bottom of Page 1” did not conclude that
the signature of the Decedent is forged. (Chen Aff.
Exhibit L). Nothing has been submitted to contradict the fact that the attorney-drafter and the
attesting witnesses unanimously testified in unison
that the October 6, 2014 Will was duly executed in
compliance with EPTL § 3-2.1.
115. In sum, Objectant’s “mere conclusions,
expressions of hope or unsubstantiated allegations
or assertions” are insufficient to demonstrate the
existence of a material issue of fact to avoid summary judgment. Zuckerman v. City of New York,
49 N.Y.2d 577, 562 (1980). As demonstrated above,
his submissions are based entirely on speculation,
conjecture and misrepresentations. The uncontro-

106a
verted prima facie evidence requires that summary
judgment be granted to petitioner.
Dated: New York, New York
February 23, 2018
/s/

JULES MARTIN HAAS
Jules Martin Haas

107a
Exhibit List to Reply Affirmation
Exhibit A Pages 185-186 from the deposition testimony of Richard Fields
Exhibit B Pages 33-34 from the deposition testimony of Edward Curtin
Exhibit C Pages 153-156 from the deposition testimony of Edward Curtin
Exhibit D WebMD Article
Exhibit E American Foundation for the Blind
Article
Exhibit F Letter from Jules Martin Haas, Esq. to
Richard Alan Chen, Esq. dated March
20, 2017
Exhibit G Vanguard Subpoena
Exhibit H Letter from Richard Alan Chen Esq., to
Albert V. Messina Jr. Esq. dated March
22, 2017
Exhibit I

Letter from Albert V. Messina Jr. Esq.
to Richard Alan Chen, Esq. dated
March 23, 2017

Exhibit J Page 152 from the deposition testimony
of Edward Curtin
Exhibit K Pages 149-150 from the deposition testimony of Edward Curtin
Exhibit L Objectant’s Amended Verified Bill of
Particulars

108a
Exhibit M Petitioner’s Demand for Expert Witnesses
Exhibit N Pages 79-80 from the deposition testimony of Edward Curtin
Exhibit O Richard Fields Affidavit sworn to on
May 24, 2016
Exhibit P Pages 378-379 from the deposition testimony of Richard Fields
Exhibit Q Pages 381-382 from the deposition testimony of Richard Fields
Exhibit R Pages 383-384 from the deposition testimony of Richard Fields
Exhibit S Page 82 from the deposition testimony
of Edward Curtin
Exhibit T Petitioner’s September
Amended Witness List

22,

2017

109a

EXHIBIT 4

110a
SURROGATE’S COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
File No. 2016-111
Bench Decision
In the Matter of the estate of
SIDNEY H. FIELDS
Deceased.
31 Chambers Street
New York, New York 10007
March 20, 2018
BEFORE:
THE HONORABLE RITA MELLA,
Surrogate Court Judge
APPEARANCES:
For the Petitioner movant:
JULES M. HAAS ATTORNEY AT LAW
845 3rd Avenue #1400
New York, New York 10022
By: Jules M. Haas, Esq.
NOVICK & ASSOCIATES, PC
202 East Main Street, Suite
By: Albert V. Messina, Esq.,
co-counsel

111a
For the Objectant, R. Fields:
LAW OFFICES OF
RICHARD ALAN CHEN, ESQ.
4160 Main Street
Huntington, New York 11743
By: Richard Alan Chen, Esq.
Proceedings recorded by electronic sound recording.
PROCEEDINGS
(The proceedings began at 10:06:37.)
COURT CLERK: Calling number 7, Sidney Fields.
MR. CHEN: Good morning, your Honor.
COURT OFFICER: Your appearances.
MR. HAAS: Jules Haas for petitioner and movant.
Good morning, Judge.
MR. MESSINA: Good morning.
Albert Messina co-counsel for petitioner and
movant.
MR. CHEN: Richard Alan Chen for objectant,
Richard Fields.
THE COURT: Good morning—
MR. CHEN: Good morning.
THE COURT: —everyone.
I have read all of your papers and I am very
familiar with this file as well as with the arguments that you are making.
Mr. Chen, I have a question.

112a
MR. CHEN: Yes, ma’am.
THE COURT: I know that your client is still pursuing his objection based on lack of due execution
because your papers concentrate on that a lot. My
question is is your client still pursuing the objection based on lack of testamentary capacity?
MR. CHEN: I would like to answer yes, your
Honor; however, I don’t have, at this time after discovery, the evidentiary support for that. so, I have
to say at this time I’m not contesting that (inaudible) matter because I just don’t have it. I’ll assume
the (inaudible) answer to support that. If your
Honor sees fit to pursue it, allows us to pursue it
further, I will—I have a certain amount of evidence
that I can present on that. So, I guess the answer
to that is I’ve answered what I can answer and I
point out that I don’t have the support for that at
this time.
THE COURT: Well, Mr. Chen, you filed a (inaudible) indicating that this copy was complete here.
MR. CHEN: Yes.
THE COURT: I’m assuming, Mr. Haas and Mr.
Messina, that that is your decision as well.
MR. HAAS: That is correct, your Honor.
THE COURT: Now, again, I’m familiar with your
arguments because I have read all of your papers
here and looked at the exhibits, including the transcript of the deposition testimony of the different
witnesses that were called here to testify before
trial and is here anything that you would like to

113a
highlight from your papers or anything that you
would like to add that is not in your papers, Mr.
Chen?
MR. CHEN: Your Honor, I have three pages of
presentation, but I—if you—
THE COURT: Three pages of?
MR. CHEN: I had three pages of my presentation
prepared, but I don’t know if we have that type of
time. So, if you’d like, I’ll—gather information that
I think I should highlight at this moment.
THE COURT: Correct. (Inaudible).
M R . C HEN : Briefly, the situation (inaudible),
obviously the will execution. The three parties that
were involved at the will execution besides the
decedent were Mr. Curtin, who was the attorney
drafter, as well as the two witnesses. All three of
them are not credible and the reason I say that is
because at deposition all three of them, all three of
those parties did not identify the name, race, even
color of the aide who came with the decedent to the
will signing. And that person was, would be critical
to the status, if you will, and the condition of decedent, who actually went to the emergency room at
the hospital the next day and stayed in the hospital
for over a month the day after the will execution.
All three of those parties, including the attorney
draftsman, said that the decedent was in the peak
of health that day; he had no problems. As a matter
of fact, the witnesses even testified that he was
able to see his will and without a problem, actually
as my documents showed in the summary judg-

114a
ment, he was legally blind at the time of the supposed will execution.
If you look at the will it also has X’s supposedly
placed by the attorney draftsman on it where the
decedent was to sign; however, as the witnesses in
deposition testified that the will there were supposed initials on the will by the decedent that were
not corrected by these X’s. So, it’s an interesting
situation where looking at the will you have the
decedent must be shown by X’s, large X’s in magic
marker. By the way, your Honor, the decedent
signed with a magic marker, but then looking at
the will it doesn’t appear that he initials were done
with a magic marker. So, I have to look at that, but
the point is is that there’s a discrepancy there.
Also, that the witnesses, as I said, and the attorney draftsman appear to be in collusion in deciding
not to tell the objectant in testimony exactly the
identity of the caretaker who was there and
brought Sidney to—Sidney the decedent to the will
signing. So, that I do want to highlight. Also, I
know that credibility is an issue here and concerning the will execution as the attorney draftsman,
Mr. Curtin testified that there was no will signing
after the decedent passed away, but his executor,
who is the petitioner, testified she found out first
that she was getting a part of that large sum of
money from the $10 Million estate at the will signing. So, there’s a question as to who’s telling the
truth.
And so, I submit that that initially is the issue
that brings us out of summary judgment, that
there’s a question as to whether or not those wit-

115a
nesses are, and the attorney draftsman, are credible. And it pertains specifically to the will execution, again, the decedent was legally blind. I submitted that on papers, your Honor, and I have—as
a matter of fact, I think two days before, and I submitted that in my papers, two days before the will
execution the descendant specifically told his broker do not come to my apartment to have me look
at documents; I can’t read them. He didn’t mention
anything about, as petitioner’s attorneys have
mentioned, that he was using a magnifying glass
and this and that. He just said simply, I cannot
read the documents. So, there you have it.
Also, I have pointed out that all of the petitioner’s witnesses including attorney draftsman and
two witnesses, did not say that the will was read to
him prior to execution. There’s an elaborate story
about how he contacted the attorney draftsman
and he submitted some document that they submitted in their papers claiming that the decedent himself wrote it on (inaudible) that’s in the papers of
the Summary Judgment Motion and what’s interesting is that even that that’s supposedly was very
schematic and I submit that these are foundational
evidence at a hearing as to exactly how this came
about. It’s claimed the decedent wrote this and it
doesn’t even match what the will provisions are for
the—for those—for the petitioner (inaudible) in
effect who are getting the entire estate except for
nominal amounts for charity. I just note that the
parties that are (inaudible) in the will are not in
any way blood related to the decedent. My client,

116a
obviously is one of two sons of the decedent, biological sons.
Again, I don’t want to take up too much time,
your Honor, it’s in my papers, but I’ll just highlight
what I checked off here. It should also be noted
that the paid witness Susan Leeman had testified
that she had done a number of will signings for the
petitioner’s attorney.
THE COURT: Why do you call her a paid witness?
MR. CHEN: She was paid.
THE COURT: For—for—
MR. CHEN: For witnessing wills and I just find it
unbelievable that three people can say in deposition testimony, yeah, I remember it was a female,
but I don’t remember who that aide was in terms of
her race or her age. And, by the way, the decedent
was 95 or 96 years old when the will was executed.
THE COURT: Now, Mr. Chen, I have the medical
records from Mount Sinai that you actually
attached to your opposition papers.
MR. CHEN: Yes, ma’am.
THE COURT: And there is a neurological examination conducted of the decedent the day after he executed this will.
MR. CHEN: Yes.
THE COURT: And it indicates no gross neurological deficits are present. Also, says speech normal,
no memory loss, not anxious, not depressed, not
stressed. Oriented to person, place and time. So,

117a
that again is the day after, would that actually go
to—would that actually be evidence that, in fact, he
was aware of his circumstances and what he was
doing at the time?
MR. CHEN: I can’t say no to that question, your
Honor, so, I guess, for the moment the answer has
to be yes, that that would show that the day after
he at least had that—those conditions, but as pertaining to whether or not he knew what he was
signing at the time—and there’s a reason why you
go to the emergency room the day after you sign a
will. It wasn’t because he was in peak health.
THE COURT: Wasn’t it related to—to—
MR. CHEN: I can’t hear you, I’m sorry.
THE COURT: Wasn’t it related to an open wound
that he had on his leg?
MR. CHEN: Yes. In my—I mean, again, I wasn’t
there, your Honor, but in my estimation what—
THE COURT: Neither was I.
MR. CHEN: Yes. Yes.
THE COURT: I’m looking at—I’m looking at the
records, you know.
MR. CHEN: But he was admitted for over a month
and I think a week or two after the day after the
will was executed. He obviously went there because
of distress. Obviously, he was in pain, but I can’t
answer your question no. The doctors observed
what they observed, as far as that goes, but they
admitted him and he stayed in the hospital for—

118a
so, in effect, what we have is a will that was executed prior to an emergency admittance to a hospital
and I’m talking about the day before, with questionable testimony. There’s a question as to how
the decedent (inaudible) and this will was executed.
I’d also like to point out, your Honor, we did have
a, and I submitted it in my papers, we did have an
expert witness, which counsel for petitioner
claimed in his responding papers that I had submitted proof he’s never seen before, but the reality
was that our expert witness has been there since
the original Summary Motion to Dismiss by Mr.
Curtin (sic) and that is what—that was on file with
the Court then. So, that’s what I have in terms of
questioning of the will, the initial (inaudible).
Petitioner has mentioned, as far as I can see from
his papers, an expert witness, but I don’t have a
report to that effect. I have a report, but they didn’t
—petitioner’s attorney, Mr. Haas, (inaudible)
stresses that I didn’t tell him about my witness and
the report. That’s not true, because if you look,
your Honor, at our own court records or the first
Motion made to Dismiss by Mr. Curtin, and included
it. That (inaudible).
My expert was ready to testify and his credentials (inaudible) and then I later heard because I
said (inaudible), unfortunately I had to do this sur
reply, which is know is unusual (inaudible), I indicated, I included that on a list of witnesses, expert
and other (inaudible) on the same (inaudible). So,
it’s not a mystery that there’s a question about the
will.

119a
And by the way, your Honor, with the will execution, there are some other irregularities. For the
instance, the witnesses signed they witnessed
(inaudible) date, but date was crossed out and the
attorney who had represented the decedent at the
time, Mr. Curtin, supposedly crossed out the date
of the (inaudible) on the witness affidavit and put
in a different date and then he witnessed it himself
the witnesses supposedly signed the bottom. When
we look at those documents as well as the will,
there’s a (inaudible) change.
So, there’s a question according to the witnesses
and the attorney draftsman everyone knew it was
done (inaudible), everyone knew this is a (inaudible), but yet it says her instead of him in a number
of places in the documents. It doesn’t sound like
(inaudible), but what it indicates to me is that
when you put it all together it there’s some question as to why they’re not telling me who that third
party was there. The only independent party there,
who was not going to be paid to be there or have an
interest to be there, why they won’t name—they
just won’t name that third party. At the end,
(inaudible) to discover, but your Honor I even submitted to you a letter that I wrote the day after,
their (inaudible) what they’re saying and I said it’s
incredible that you won’t tell me who the third
party was, this alleged caretaker or aide who
walked into that will signing stayed there the
whole time and then took him out. They won’t tell
me.
THE COURT: You couldn’t have served a subpoena?

120a
MR. CHEN: I don’t know—I don’t have anyone to
serve it on; that’s the problem. They don’t—all they
said was it was a female.
THE COURT: And they said in response to your
request for information from the proponent that
they did not provide this information to you; that’s
what you’re saying?
MR. CHEN: Not only did they not provide it, your
Honor, I submit it’s incredible that three adults
who live in New York City are going to tell me in
deposition testimony, you know, I don’t see people
like that. Three people, the attorney draftsman and
two witnesses to a will. I don’t see people like that.
I know she was a female. I can’t tell you what age,
I can’t tell you what race. Your Honor, I’m sorry,
but that’s—
THE COURT: Now—
MR. CHEN: —and we’re talking about at the will
execution. I’m not talking about, you know, what
you said about his capacity or anything like that.
THE COURT: The—isn’t it a fact, Mr. Chen, that
the testimony of the witnesses was that in the
room, in the room, where the execution took place
there was no one but the decedent, Mr. Curtin and
the two witnesses; isn’t that the testimony?
MR. CHEN: Yes, that was the testimony, your
Honor, and, again, I’ll restate I wasn’t there, but I
am—all I have to say is the word suspicious and I
think that that third party would be able to tell me
the testator’s condition at the time he executed the

121a
will. I don’t think he was in the peak of health as
these—as the witnesses pretty much were saying
that he walked in on his own with no problem and
might have used a magnifying glass, but he was
okay. That third party was (inaudible).
For instance, there’s a question as to the credibility of the attorney draftsman and I understand
there’s a preface—there’s a presumption that the
will was properly executed when you have attorney
draftsman. Again, the attorney draftsman testified
there was no will reading after the testator passed,
meanwhile, his own client the petitioner says I
found out what I was getting out of the $10 Million,
I think 35 percent, I found out at the will reading
after he died. So, he’s pitched against his own
client in terms of deposition testimony.
I say there’s a question here and I appreciate
maybe it’s my strongest point and I’ll have to
emphasize it, your Honor, I need a hearing. I need
to have these witnesses before a tryer of fact to
show what they’re talking about at the will execution, they are not credible. It’s sample as that.
I have one more point to make, your Honor, and
—
THE COURT: Okay. Can you—
MR. CHEN: Yes, then I’ll wrap it up.
THE COURT: Please. Please do that, because you
know—
MR. CHEN: Yes. I’ll keep my glasses on.
THE COURT: —I have other cases, too.

122a
MR. CHEN: Yes. And I again, I can be sure, if you
don’t mind, I can put in my papers—my notes.
I also want to point out that there was a prior
will, your Honor, I have to say it’s not going to
make or break us in any way, (inaudible), but the
differences between what these parties being these
non-family parties are getting versus what they
were getting under the original prior will of 2006 is
tremendous, is tremendous. None of my client’s—
his brother is not getting anything, he’s not getting
any part in this will. They take great pains, by the
way, your Honor, to say that my client threatened
his father, sent him threatening notes through his
life since he was a teenager.
My client, admittedly, has been diagnosed paranoid schizophrenic, unfortunately, and as far as I’m
concerned, from what I see of his behavior demanding money throughout his life and threatening his
father, whatever he did, is all symptoms of that
and he—we readily admit that, but my point is that
it’s very suspicious that before the decedent, the
day before he’s taken to an emergency room and
was admitted for a month and a week, he supposedly signs a will where these non-blood related parties pretty much get the entire estate of $10 Million
and can this court allow, without testimony, without a trial, without seeing the attorney draftsman
and those witnesses for will execution, in judgement of the credibility which I have already told
you—set the facts as to why their credibility is in
question, can this court allow that to pass on the
summary judgment Motion?

123a
I submit to the Court and based on my (inaudible) my speech this morning, the answer is no. Let
us have a chance to show this Court why they are
not credible, why the will was not properly executed pursuant to the state’s powers and trusts law as
with the (inaudible). Let me—let the objectants
show why these witnesses and the attorney draftsman are not to be believed when they say he signed
that will and the signage was (inaudible) proper,
legally require (inaudible). Thank you.
THE COURT: Thank you, Mr. Chen.
MR. CHEN: Thank you.
THE COURT: Mr. Haas?
MR. HAAS: Yes, good morning, your Honor.
Your Honor, if there was ever a case that called
out for summary judgment on behalf of the deponent, this is it. We have in this matter an objectant
who is the son of the decedent who, by his own
admission, and only ground I’m going to say is
based on his testimony that he did not have contact
with his father for decades. Based on the testimony, his last contact with his father was in 1999.
Prior to that, it was in 1991.
During the course of time before the will, the
objectant was concerned that he would be disinherited. So, what did the objectant do? He sent his
father photographs in which the objectant was
holding bombs and guns and sent his father and his
father’s wife Theresa, his then wife Theresa, whom
he married in 1975, threatened whatever—threatened their lives. As a result of all of that, the father

124a
had his son arrested and prosecuted and filed many
other proceedings in Family Court to have him stop
what he was doing.
So, it certainly didn’t come as a surprise when
the father wrote his will that the father disinherited his son. In fact, the will, as the Court knows
from reading papers, has a provision that says I
didn’t leave anything to my son Richard because he
threatened my life and my wife Theresa’s life. So,
that’s the background of this case, Judge, and, in
fact, in the prior will that counsel referred to had
the same provision. So, the decedent clearly understood what he was doing. He clearly understood
that he did not want his son to have any part of his
estate or be part of his life in any way because he
had no contact with him for many, many years.
The beneficiaries of this will were the members
of Theresa’s family. Theresa was the wife of the
decedent. She—he had married her in 1975, that
was his second family, that was his family that he
loved and came to cherish and that’s who he left his
estate to. The reason that the will was changed was
because shortly before this will was written,
Theresa had passed away. So, instead of leaving
his estate to Theresa which he did in a prior will,
he left it to Theresa’s family. And in fact, in the
prior will Theresa’s family is also mentioned in a
smaller way, but that’s because Thresa was alive
and of course the logical conclusion would be that if
Theresa was alive, she would have inherited the
whole estate and there—and assuming that someday when she died, she would have left it to her
family.

125a
So, the fact that the will left everything to
Theresa’s family, Judge, is just a logical conclusion
of this family dynamic where the son is nothing
more than a person who’s threatening his father
and has no contact with him for years. It’s just not
surprising, Judge. What is surprising, in fact the
most surprising part of this whole case, is that the
son would go ahead and file objections to the will
under those circumstances. That’s the most surprising thing.
Now, Judge, I want to begin by bringing to the
Court’s attention, as the Court probably knows,
yesterday we received in the mail a document from
the objectant. It’s called Affirmation in Further
Opposition, I don’t know if the Court’s aware of
this, but I—
THE COURT: I am not.
M R . H AAS : Okay. And I think that counsel
referred to that and I’m making the Court aware of
it because it’s probably in the Court file and I
would just ask the Court to disregard it. It’s
improper for it to be submitted and I really—I
didn’t respond to it because it’s just outside of the
parameters of what we have here, and I want to
address myself to just a couple of points that objectant’s counsel made.
With respect to the aide, this is—this is what the
objectant’s case is about. Their case is about the
fact that the witnesses couldn’t identify the by
name or address or in some other way an aide who
accompanied the decedent to the will signing. As
the Court recognized, that aide was outside of the

126a
room when the will execution occurred and the witnesses apparently didn’t pay much attention to the
aide and the aide certainly didn’t identify herself
and say this is who I am, my name and my phone
number and my social security number.
So, counsel says that what the witnesses testify,
counsel took their deposition, and they identified
her to a limited extent and said I think she was a
woman. I think she was in her forties. Whatever,
but the fact of the matter is, Judge, that the fact
that they can’t or they could not identify the aide
and the fact that counsel doesn’t believe them doesn’t go to their credibility. In fact, I find it to be
offensive that counsel would stand there with nothing else, not one bit of evidence, not one item of reference to say that the witnesses are, in fact, lying.
In fact, that’s what counsel is saying and that’s
what counsel wants the Court to take under consideration at trial. I think that that’s totally wrong,
Judge, and I would ask the Court to completely
reject that. And, also, judge, as the Court pointed
out counsel had full opportunity to engage in disclosure here. Counsel certainly could have interviewed dozens of other witnesses. In fact, in disclosure that we made to objectant there are hundreds,
probably thousands of pages of document discovery. In that discovery, because I know, I put it
together, there were many, many pages of lists of
aides and bills and medical things that listed aides
who the decedent had used over a course of time.
Certainly counsel could have written letters to
them, counsel could have subpoenaed them, coun-

127a
sel could have called them up. Counsel could have
done a hundred other things.
Counsel couldn’t do that, didn’t do that, and in
fact, Judge, counsel’s discussion with respect to the
aide is purely discovery issue. It has nothing to do
with credibility because there’s no linking of the
identification of that witness with anything whatsoever as far as the witnesses’ credibility or lack
thereof. So, I think it’s a non-issue and it’s really
remarkable that the objectant’s case is built
around the fact that witnesses to a will could not
identify some non-descript aide that accompanied
the decedent to the will signing.
In the face of the testimony of the witnesses, and
the attorney draftsperson, as to the due execution
of the will and to the fact that the will is in perfect
order. It has an attestation clause, its attorney
drafted, and it’s drafted by the same attorney who
did the prior will, and it’s the same clause disinheriting the objectant that the prior will had and all of
the witnesses’ testimony as far as execution was
full and consistent with due execution and testamentary capacity. So, I don’t think that there’s an
issue there whatsoever, Judge.
Now, as far as the issue that counsel, for a time
I’m just going to talk about some of the issues that
objectant’s counsel raised. The X’s on the will, all
right, there are X’s next to the decedent’s signature
that the decedent, from the testimony, asked the
attorney draftsperson to put on the signature line.
Those X’s don’t appear on the pages where the
decedent initialed the will. Well, first of all, there’s
no requirement in the law that a will be initialed

128a
and the fact that there are no X’s to initial the will
on the will pages, there’s no particular line where
you have to sign.
And, in fact, the fact that the decedent wanted to
sign on the right line, all right, to make sure that
his signature was in the right place, I think is an
important factor. And the fact that the decedent
had a limited—this limited eyesight, again, Judge,
is a non-issue. All right? There’s nothing to prevent
a person who has limited eyesight from signing a
will. All of the testimony shows that the will was
gone over completely with the attorney draftsperson, that he completely understood that the decedent is the one who basically guided what to put in
his will and he signed his will under perfect circumstances. There’s no question as to how any of
that occurred. So, I think all of this, again, Judge,
is a non-issue. It’s just a distraction, all right,
because there is no question as question as counsel
admitted about testamentary capacity. There is no
issue about the way this will was executed. In fact,
there is no issue of undue influence. In fact, counsel didn’t even refer to undue influence. There are
no issues about how any of these matters came to
pass.
What we have is a son who had no contact with
his father, who threatened his father, and who the
—whose father left him out of the will for a very
specific purpose that’s—that’s designated in the
will.
As far as, you know, again, these are very side
matters, Judge. Counsel mentioned that one of the
witnesses was paid. Yes, the witness was paid $25

129a
to take a few minutes or an hour or two of her time,
whatever it was. Again, the case law provides that
there’s nothing wrong with this, Judge. In fact,
that’s what occurred. It was a neighbor in the
building and that’s how that came about. So, I don’t
think that that—that in any way colors the testimony of this witness as to the due execution particularly since all the witnesses’ testimony align with
each other. They were all there. They saw the decedent sign it, they saw it being executed. They saw
each other execute it. So, all of the parameters of a
will execution were completely satisfied.
You know, Judge, there was—there was summation of this issue with an expert witness and there
is a copy of an expert witness report attached to the
opposition papers, which we—
THE COURT: I think the witness itself goes to that
opinion letter or letter of opinion or something to
that effect.
MR. HAAS: Yes, this witness, right. The expert,
which we responded to basically. Our response is
that there’s no, in effect, basis for what this witness says to have any value with respect to this
case. There’s no basis for the opinion that was
given. There’s no authenticity of the samples that
the witness refers to and I think when the Court
looks at the totality of that, the witness’ report,
that the Court will discount it and not find that
there’s any issue with respect to the validity of the
will. In fact, that expert witness’ report goes to ini-

130a
tials that appeared on the will. It does not even go
to the signature on it.
Now, that’s important, Judge, for this reason. In
the paper that the objectant’s counsel just submitted, which is outside of the parameters of procedure, which I just referred to, there’s a different
expert report and that’s why I’m asking the Court
to disregard this.
This expert report is a different report. It goes to
different issues and it hasn’t been submitted in
connection with the opposition papers that were
provided by objectant. So, that’s why it’s important
that this paper not be regarded in any manner by
the Court. It wasn’t part of the opposition. I can’t
control what objectant puts in in opposition. I can
only respond to it, but the objectant does not have
a right after all that is done to submit a different
witness’ report the day before we have argument
and ask the Court to give that any—any kind of
notice whatsoever.
So, I would ask the Court again to totally disregard what was submitted.
MR. MESSINA: All right, if I may, your Honor, on
that one point. The date of the report that was submitted in opposition to the Summary Judgement
Motion was October 13th, 2017. The submission
that Mr. Chen just filed with the Court yesterday is
dated April of 2016. The October 2017 report was
never disclosed to us in the course of discovery even
after—I’m sorry, until after the Motion for
Summary Judgment was submitted.

131a
So, the first time that Petitioner’s counsel saw
the October 2017 report was in opposition to the
Motion for Summary Judgment.
The April 2016 report was disclosed during discovery; however, counsel did not submit the April
2016 report in opposition to the Motion for
Summary Judgment. He decided for some reason
now to submit it one day before oral argument. So,
based on that, we have not had an opportunity to
respond to the April 2016 report. We ask that your
Honor reject the submission.
THE COURT: Well, most definitely that is not part
of the—it’s not part of the record in the Motion for
Summary Judgment.
So, did you want—
MR. HAAS: Very good, Judge.
MR. CHEN: May I just make one point on that,
your Honor?
THE COURT: I’m sorry. Mr. Messina, were you
done?
MR. MESSINA: I just have one other point to
address on counsel’s points. He referred to the deposition, sorry, the statement of the broker named
Jeffrey Kern. That statement was not admittance
to form. It’s not a testimonial statement. It was not
sworn to. Mr. Kern has not authenticated the statement. It was not submitted along with a business
record certificate, and, without it, we submit that
statement is inadmissible. Even if the Court were
to rely on it, if you read the statement Sidney
Fields actually states that he can read with a mag-

132a
nifying glass. So, to the extent the Court wishes to
rely on that, we ask the Court to also consider that
fact.
In addition to the fact that the statement may
say legally blind, which is a far cry from being
actually blind. An actually blind person may still
execute a will. Counsel indicated or alluded to—
sorry, excuse me—alleged that Attorney Curtin did
not read the will to the decedent. Testimony is the
exact opposite of that fact. Mr. Curtin testified
extensively that he sat side-by-side of the decedent,
reviewed provisions of the will, including the provisions the decedent himself drafted and some boilerplate provisions. The parts that he couldn’t read,
Curtin read with him, and he’d seen him also use
his magnifying glass with respect to the dispositive
provisions of the will. Mr. Curtin testified the decedent knew everything that was in that will.
MR. HAAS: Just one more point and then I’ll allow
counsel to respond. With respect to the decedent’s
eyesight, Judge, his—there’s nothing in the record
where the objectant provides any indication as to
any specific demission of the decedent’s eyesight.
There’s nothing to—nothing provided as to the fact
that he couldn’t read or he couldn’t see and the
extent to which he could or couldn’t see. So, basically what we have here is supposition and conclusions and nothing whatsoever based on the factual
presentation to support—
THE COURT: But the client does not dispute that
the decedent did not have perfect vision.

133a
MR. HAAS: We do not dispute that, Judge, but
that doesn’t mean that he couldn’t fully and completely read and compare and execute his will. And
the objectant hasn’t presented anything in any
viable form to show otherwise.
MR. MESSINA: One final point, your Honor? If I
may—
THE COURT: No. Mr. Chen?
MR. CHEN: Yes. Your Honor, as far as my trying
to pull a fast one on them in terms of submitting a
report that they’d never seen; I’m not understanding that argument. I simply went back to my
records as to the report that I have that—and I say
to the Court I’ll make it very easy. The one that I
submitted previously on the previous initial Motion
by Mr. Curtin to dismiss our case, that’s the one
that I was referring to because Mr. Haas doesn’t
mention that he makes a great deal in his responsive papers about how he’s never heard of my witness, never saw a report.
Meanwhile, on the Court’s record, what your
Honor considered on the first decision is Mr.
Baggett’s (sic) report. I—I would even have to go, at
this moment, to see if what they’re talking about is
correct and I understand that the Court will very
well disregard it; however, it’s not the same report.
That’s the report I’m deferring to, one that’s in the
court records already. However, I will say this, as
far as that report, it’s very important for them to
have this court disregard any expert testimony
because once again it goes to the surrounding situ-

134a
ation concerning will execution and I will tell you
that’s where my case rests.
It doesn’t rest on an aide that they refuse to identify. That’s part of it, because as the case law says,
these types of cases are not really right for summary
judgment because credibility is involved. And, by
the way, your Honor, you recently made a decision
on a case and I looked at the listings of the documents that were submitted on that case concerning
somewhat similar circumstances, very old party
who died and certain family members were objecting to the will.
And just looking at the list of documents there,
not only was a sur reply considered by the Court,
but even a memorandum of law concerning the sur
reply, and I wasn’t looking to submit any sur reply.
But what I’m responding to to Mr. Haas when he
says I never heard of any expert, I never saw an
expert report, whereas in the court record on that
very first Motion I submitted that report. So, if the
Court sees fit to disregard out of time report, whatever the case may be, I understand that, but it’s not
fair to say that petitioner’s counsel was not aware
of my witness that I have an expert witness and it
does concern the initials, your Honor.
It does concern the initials because there’s a
question whether or not—the will was not read out
loud and there is a question about will execution
and there is a question whether or not the decedent
knew what he was signing. And those witnesses as
I said, your Honor, I don’t want to, you know, to
keep beating a dead horse. This is that unusual
case, your Honor. This is that case where the pre-

135a
sumption doesn’t work because of the way the
attorney draftsman and the two witnesses testified
about the will execution and didn’t testify about
things that might lead us to find out exactly the
condition of the decedent at the will signing.
If the proper procedures were followed, they can
all testify, I wasn’t there my client wasn’t there.
He’s right in that respect, your Honor, they all did
testify, everything was fine. As a matter of fact,
they testified, if you go back to the testimony of the
witnesses, you’ll find Jill Curtin, by the way is the
wife of the attorney draftsman, she’s one of the witnesses. The other one is the paid witness. The
attorney draftsman, oh, he was great. He walked in
no problem he could see. One witness, Jill Curtin,
said yeah, I don’t really remember if he used a
magnifying glass or not.
THE COURT: Mr. Chen, I think you made that
point.
MR. CHEN: I made that point.
THE COURT: I (inaudible) on the papers.
MR. CHEN: Thank you. Thank you, your Honor.
THE COURT: It seems to me that one of your
clients wants to talk to you. So, do you want to take
a moment to talk to them?
MR. CHEN: I will say this, your Honor, I don’t
know (inaudible) I see you have a full room.
THE COURT: Correct.

136a
MR. CHEN: If I—I know what’s going to happen
so, I’m just going to say ahead of time, if you allow
me to talk to one of my clients, will you allow me to
say one more sentence or two after I come back
because if you don’t I’m just going to (inaudible).
THE COURT: I’ll give you one second to do that.
MR. CHEN: Thank you.
THE COURT: You can come back in and what is not
going to be, I’m not going to be—give you a lot of
time to do that.
MR. CHEN: I’m not looking for that, your Honor.
Thank you.
THE COURT: Okay.
MR. CHEN: Thank you.
(PAUSE 10:51:13 TO 10:52:53.)
THE COURT: Mr. Chen, anything that you would
like to add after speaking with your clients?
MR. CHEN: Yes. Just two other points, your
Honor. The documents of Mr. Kern the broke where
the decedent stated that he was not able to read
documents two days before the will signing were
provided in discovery. They were—I obtained them
by subpoena that’s all on that and they’re submitted in opposition.
I did have a conversation with one of my client’s
relatives and they are asking me to stress to the
Court that the question of whether or not the decedent knew what he was signing is an issue before
the Court that the will was not read out loud. From

137a
our standpoint and our documentation and our
arguments, he did not know what he was signing
and that is because the will was not read out loud.
Even petitioner’s own statements and it’s in the
record that she—that the draftsman attorney
claimed was made by the decedent as to distribution under this particular will being proffered,
don’t match the actual will conditions and so,
again, there’s a question of credibility and that
credibility affects whether or not the decedent
knew the terms of what he was signing, what he
actually signed, and what condition—I have to say
I don’t have the argument of testamentary capacity
because your Honor is using documents of that
were produced in discovery concerning, and by the
way they’re on the same level as the Jeffrey Kern
document, because those are not sworn either.
Where he went to the hospital the next day and the
doctor made observations, but if you go further into
the documentation, you’ll see that there is some
discrepancy even as to even what that doctor initially, at the emergency room, initially wrote down.
In any event, that was why the client asked me to
step outside because she wanted me to stress that
he did not know what he was signing and on a more
far reaching theory, that in reality what he—what
he allegedly signed, the will that’s being proffered,
is not and did not contain the terms that he wanted.
THE COURT: Okay. I am going to determine this
Motion today, but only to extent of indicating that
I conclude from all the proof submitted by proponents in support of this Motion for Summary

138a
Determination that proponent made a prima facie
showing of entitlement to judgment as a matter of
law concerning the capacity of the decedent
towards the instrument, the execution of the
instrument by the decedent in compliance with
statutory requirements and that the instrument
was an actual will and not the product of undue
influence, fraud or duress.
And, in opposition, objectant has failed to demonstrate through admissible evidence the existence of
a material question of fact required in a trial as to
any of the objections. So, proponent’s Motion for
Summary Determination in the probate proceeding
is going to be granted and the objections to probate
are dismissed.
I will issue a decision explaining my reasoning
and that decision will be mailed to both sides.
Thank you.
MR. HAAS: Thank you very much, Judge.
MR. CHEN: Thank you, your Honor. We (inaudible). Thank you.
(THE PROCEEDINGS ENDED AT 10:57:00.)
END OF PROVIDED RECORDING
* * *

139a
I, Denise Gasowski, certify that the foregoing
transcript of Proceedings in the Surrogate’s Court
of the State of New York, New York County, Sidney
H. Fields, bench decision, File No. 2016-111, was
prepared using the required electronic transcription equipment and is a true and accurate record of
the Proceedings.
Signature

____________________________
Denise Gasowski, REF #5439

Agency Name:

Pugliese Court Reporting and
Transcription Service

Address of Agency: 4 Saddlebrook Lane
Manorville, New York 11949
Phone Number:

(631) 878-8355

Date:

April 8, 2018

140a

EXHIBIT 5

141a
SURROGATE’S COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
File No.: 2016-111
Dated: March 26, 2018
In the Matter of the Probate Proceeding, Will of
SYDNEY H. FIELDS,
Deceased.
DECISION and ORDER
MELLA, S.:
Papers Considered
Numbered
Notice of Motion, dated November 28,
2017, for Summary Judgment,
With Affirmation, dated
November 28, 2017, of Jules
Martin Haas, Esq., in Support,
Providing Exhibits A through Z
and AA through FF, of which
Exhibit C-3 is the Affidavit,
dated November 28, 2017, of
Diana Palmeri, Exhibit C-5 is the
Affirmation, dated November 27,
2017, of Edward R. Curtin, Esq.,
Exhibit AA is the Affidavit,
dated September 30, 2016, of
William McAllister, Exhibit BB
is the Affidavit, dated June 12,

142a
2017, of Arthur Fishelman, Exhibit
CC is the Affidavit, dated
September 14, 2016, of Adrienne
Lawler, Exhibit DD is the Affidavit,
dated September 14, 2016, of
Stuart Michael, Exhibit EE is the
Affidavit, dated September 14,
2016, of Irving Rothbart, and
Exhibit FF is the Affidavit, dated
July 12, 2017, of Gloria Madero
1-10
Memorandum of Law, In Support of
Motion
11
Affirmation, dated January 22, 2018,
of Richard Chen, Esq., In
Opposition, Attaching Exhibits A
through P, of which Exhibit A is
the Affidavit, Dated January 22,
2018, of Objectant
12-13
Reply Affirmation, dated February 23,
2018, of Jules Martin Hass, Esq.,
Attaching Reply Exhibits A
through T
14
At the call of the calendar on March 20, 2018, the
court granted proponent’s motion for summary
determination, dismissed the objections, and
directed probate of the October 6, 2014 instrument
offered as the will of decedent Sydney Fields.
Objectant is the child of decedent, and he admits
that he did not have a relationship with decedent
and that he never saw his father for the last 19
years of his life. Moreover, objectant admits that,
over the years, he sent his father correspondence

143a
and photographs that were harassing or threatening.1
Decedent explicitly disinherited objectant in the
instrument offered for probate,2 which, instead,
benefits members of the family of decedent’s
spouse, who was not objectant’s mother. Decedent’s
spouse died before him in September of 2014,
which lead decedent to seek to revise his penultimate will—from 2006—that had benefited her, but
which also had disinherited objectant in terms
identical to those used in the 2014 instrument. The
attorney-drafter of decedent’s two prior wills was
also the drafter of the 2014 instrument here offered
for probate, and he confirms that, despite decedent
having been in his 90s, his mental faculties were
intact and that it was decedent alone in a meeting
who informed the attorney-drafter of who he wanted to benefit with his estate and in what percentages.
On the merits, the attestation clause in the
instrument, the contemporaneous affidavit of the
1

Objectant stated in opposition to this motion: “I wrote
and sent harassing letters and photos to my father, and also
to my half-brother . . . [who did not appear in this proceeding], and Orders of Protection were issued against me and
criminal charges were filed against me. I am not proud I did
that” (Objectant’s Affidavit in Opposition, dated January 22,
2018, ¶ 11).
2
Article FIFTH(b) of the instrument states: “Because my
son [objectant] hired a lawyer to sue me for money and
because I had to have him arrested and brought to court for
harassment of me and my wife, Teresa[,] I deliberately make
no provision for him in this Will and it is my intention that
he receive no part of my estate.”

144a
attesting witnesses, as well as the sworn testimony
of these witnesses and the attorney-drafter, established a prima facie case for probate (Matter of
Schlaeger, 74 AD3d 405 [1st Dept 2010]). In
response, objectant failed to demonstrate, through
admissible evidence, the existence of a material
question of fact requiring a trial on any of the
objections on which he claims probate should be
denied (Zuckerman v City of New York, 49 NY2d
557 [1980]). He objected that decedent lacked testamentary capacity, that the will was the product
of undue influence, duress, mistake or fraud, and
that it was not duly executed.
As to mental capacity, all the medical records,
the affidavit of the attesting witnesses and their
testimony from the SCPA 1404 examinations, as
well as the affidavits of several neighbors and
friends confirm the lucidity and mental acuity of
decedent both before and after the will execution,
despite his advanced age and his having some visual impairment. No evidence submitted by objectant
raises a question of whether decedent could hold in
his mind the nature and extent of his assets, the
identity of the natural objects of his bounty, and
the consequences of executing the will, which is the
traditional test for determining testamentary
capacity (Matter of Kumstar, 66 NY2d 691 [1985];
Matter of Khazaneh, 15 Misc 3d 515 [Sur Ct, NY
County 2006]).
Regarding undue influence, proponent’s proof
established that this was a natural will, benefiting
members of the family of decedent’s spouse, with
whom decedent was close and whom he considered

145a
his family. In opposition, objectant had to show,
through evidence in admissible form, that the persons alleged to have unduly influenced decedent to
make this will had the motive and opportunity to
do so, together with some evidence, circumstantial
or otherwise, indicating that undue influence
was actually exercised on decedent (Matter of
Greenwald, 47 AD3d 1036 [3d Dept 2008]).
Objectant, however, provided no evidence that the
will’s beneficiaries had the opportunity to exercise
undue influence or that they did so in light of the
testimony of the attorney-drafter, which established that the beneficiaries had no direct involvement in the preparation or execution of the will (see
Matter of Camac, 300 AD2d 11 [1st Dept 2002]).
Objectant offered no evidence of duress—
a wrongful threat precluding the exercise of free
will—allegedly inflicted on decedent (Matter of
Guttenplan, 222 AD2d 255 [1st Dept 1995]), nor
any evidence of mistake (Matter of Seelig, 302
AD2d 721 [3d Dept 2003]). Objectant also failed to
provide evidence of a misrepresentation made to
decedent for the purposes of inducing him to make
a will that he would not otherwise have made, as
would be necessary to create a question of fact as to
a fraud claim (Matter of Schwartz, 154 AD3d 540
[1st Dept 2017]; Matter of Capuano, 93 AD3d 666
[2d Dept 2012]).3 These objections were thus dismissed.
3

Objectant’s opposition papers state that he has not had
an opportunity to depose the concierge at decedent’s building,
who provided an affidavit in support of the motion. However,
after submitting his opposition to the motion, objectant filed

146a
Finally, as to the will’s execution, the claimed
failure of the attesting witnesses to remember all
its details are insufficient to rebut the presumption
of regularity in the execution of a will (Matter of
Collins, 60 NY2d 466 [1983]). When read in its
entirety, the deposition testimony of the two attesting witnesses supports the conclusion that the signature on the instrument is decedent’s and that
decedent executed the instrument with full awareness of what he was doing and in compliance
with all statutory requirements (EPTL 3-2.1).
Additionally, when the execution was supervised
by an attorney and when there is a contemporaneous affidavit of the attesting witnesses reciting
the facts of due execution, as is the case here, a
presumption of proper execution arises (Matter of
Natale, 158 AD3d 579 [1st Dept 2018]).4 Here, the
facts that the attesting witnesses could not confirm
whether decedent had his magnifying glass that
day (the attorney-drafter and one of the witnesses
testified that he did) and could not provide a
description of the aide who accompanied decedent
to the will execution, but who appears to have
stayed in a separate waiting area, were insufficient
a note of issue and certificate of readiness with the court stating that all discovery has concluded.
4
The fact that the attorney supervising the will execution corrected the date by hand in the text of this affidavit
does not alter this analysis. Even if, for the sake of argument,
it did, due execution of the will was confirmed by the testimony of the attesting witnesses and the attorney-drafter at their
SCPA 1404 examinations, transcripts of which were provided
in support of the motion.

147a
to rebut the presumption under the circumstances
presented (see id.).
The fact that decedent had some visual impairment, even to the point of “legal” blindness as
objectant argues, does not change this conclusion
because blind persons may make wills (Matter of
McCabe, 75 Misc 35, 36 [Sur Ct, NY County 1911]).
Here, the attorney-drafter testified that the dispositive terms of the proposed instrument were provided to him by decedent himself and that he confirmed those dispositive provisions of the will orally to decedent shortly before execution. Moreover,
the fact that the attorney-drafter had to mark the
signature line at the end of the instrument with
“X’s,” as requested by decedent, but the attorneydrafter did not mark “X’s” where decedent’s initials
on the preceding pages of the will should be, is not
suspicious (see id). The last page of the will has
both the signature line for the testator and signature lines for the attesting witnesses. Accordingly,
the only inference that can reasonably be drawn
from the fact that the attorney-drafter marked the
testator’s signature line with “X’s” is that the testator wanted to be sure to execute the document correctly in spite of his visual impairment.
The remaining evidence on which objectant relies
to support his claim that the will was not duly executed is the sworn-to “Letter of Opinion” of a
claimed handwriting expert,5 which merely con5

Movant contests the expertise of the person making the
report, pointing to the fact that Federal courts have rejected
him as an expert in handwriting. Movant cites the following

148a
cludes that “a different person authored the initials
of SHF” on the first page of the will6 offered for probate from the person who signed the will. This letter does not conclude that decedent’s signature at
the end of the will is a forgery, or even that it might
be (see Matter of Dane, 32 AD3d 1233 [4th Dept
2006]).
Even if the court were to consider this letter an
affidavit of an expert, there is no requirement that
a testator initial the pages of a will for it to be valid
(see EPTL 3-2.1[a][1]). Instead, all that is required
in this regard is that it have been signed “at the
end thereof’ (id.). The opinion letter is not
addressed to the real issue—whether it is decedent’s signature at the end of the will—a fact that
objectant does not contest with competent evidence
(Matter of Herman, 289 AD2d 239, 239-240 [2d
Dept 2001] [objectant’s burden is to provide particulars in order to create issue of fact on a claim of
forgery]; Matter of Taylor, 32 Misc 3d 1277(A),
2011 NY Slip Op 51440(U), at *4 [Sur Ct, Bronx
cases in this regard: Balimunkwe v Bank of Am., NA., 2017
US App. Lexis 19875 (6th Cir., Jan. 17, 2017); U.S. v Revels,
2012 US Dist. Lexis 65069, at *22 (ED Tenn, May 9, 2012);
and Dracz v Am. Gen. Life Ins. Co., 426 F Supp 2d 1373, 1378379 (MD Ga 2006).
6

The will is three pages long, and only a copy of the first
page of the proffered will is attached to the opinion letter
reporting that the initials on it are not from the person who
signed the instrument at the end. No opinion is offered as to
initials on its second page, and the court considers this opinion letter as addressing only the initials on the first page of
the proffered will.

149a
County 2011], citing Matter of Di Scala, 131 Misc
2d 532, 534 [Sur Ct, Westchester County 1986]; see
also Celaj v Cornell, 144 AD3d 590 [1st Dept 2016]
[expert report on collateral issue does not require
denial of summary judgment]). Thus, this letter is
insufficient in this instance to resist summary dismissal of the objection that the will was not duly
executed (see Matter of James, 17 AD3d 366 [2d
Dept 2005]; see also Kopeloff v Arctic Cat, Inc., 84
AD3d 890, 891 [2d Dept 2011]; Murphy v Conner,
84 NY2d 969, 972 [1994]). Finally, objectant’s surmise that, “it is possible the first two pages of the
Will were exchanged for other unknown pages”
after the will was executed is mere speculation,
insufficient to create an issue of fact requiring a
trial (see Matter of Weltz, 16 AD3d 428 [2d Dept
2005]).
In examining all the evidence, the court determined that the October 6, 2014 instrument is valid
and genuine and should be admitted to probate
(Collins, 60 NY2d at 473; see SCPA 1408).
Accordingly, the court granted proponent’s motion
for summary judgment, and the objections to probate were dismissed.
This decision, together with the transcript of the
March 20, 2018 proceedings, constitutes the order
of the court.
Settle probate decree.
Dated: March 26, 2018

/s/

[ILLEGIBLE]
SURROGATE

150a

EXHIBIT 6

151a
SURROGATE’S COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
File No.: 2016-111
Probate Proceeding,
Will of
Sydney H. Fields,
Deceased.
NOTICE OF SETTLEMENT
Please Take Notice, that the within Decree of
Probate, the annexed of which is a true copy, will
be submitted for settlement and signature to the
Honorable Rita Mella, Surrogate of the New York
County Surrogate’s Court, located at 31 Chambers
Street, New York, New York, on the 21st day of
April, 2017 at 9:30 a.m.
Dated: Huntington, New York
April 10, 2018
/s/

[ILLEGIBLE]
Novick & Associates, P.C.
By: Albert V. Messina Jr., Esq.
Trial Counsel for Petitioner, Diana Palmeri
202 East Main Street, Suite 208
Huntington, New York 11743
(631) 547-0300

152a
TO:
Richard Alan Chen, Esq.
Attorney for Objectant, Richard Fields
41-60 Main Street, Suite 203
Flushing, New York 11355
(718) 886-8181
Attorney General of the State of New York
Lisa Barbieri, Esq.
Assistant Attorney General
Charities Bureau
120 Broadway
New York, New York 10271
(212) 416-8396
Edward Curtin, Esq.
Counsel for Petitioner, Diana Palmeri
220 West 71st Street, Suite 31
New York, New York 10023
(212) 686-6744
Jules Martin Haas, Esq.
Co- Counsel for Petitioner, Diana Palmeri
845 Third Avenue, Suite 1400
New York, New York 10022
(212) 355-2575

153a
SURROGATE’S COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
File No.: 2016-111
Probate Proceeding, Will of
SYDNEY H. FIELDS,
Deceased.
AFFIDAVIT OF SERVICE
STATE OF NEW YORK

)
ss:

COUNTY OF SUFFOLK

)

Kelly Garone, being duly sworn deposes and
says: deponent is not a party to the action, is over
the age of 18 years of age, and is employed at
Novick & Associates, P.C., 202 East Main Street,
Suite 208, Huntington, New York 11743.
On April 10, 2018, deponent served a Notice of
Settlement of Decree of Probate upon:
Richard Alan Chen, Esq.
Attorney for Objectant, Richard Fields
41-60 Main Street, Suite 203
Flushing, New York 11355
(718) 866-8181
Tracking#: 771956898364

154a
Jules Martin Haas, Esq.
Co-Counsel for Petitioner, Dianna Palmeri
845 Third Avenue, Suite 1400
New York, New York 10022
(212) 355-2575
Tracking#: 771957063386
Edward Curtin, Esq.
Co-Counsel for Petitioner, Dianna Palmeri
220 West 71st Street, Suite 31
New York, New York 10023
(212) 686-6744
Tracking#: 771956959999
Attorney General of the State of New York
Lisa Barbieri, Esq.
Assistant Attorney General
Charities Bureau
120 Broadway
New York, New York 10271
(212) 416-8396
Tracking#: 771957394887
by overnight courier by depositing a true copy
thereof in a postpaid, wrapper in an official depository under the exclusive care and custody of
Federal Express within the County of Suffolk and
State of New York.
/s/
KELLY GARONE
Kelly Garone

155a
Sworn to before me this
10th day of April, 2018
ALBERT V. MESSINA, JR.
Notary Public
ALBERT V. MESSINA, JR.
Notary Public, State of New York
No. 02ME6178564
Qualified in Suffolk County
Commission Expires Deember 03, 2019

156a

EXHIBIT 7

157a
SUPREME COURT OF THE
STATE OF NEW YORK
APPELLATE DIVISION; FIRST DEPARTMENT
INDEX NO. 2016-111
RICHARD FIELDS (PLAINTIFF)
AGAINST

DIANA PALMERI (RESPONDENT)
NOTICE OF MOTION FOR
REOPENING THE CASE
STATE OF NEW YORK

)
ss:

COUNTY OF

)

RICHARD FIELDS, BEING DULY SWORN, DEPOSES
SAYS:

AND

1.

I am the appellant in this action and make this
affidavit in support of my motion for permission to proceed as a poor person.

2.

I reside at 2830 Pitkin Avenue Brooklyn, NY
11208, a psychiatric facility funded by the government.

3.

This action was brought by the plaintiff
against the respondent for the reasons stated
below:

158a
Respondent Diana Palmeri is the niece of
Sydney Fields’ third wife, she predeceased him.
Diana probated Sydney’s Will in 2016 which
took away all his 9.9 million dollars (in the
previous Wills the Palmeri family had less
than $100,000). Five days before the Will
was signed Sydney Fields had a statement
recorded by Vanguard’s telephone system saying that “I can’t read, I can’t read them, no, I
can’t read”. “I mean, with my magnifying
glass I can read large print, but I can’t read
anything that’s on paper.” A doctor proved two
month later that Sydney’s two eyes were actually blind and not just legally blind. However,
the respondent, three attorneys, and one of
their wives committed perjury by insisting
that Sydney read the Will with a magnifying
glass. The executor did not read the Will
out loud in front of the witnesses which
is what he is supposed to do for blind people.
Yet the execution was considered duly by
the court below because of the perjury
that they made. (Exhibit A)
The initial on the page indicated the distribution was considered a forgery by a
handwriting expert. Substituting that page can
change the whole Will. They had no witnesses
who could prove the probated Will was the Will
that Sydney signed. They did not have a duly
executed Will process, did not have qualified
witnesses, and did not have valid supporting
documents. The note they provided had only

159a
names and numbers and did not mention anything about the Will. She needed the Will
drafter Curtin to testify that the note was written by Sydney and the numbers were the percentages of all his assets. The only note they
provided did not look like it was written by a
blind man who is 96 years old. The signature in
that will shows that Sydney could hardly handle his pen. However, that note was written on
the same line by a strong stroke and in an
identical way. (Exhibit B)
Curtin also testified that is the reason
Sydney considered the Palmeri family like his
family members and he did not have any documents to prove that. They cannot explain why
Sydney gave five of those nieces $9.9 million,
double what he gave his wife in the previous
Will. (Exhibit E).
Curtin’s credibility is questionable. He did
not mention anything about Sydney’s vision
problem in his April, 2016 affirmation. (Exhibit E). They attacked me for harassing my
father without mentioning my mental problem.
(Exhibit F). They said they deserved the money
because the Fields family did not contact each
other for twenty years. That is because there
were three mental patients in my family who
messed up the relationship. My father actually
loved our family very much (Exhibit D). Diana
Palmeri took advantage of the sad situation. I
hope the court reconsiders the case and gives
me a fair trial. I am living on SSI at this time

160a
due to a mental disability Wherefore, I respectfully ask that an order of this Court be granted
permitting me to appeal as a poor person.
x
Sworn to before me this
Of

, 20

/s/ RICHARD FIELDS
day

x

161a
To Whom It May Concern:
Please review the above motion and reopen the
Case #2016-111 which was filed in the Appellate
Division First Department of the Supreme Court of
the State of
New York in April, 2018.
Thank You.
Yours Truly,
/s/ RICHARD FIELDS
Richard Fields
Subscribed and sworn to before me this
20th day of October, 2008
/s/ VIVIAN CHING YING CHEUNG
Vivian Ching Ying Cheung, Notary Public
Queens County, New York
VIVIAN CHING YING CHEUNG
Notary Public, State of New York
Reg. No. 01CH6131099
Qualified In Queens County
Commission Expires July 25, 2021

162a
Exhibit A
PAGE 3: SYDNEY said he could not read even
with a magnifying glass.
PAGE 6: A doctor’s note confirms that Sydney was
blind two months after the date the Will was
signed.
PAGE 7: Diana’s perjury
PAGE 8: Curtin’s perjury
PAGE 9: No Will was read aloud in front of witnesses.

163a

EXHIBIT 8

164a
Appellate Division of the New York State
Supreme Court
In Manhattan
New York County
Index No. 2016-111
In the Matter of
The Last Will and Testament of
SYDNEY H. FIELDS,
Deceased.
CIVIL APPEAL
Please take notice that the Notice of Appeal related
to this case is being sent to the Appellate Division
of the New York State Supreme Court in Manhattan.
Please get your answering papers and any crossmotion with supporting papers ready for your
response regarding this case.
Attn:
Novick and Associates PC
Attorneys at Law
202 East Main Street
Huntington, New York 11743
Appellant Richard Fields Pro Se
/s/ RICHARD FIELDS

May 9, 2018

165a
Appellate Division of the New York State
Supreme Court
In Manhattan
New York County
Index No. 2016-111
In the Matter of
The Last Will and Testament of
SYDNEY H. FIELDS,
Deceased.
CIVIL APPEAL
Appeal From:
Surrogate Court, New York County Judge: Rita Mella
Date Notice of Appeal Filed: April 24, 2018
Name of Appellant:
Richard J Fields Pro Se
2830 Pitkin Avenue
Brooklyn, NY 11208
Appeal prepared by
Pia Fields
3011 Parsons Blvd Apt 6N
Flushing New York 11354
Email: piachan016@yahoo.com
Telephone 929-233-2239

166a
Petitioners-Respondent Palmeri Family
Diana, Olga, Victor, Cynthia Palmeri &
Ana Garzon Yepez are represented by
Attorney 1
Novick & Associates PC
Attorneys at Law
202 East Main Street
Huntington, New York 11743
Attorney 2
Jules Martin Haas, Esq.
845 Third Ave, Suite 1400
New York NY 10022
Attorney-Drafter
Edward R. Curtin
220 West 71 Street
New York NY 10023

167a
State of: New York
County of: Nassau
The forgoing document was acknowledged
before me 9 day of May, 2018
/s/ KAM WAH HUNG
Kam Wah Hung, Notary Public
My Commission Expires April 17, 2021
KAM WAH HUNG
Notary Public, State of New York
Reg. No. 01HU6357312
Qualified in Nassau County
Commission Expires 04/17/2021
Fields, Richard
x /s/ RICHARD FIELDS

168a

EXHIBIT 9

169a
NOTE OF ISSUE
APPELLATE DIVISION-FIRST DEPARTMENT
(Pursuant to Rule 600.11)
SUPREME COURT OF THE
STATE OF NEW YORK
APPELLATE DIVISION-FIRST DEPARTMENT
New York County
Index No. 2016-111
RICHARD J FIELDS
PLAINTIFF/PETITIONER
v.
Diana Palmieri
DEFENDANT/RESPONDENT
NOTE OF ISSUE
1.

The date the Notice of Appeal was served.
24th, April 2018

2.

The date the Record on Appeal was filed.
24th, April 2018

3.

The nature of the appeal or cause.
Estate Case

4.

The Court and County in which the action
was commenced.
New York County Surrogate’s Court

5.

The index (or indictment) number.
2016-111

170a
6.

The date Judgment or Order was entered,
name of the Justice who made the decision.
26th March 2018 by Judge, Rita Mella

7.

The term for which noticed.
Oct/2018

8.

The names, addresses and telephone numbers
of the attorneys for all the parties.
1.

Novick & Associates PC
202 East Main St. by Albert V Messina
Huntington New York 11743

2.

Jules Martin Haas, Esq
845 Third Ave, Suite 1400
New York, N.Y. 10022

Original and one copy to be filed
with proof of service.

171a
File No: 2016-111
In the Matter of the Last Will and Testament of
SYDNEY H. FIELDS
Deceased.
TO: Novick & Associates, PC
Attention Albert V. Messina JR
202 East Main Street
Huntington, New York 11743
Mr. Messina or people who may concern:
This package includes Brief and Appendix relate
to Richard Fields’ appeal (case# 2016-111). filed in
APPELLATE DIVISION–FIRST DEPARTMENT. We notice
that a mail sent to you in the above address was
returned for the reason of unable to forward. If
Mr. Albert V. Messina is not long work in Novick &
Associates, PC as the counsel of Diana Palmeri
please notify New York Supreme Court Appellate
Division–First Department. Thank you for your
attention.
Date New York, New York
5th, July, 2018
/s/ RICHARD J FIELDS
Richard J Fields
2830 Pitkin Avenue
Brooklyn, New York 11208

172a
Surrogate’s Court, New York county
Index No: 2016-111
NEW YORK SUPREME COURT
Appellate Division-First Department
In The Matter of
The Last Will and Testament of
SYDNEY H. FIELDS,
Deceased
BRIEF FOR OBJECTANT-APPELLANT
Richard J. Fields Pro Se
Objectant-Appellant
Against
Palmeri Family
Petitioners-Respondents
2830 Pitkin Avenue
Brooklyn, NY 11208
Appeal prepared
by Pia Fields
3011 Parsons Blvd Apt 6N
Flushing New York 11354
Email: piachan1016@yahoo.com
Telephone 929-233-2239

173a

EXHIBIT 10

174a
[LETTERHEAD

OF

NOVICK & ASSOCIATES, P.C.]
July 31, 2018

Via Federal Express
Surrogate’s Court, New York County
31 Chambers Street
New York, New York 10007
Attn: Probate Department
Re:

Estate of Sydney H. Fields
File No.: 2016-111

Dear Sir/Madam:
Enclosed please find the following documents in
connection with the above referenced matter:
1. Notice of Entry of Probate Decree; and
2. Original Affidavit of Service.
Kindly acknowledge receipt of the same by
stamping the enclosed copy of this letter and
returning it to me in the envelope provided.
If you have any questions, please do not hesitate
to contact me. Thank you for your time and attention to this matter.
Very truly yours,
/s/ KELLY GARONE
Kelly Garone
Paralegal

175a
Encls.
cc: Richard Alan Chen, Esq.
Edward Curtin, Esq.
Jules Martin Haas, Esq.
Lisa Barbieri, Esq.
Dianna Palmeri

176a
SURROGATE’S COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
File No.: 2016-111
Probate Proceeding,
Will of
SYDNEY H. FIELDS,
Deceased.
NOTICE OF ENTRY
PLEASE TAKE NOTICE that the within is a true
and correct copy of a Decree of Probate of the
Honorable Rita Mella, entered in the office of the
clerk of the within named Court on July 20, 2018.
Dated: Huntington, New York
July 31, 2018
[ILLEGIBLE]
Novick & Associates P.C.
By: Albert V. Messina Jr., Esq.
Trial Counsel for Petitioner, Diana Palmeri
202 East Main Street, Suite 208
Huntington, New York 11743
(631) 547-0300

177a
TO:
Richard Alan Chen, Esq.
Attorney for Objectant, Richard Fields
41-60 Main Street, Suite 203
Flushing, New York 11355
(718) 886-8181
Attorney General of the State of New York
Lisa Barbieri, Esq.
Assistant Attorney General
Charities Bureau
120 Broadway
New York, New York 10271
(212) 416-8396
Edward Curtin, Esq.
Counsel for Petitioner, Diana Palmeri
220 West 71st Street, Suite 31
New York, New York 10023
(212) 686-6744
Jules Martin Haas, Esq.
Co-Counsel for Petitioner, Diana Palmeri
845 Third Avenue, Suite 1400
New York, New York 10022
(212) 355-2575

178a
SURROGATE’S COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
File No.: 2016-111
Probate Proceeding, Will of
SYDNEY H. FIELDS,
Deceased.
AFFIDAVIT OF SERVICE
STATE OF NEW YORK

)
ss:

COUNTY OF SUFFOLK

)

Kelly Garone, being duly sworn deposes and
says: deponent is not a party to the action, is over
the age of 18 years of age, and is employed at
Novick & Associates, P.C., 202 East Main Street,
Suite 208, Huntington, New York 11743.
On July 31, 2018, deponent served a Notice of
Entry of Decree of Probate upon:
Richard Alan Chen, Esq.
Attorney for Objectant, Richard Fields
41-60 Main Street, Suite 203
Flushing, New York 11355
(718) 866-8181

179a
Jules Martin Haas, Esq.
Co-Counsel for Petitioner, Dianna Palmeri
845 Third Avenue, Suite 1400
New York, New York 10022
(212) 355-2575
Edward Curtin, Esq.
Co-Counsel for Petitioner, Dianna Palmeri
220 West 71st Street, Suite 31
New York, New York 10023
(212) 686-6744
Attorney General of the State of New York
Lisa Barbieri, Esq.
Assistant Attorney General
Charities Bureau
120 Broadway
New York, New York 10271
(212) 416-8396
by depositing a true copy thereof in a postpaid,
wrapper in an official depository under the exclusive care and custody of the United States Postal
Service within the County of Suffolk and State of
New York.
/s/
KELLY GARONE
Kelly Garone
Sworn to before me this
31st day of July, 2018
ALBERT V. MESSINA, JR.
Notary Public

180a
ALBERT V. MESSINA, JR.
Notary Public, State of New York
No. 02ME6178564
Qualified in Suffolk County
Commission Expires Deember 03, 2019

181a

EXHIBIT 11

182a
At a Surrogate’s Court held in and for the
County of New York at 31 Chambers Street,
New York, New York, on the 28th day of
July, 2018
Date: July 20, 2018
File No.: 2016-111
P R E S E N T:
HON. RITA MELLA
Probate Proceeding,
Will of
SYDNEY H. FIELDS,
Deceased.
DECREE OF PROBATE
A Petition for Probate having been filed by Diana
Palmeri (“Petitioner”) dated December 17, 2015
seeking a Decree admitting the Last Will and Testament of Sydney H. Fields dated October 6, 2014
to probate and the issuance of letters testamentary
to Petitioner; and
a Citation having been issued in connection with
such Petition, and jurisdiction having been obtained
over the necessary parties to said proceeding; and
an application having been filed by Diana
Palmeri dated June 6, 2016 seeking the issuance of
preliminary letters testamentary to Petitioner; and

183a
Preliminary letters testamentary having been
issued to Diana Palmeri on June 22, 2016; and
Petitioner having appeared by her attorneys,
Edward R. Curtin, Esq., co-counsel Jules Martin
Haas, Esq., and trial counsel Albert V. Messina Jr.
Esq., of Novick & Associates, P.C., and
Richard Fields, having initially appeared by his
counsel Dehai Zhang, Esq., and later by Richard
Alan Chen, Esq., and
Objections to Probate with Jury Demand dated
February 24, 2016 having been filed by Richard
Fields, alleging that the October 6, 2014 Will was
not duly executed, that Sydney H. Fields did not
possess the requisite testamentary capacity to execute the Will, that Sydney Fields did not know or
understand the contents of the Will and that the
Will was the product of fraud, duress and undue
influence, and
the parties by their respective counsel having
engaged in SCPA § 1404 examinations and CPLR
Article 31 discovery; and
Petitioner having filed a motion for summary
judgment pursuant to CPLR § 3212 dated November 28, 2017 seeking dismissal of the Objections to
Probate filed by Richard Fields; and
Petitioner having filed an affirmation in support
of motion for summary judgment of Jules Martin
Haas, Esq. dated November 28, 2017, including
deposition transcripts and other documents annexed
thereto as exhibits, the affirmation of Edward R.
Curtin, Esq., dated November 27, 2017, the affidavit of Diana Palmeri, sworn to on November 28,
2017, the affidavit of Adrienne Lawler sworn to on

184a
September 14, 2016, that affidavit of Arthur
Fishelman sworn to on June 12, 2017, the affidavit
of Stuart Michael sworn to on September 14, 2016,
the affidavit of Irving Rothbart sworn to on September 14, 2016, the affidavit of William McAllister
sworn to on September 30, 2016, the affidavit of
Gloria Madero sworn to on July 12, 2017 and a
memorandum of law in support of motion of Albert
V. Messina Jr. dated November 28, 2017; and
Objectant Richard Fields having submitted an
affirmation with legal citations in opposition to
motion for summary judgment of Richard Alan
Chen, Esq., dated January 22, 2018, with exhibits
annexed thereto, and an affidavit from Richard
Fields sworn to on January 22, 2018; and
Petitioner having submitted a reply affirmation
of Jules Martin Haas, Esq., dated February 23,
2018, with exhibits annexed thereto; and
the allegations of the parties having been heard,
and oral argument of the motion for summary judgment having been heard before the Court on March
20, 2018, and upon all the pleadings and proceedings heretofore filed and had herein, and after due
deliberation the Court having granted granting
Petitioner’s motion for summary judgment and dismissing the objections to probate on March 20,
2018, and the Court having rendered its written
decision dated March 26, 2018;
NOW, upon motion of Novick & Associates, P.C.,
as attorneys for Petitioner, it is hereby
ORDERED, ADJUDGED and DECREED, that the written instrument dated October 6, 2014 offered for

185a
probate as the Last Will and Testament of Sydney
H. Fields herein be and the same is hereby admitted to probate; and it is further
ORDERED, ADJUDGED and DECREED that letters
testamentary shall issue to Diana Palmeri upon
qualification and without the posting of a bond;
and it is further
ORDERED, ADJUDGED and DECREED that preliminary letters testamentary dated July 19, 2016 are
hereby revoked, and it is further
ORDERED, ADJUDGED and DECREED that a judgment in favor of Petitioner for costs and disbursements has been denied in the courts exercise of
discretion.
[ILLEGIBLE]
SURROGATE

186a

EXHIBIT 12

187a
SUPREME COURT OF THE
STATE OF NEW YORK
APPELLATE DIVISION: FIRST DEPARTMENT
File No.2016-111
PROBATE PROCEEDING, WILL OF
SYDNEY H. FIELDS
Deceased.
NOTICE OF MOTION
PLEASE TAKE NOTICE that upon the affirmation
of Albert V. Messina Jr., Esq., dated August 1, 2018,
with exhibits annexed thereto, and upon all the
papers and proceedings heretofore had herein, the
undersigned will move this court located at 27
Madison Avenue, New York, NY 10010 on Monday,
August 27, 2018 at 10:00 o’clock in the forenoon of
that day, or as soon thereafter as counsel may be
heard, for an Order
(1) dismissing the appeal, or alternatively
(2) striking certain portions of the appendix
and Appellant’s brief, and
(3) adjourning the instant appeal to the
November 2018 Term,
(4) together with such other and further
relief as may be just, proper, and equitable.

188a
PLEASE TAKE FURTHER NOTICE that pursuant to
CPLR § 2214(b), opposing papers, answering affidavits and notices of cross-motion with supporting
papers, if any, must be served upon the undersigned no less than seven (7) days before the return
date of this motion.
PLEASE TAKE FURTHER NOTICE that pursuant to
CPLR § 5528, CPLR § 2215, 22 NYCRR § 600.5 and
22 NYCRR § 600.10, because Appellant’s appendix
omitted numerous documents relied upon by
Respondent in support of the motion for summary
judgment, it included numerous documents not
submitted to the court below in connection with the
motion, the Appellant’s brief contained new facts
and legal theories based upon those improperly
submitted new records, the Appellant failed to
serve notice of appeal on all necessary parties and
failed to serve his appendix and brief on all necessary parties, this appeal cannot proceed with the
appendix and Appellant’s brief in their current
form. Accordingly, Respondent will not be submitting her Respondent’s brief on August 8, 2018 to
allow for the Court to consider Respondent’s application and direct appropriate relief.
Dated: August 3, 2018
Huntington, New York

189a
/s/
ALBERT V. MESSINA JR.
Albert V. Messina Jr.
Counsel for Petitioner-Respondent
Novick & Associates, P.C.
202 East Main Street, Suite 208
Huntington, New York 11743
(631) 547-0300
To:
Richard J. Fields
Objectant-Appellant Pro Se
2830 Pitkin Avenue
Brooklyn, New York 11208
Attorney General of the State of New York
Respondent-Respondent
Lisa Barbieri, Esq.
Assistant Attorney General
Charities Bureau
120 Broadway
New York, New York 10271
(212) 416-8396

190a
SUMMARY STATEMENT ON APPLICATION
FOR EXPEDITED SERVICE
AND/OR INTERIM RELIEF
(SUBMITTED BY MOVING PARTY)
Date August 8, 2018
Title of Matter
Estate of Sydney H. Fields
Index/Indic#
File No. 2016-111
Appeal by Objectant from order of Surrogate’s Court
County of New York entered on March 26, 2108
Name of Judge
Rita Mella
Notice of Appeal filed on
April 24, 2018
If from administrative determination, state
agency
Nature of action or proceeding
Contested Probate Proceeding
Provisions of order appealed from
Granting Petitioner’s motion for summary
judgment dismissing the objections to probate of
the Law Will and Testament of Sydney H. Fields
dated October 6, 2014.

191a
If applying for stay, state reasons why requested
Appendix omitted necessary documents relied
upon by the lower court and the parties in connection with the motion for summary judgment,
appendix improperly included new documents not
submitted below, failure to settle transcript, other
procedural deficiencies.
Has any undertaking been posted?
No.
If yes, state amount and type
Has application be made to court below for this
relief
No.
If yes, state Disposition
Has there been any prior application herein in
this Court
No.
If yes, state dates and nature
Has adversary been advised of this application?
Yes.
Does he/she consent
No.

192a
Attorneys for Movant
Name
Address
Tel No.
Appearing by

Jules M. Haas, Esq.
805 Third Avenue, 12th Floor
New York, NY 10022
(212) 355-2575
Jules M. Haas, Esq.
attorney.haas845@gmail.com

Attorneys for Opposition
Richard Fields, Appellant Pro Se
2830 Pitkin Avenue,
Brooklyn NY 11208
(718) 235-0900
Appeal prepared by Pia Fields
3011 Parsons Blvd. Apt. 6N
Brooklyn, NY 11208
(929) 233-2239
piachan1016@yahoo.com
New York State Attorney General*
*see attached
(Do not write below this line)
Disposition
Justice
Motion date
EXPEDITE

Opposition
PHONE ATTORNEYS

Date

Reply
DECISION BY

ALL PAPERS TO BE SERVED PERSONALLY
Court Attorney

193a
Attorneys for Respondent
Attorney General of the State of New York
Lisa Barbieri, Esq.
Assistant Attorney General
Charities Bureau
28 Liberty Street
New York, New York 10005-1400
Phone: (212) 416-8396
Fax: (212) 416-8393
Lisa.Barbieri@ag.ny.gov

194a
SUPREME COURT OF THE
STATE OF NEW YORK
APPELLATE DIVISION: FIRST DEPARTMENT
File No. 2016-111
PROBATE PROCEEDING, WILL

OF

SYDNEY H. FIELDS
Deceased.
AFFIRMATION
Albert V. Messina Jr., an attorney duly admitted
to practice law in the State of New York, hereby
affirms the following on penalty of perjury:
1.

I am an associate attorney with Novick & Associates, P.C. Together with Jules M. Haas, Esq.,
and Edward R. Curtin, Esq., we represent Petitioner-Respondent Diana Palmeri (“Respondent”) in the above referenced appeal. This
affirmation is submitted in support of Respondent’s motion (1) to dismiss the appeal, or
alternatively (2) strike certain portions of the
appendix and Appellant’s brief and (3) adjourn
the matter to the November 2018 Term.

2.

The Appellant Richard J. Fields (“Appellant”)
(a) did not include necessary papers in the
appendix that were presented to the court
below on the motion for summary judgment, (b)
injected new documents into the record that

195a
were never presented to the court below on the
motion for summary judgment, (c) did not
appeal from the final decree of the court below,
(d) did not appeal from an order, judgment or
decree with a proper notice of entry, (e) did not
settle the transcript of proceedings, (f) did not
subpoena the papers constituting the record on
appeal from the Surrogate’s Court clerk and (g)
did not serve all necessary parties with a
notice of appeal or with the Appellant’s brief
and appendix. While we recognize Appellant’s
right to proceed pro se in this appeal, he has
not been excused from following the proper
statutory procedures to ensure that Respondent has a fair opportunity to litigate this
appeal on the merits based upon the record
that the parties created before the New York
County Surrogate’s Court.
3.

As will be shown below, this appeal cannot proceed based upon the appendix and brief submitted by the Appellant. The Appellant’s
appendix omitted numerous documents relied
upon by Respondent in support of the motion
for summary judgment and he included numerous documents that were not submitted to the
court below in connection with the motion. The
Appellant’s brief contained new facts and legal
theories based upon those improperly submitted new records.

4.

Further examples of this improper conduct will
be explained below. It is unfair and impractical
to expect Respondent to reproduce a proper

196a
record. This is not a matter of the omission of a
few pages from an appendix which could be
cured by a respondent’s appendix. The entire
record, consisting of hundreds of omitted necessary pages, would have to be reproduced to
accurately reflect the proceedings below and to
enable the parties to argue this appeal based
upon the facts and legal arguments presented
to the court below. This appeal cannot proceed
based upon the documents submitted and it
must be dismissed. If Respondent’s motion to
dismiss the appeal is denied, it is, therefore,
necessary to adjourn this appeal to the November, 2018 Term.
A. Respondent’s
Appeal

Motion

to

Dismiss

the

5.

This appeal concerns a written decision and
order from the New York County Surrogate’s
Court (Melia, Surrogate) dated March 26,
2018. (A copy of the order is annexed hereto as
Exhibit A). Aside from the fact that the
appendix and brief are improperly constructed
and unworkable, which will be more fully
explained below, this appeal suffers from several fatal procedural defects that calls for the
dismissal of the appeal.

6.

Appellant’s Notice of Appeal dated April 24,
2018 states that the appeal is from a “Judgment of the Surrogate’s Court, New York County, dated March 26, 2018”. (A copy of the notice
of appeal is annexed hereto as Exhibit B). At

197a
the time that the Appellant filed his notice of
appeal on April 24, 2018, no final judgment
had been entered by the New York County
Surrogate’s Court. According to his notice of
appeal, Appellant is appealing from the March
26, 2016 order only and not the transcript of
proceedings.
7.

The March 26, 2018 order states that “[t]his
decision, together with the transcript of the
March 20, 2018 proceedings, constitutes the
order of the court. Settle probate decree.”
(Exhibit A at p. A-10) (emphasis added). It is
well settled that [n]o appeal lies from a decision directing settlement of judgment.” Weiser
LLP v. Coopersmith, A.D.3d 465, 469, 902
N.Y.S.2d 74, 78 (1st Dep’t 2010). See CPLR
§ 5512(a); Rodriquez v. Chapman-Perry, 63
A.D.3d 645, 646 (1st Dep’t 2009) (“Since the
record does not contain the settled order that
the motion court directed to implement its
decision to dismiss the complaint as to respondents, the issues regarding the finding that
respondents are entitled to summary judgment
are not properly before this Court. No appeal
lies from a decision.”) (citations omitted).
Appellant improperly appealed from the order
that directed the settlement1 of the probate
decree and he improperly appealed from the
March 26, 2018 order alone, not from the two
(2) documents that the Surrogate’s Court
1

Notice of settlement of a probate decree was served by
this office on April 10, 2018.

198a
stated “constitutes the order of the court”.
Accordingly, this appeal must be dismissed.
CPLR § 5512(a).
8.

On July 20, 2018, the New York County Surrogate’s Court issued the final decree in this matter. (A copy of the Decree is annexed hereto as
Exhibit C). It is well settled that any right of
appeal from an interlocutory order terminates
with the entry of a final judgment. Matter of
Aho, 39 N.Y.2d 241, 248 (1976). See Zheng v.
City of N.Y., 92 A.D.3d 412, 413 (1st Dep’t
2012) (“This Court is now obliged to dismiss
plaintiffs’ appeal since well-established precedent mandates that, once a final judgment is
entered, the right to directly appeal from an
interlocutory order terminates.”). Therefore,
Appellant’s right to prosecute this appeal terminated with the entry of the July 20, 2018
Decree. (A copy of the notice of entry of the
July 20, 2018 Decree is annexed hereto as
Exhibit D). Accordingly, this appeal must be
dismissed.

9.

CPLR § 5513(a) states that an “appeal as of
right must be taken within thirty days after
service by a party upon the appellant of a copy
of the judgment or order appealed from and
written notice of its entry, except that when
the appellant has served a copy of the judgment or order and written notice of its entry,
the appeal must be taken within thirty days
thereof.” Even if the appeal from the March 26,
2018 order was permitted, it was not taken

199a
from an order from which notice of entry was
served. Notably absent from the Table of Contents to Appellant’s appendix is a notice of
entry from any order, judgment or decree from
the New York County Surrogate’s Court. (A
copy of the table of contents is annexed hereto
as Exhibit E). Appellant did not serve Respondent’s counsel with notice of entry of the
March 26, 2018 decision and order, the procedural prerequisite to filing an appeal. CPLR
§ 5513(a).
10. Even if the appeal from the March 26, 2018
order is considered, it is incomplete because
the order states that the written “decision,
together with the transcript of the March 20,
2018 proceedings, constitutes the order of the
court. Settle probate decree.” (Exhibit A at p.
A-10). Appellant has not appealed from the
documents ‘constituting the order of the court’,
nor has he appealed from the final decree.
Therefore, the appeal must be dismissed.
1.

Appellant Failed to Comply with CPLR
§ 5525

11. The appendix contains a transcript dated
March 20, 2018 of the oral argument of the
summary judgment motion. (A copy of the transcript is annexed hereto as Exhibit F). As
noted above, notice of entry of the March 26,
2018 order was not served. In addition, Appellant failed to settle the transcript pursuant to
CPLR § 5525.

200a
12. Since a stenographic record of “of the March
20, 2018 proceedings” was made in this case
(Exhibit A at p.A10), CPLR § 5525(a) requires
the Appellant within fifteen days after receiving the transcript from the court reporter “or
from any other source” to “make any proposed
amendments and serve them and a copy of the
transcript upon the respondent.” CPLR
§ 5525(c)(3) required Appellant to “serve on
respondent together with a copy of the transcript and the proposed amendments, a notice
of settlement containing a specific reference to
subdivision (c) or this rule. . . .”
13. Appellant has not settled the transcript pursuant to CPLR § 5525. Appellant relied upon
the transcript in his brief. (A copy of the Appellant’s Brief as annexed hereto as Exhibit G, at
p.9, 15, 19, 20, 26, 51, 54, 55). The parties here
did not stipulate to certify the transcript. A
notice of settlement of the transcript is not contained in the Table of Contents. (Exhibit E).
Thus, Respondent has been deprived of her
right to proceed on a corrected settled transcript of proceedings.
2.

Appellant Failed to Comply with CPLR
5531

14. Several alternate bases exist to support dismissal of the appeal. In the instant appeal, it
appears that appellant Richard Fields elected
to proceed on the appendix method. The cover
of the submitted record, contained in the Court

201a
file, does not indicate if the document is a Full
Record or Appendix. Appellant did not submit
a statement pursuant to CPLR § 5531. However, the pages of the submitted records are
labeled “A___”. See CPLR § 5529(b). Furthermore, the record submitted to the court below
has not been reproduced in toto. Therefore,
Appellant has elected to proceed on the appendix method.
15. The requisite statement pursuant to CPLR
§ 5531 has not been “prefixed to the papers constituting the record on appeal” and is otherwise absent from the Appellant’s appendix. To
the extent that Appellant’s pre-argument
statement could be considered a CPLR § 5531
statement, it omits subsections 4, 6 and 7 of
the statute. Had this information been included, the Court clerk would have recognized that
no notice of entry of the March 28, 2018 Order
has been served, the transcript of proceedings
had not been settled and that the final decree
has not been entered at the time Appellant
filed his brief and appendix.
3.

Appellant Failed to Comply with CPLR
§ 5528 and 22 NYCRR 600.5

16. Pursuant to CPLR § 5528(a)(5), when an appellant proceeds on the appendix method, the
appendix shall consist of “such parts of the
record on appeal as are necessary to consider
the questions involved, including those parts
the appellant reasonably assumes will be

202a
relied upon by the respondent.” Appellant
failed to assemble a proper appendix as he
omitted many of the records that Respondent
relied upon in support of her motion for summary judgment and which were discussed by
the court below.
17. Pursuant to 22 NYCRR § 600.5(a)(1), “[i]f the
appeal is prosecuted by the appendix system
pursuant to CPLR 5528(a)(5), appellant shall
subpoena, from the clerk of the court from
which the appeal is taken, the papers constituting the record on appeal as set forth in
CPLR 5526 and cause them to be filed with the
clerk of this court within 30 days after settlement of the transcript of proceedings or statement in lieu of a transcript. At the time the
subpoena is served, the appellant shall deliver
to the clerk two copies of the statement
required by CPLR 5531.” Appellant has not
issued a subpoena, nor has he delivered the
statement.
18 Appellant has utterly failed to comply with
these statutes. He has:
(1) failed to include portions of the record submitted to the Surrogate’s Court that are
going to be relied upon by Respondent, i.e.,
the affidavits, affirmations and exhibits
submitted in support of the motion for
summary judgment (to be discussed more
fully below);

203a
(2) failed to subpoena the papers constituting
the record on appeal pursuant to CPLR
§ 5526 from the Clerk of the Surrogate’s
Court (see also 22 NYCRR 600.5(1)(3));
(3) failed to settle the transcript of the proceedings or statement in lieu of transcript;
and
(4) failed to deliver a CPLR § 5531 statement.
a.

Portions of the appendix must be
stricken

19. The parties to this proceeding submitted a
record to the New York County Surrogate’s
Court in connection with Respondent’s November 28, 2017 motion for summary judgment.
Respondent’s motion papers consisted of a
notice of motion, a memorandum of law and an
affirmation from Jules M. Haas, Esq., with
numerous exhibits annexed thereto, including
the pleadings, witness affidavits, deposition
transcript excerpts and other relevant records.
For the sake of brevity, annexed hereto as
Exhibit H is the exhibit list annexed to the
Affirmation of Jules M. Haas, Esq., dated
November 28, 2017 submitted in support of the
motion for summary judgment.
20. Appellant, who was represented by Richard
Alan Chen, Esq., also submitted an attorney’s
affirmation dated January 22, 2018 (erroneously dated January 22, 2017) in opposition
to the motion with exhibits annexed thereto

204a
consisting of the Appellant’s affidavit, deposition transcript excerpts and other documents.
The exhibit list submitted by Mr. Chen is
annexed hereto as Exhibit I. Respondent submitted the reply affirmation of Jules M. Haas,
Esq., dated February 23, 2018 in further support of the motion for summary judgment. The
exhibit list annexed to the reply affirmation is
annexed hereto as Exhibit J. The documents
submitted by the parties to the Surrogate’s
Court constitutes the entire record in this matter.
21. However, when the Table of Contents to Appellant’s appendix (Exhibit E) is compared with
the documents submitted to the Surrogate’s
Court, it is apparent that (1) numerous necessary documents that were submitted to the
lower court below were not included in the
appendix and (2) new documents that were
never submitted to the court below are now
included in the appendix. “It is settled that this
Court is bound by the record on appeal.” Mars
v. Venture Realty Grp., 248 A.D.2d 101, 102
(1st Dep’t 1998) (citing Block v. Nelson, 71
A.D.2d 509, 511 (1st Dep’t 1979)). “As stated by
the Appellate Division, Second Department,
appellate review is limited to the record made
at nisi prius and, absent matters which may be
judicially noticed, new facts may not be injected at the appellate level.’” Id. (quoting Broida
v. Bancroft, 103 A.D.2d 88, 93 (2d Dep’t 1984)).

205a
22. A glaring example of documents that were not
submitted to the court below in connection
with the motion for summary judgment but
have been injected into the appendix are the
documents concerning the Attorney General of
the State of New York. The Attorney General
sought to file objections to probate, but those
objections were rejected by the Surrogate’s
Court and were never prosecuted. The Attorney General was served with the motion for
summary judgment (a copy of the Notice of
Motion is annexed hereto as Exhibit K) but
did not participate in the motion. None of the
exhibits submitted by the parties in connection
with the motion for summary judgment included any of the rejected objections to probate by
the Attorney General. (Exhibits H, I and J).
These documents were not considered by the
lower court.
23. The foregoing was but one example of documents that Appellant has improperly injected
into the record for the first time on appeal. The
following tables contain a list of documents,
with page references, that are contained in the
appendix that were never submitted to the
court below. Some of the listed documents are
not even reflected in the Appellant’s Table of
Contents (Exhibit E):

206a

207a

208a

209a

210a

211a
None of the pages of the appendix listed in the
above table were submitted to the Surrogate’s
Court in connection with the November 28,
2017 motion for summary judgment. (Exhibits
H, I and J). See Ray v. Ray, 34 A.D.2d 517, 517
(1st Dep’t 1970) (“The appeal was brought on
for argument on the basis of a properly certified record on appeal and extrinsic facts may
not be considered, nor may facts other than
those established by affidavit, documents or
records recited in the order appealed from.”).
Appellant is impermissibly attempting to relitigate the motion for summary judgment on this
appeal based upon documents that were not
before the lower court and are dehors the
record.
b.

Appellant failed to include necessary
documents

24. Not only has Appellant improperly injected
new matters into the record for the first time
on appeal, he has also omitted crucial documents from the Appendix. In this appeal, it is
reasonable to conclude that Respondent would
rely upon the documents and exhibits she submitted to the Surrogate’s Court. See CPLR
§ 5528(a)(5); Reiss v. Reiss, 280 A.D.2d 315, 215
(1st Dep’t 2001) (“Plaintiffs appendix does
not contain all of the relevant and necessary
portions of the record, thus rendering a determination on the merits impracticable. Accordingly, the appeal is dismissed.”).

212a
25. Incredibly, Appellant has not included his
objections to probate in the appendix. Another
example of a glaring omission is the absence of
the affirmation of Jules M. Haas, Esq., dated
November 28, 2017, submitted in support of
Respondent’s motion for summary judgment
and several exhibits annexed thereto. Mr.
Hass’ affirmation submitted numerous documents, incorporated witness affidavits and presented Respondent’s arguments in support of
the motion for summary judgment. Appellant
omitted over 440 pages of these records that
are necessary and relevant to the prosecution
of this appeal from this affirmation alone. In
addition, Appellant has omitted portions of the
deposition transcripts from the attorneydrafter, attesting witnesses, parties and nonparties. He has omitted witness affidavits. He
omitted a portion of his own attorneys’ affirmation in opposition to the motion for summary
judgment. He has omitted documents that the
Surrogate’s Court relied upon in its decision
and order. (Exhibits A and F).
26. The following exhibits that were annexed to
the affirmation of Jules M. Haas, Esq. dated
November 28, 2017 (Exhibit H hereto) that
were excluded from the appendix are as follows:
Exhibit A, Exhibit C, Exhibit C-1, Exhibit
C-2, Exhibit C-3, Exhibit C-4, Exhibit C-5,
Exhibit E (deposition excerpts omitted),
Exhibit F (deposition excerpts omitted),

213a
Exhibit I, Exhibit K, Exhibit M, Exhibit
N, Exhibit O (with the exception of A-128),
Exhibit P, Exhibit Q (with the exception
of A-186-90), Exhibit R, Exhibit S, Exhibit
V (with the exception of A-78-83, 91-96),
Exhibit Y (with the exception of A-69-70),
Exhibit Z, Exhibit AA, Exhibit BB, Exhibit CC, Exhibit DD, Exhibit EE and Exhibit FF.
The following documents that were annexed to
the reply affirmation of Jules M. Haas, Esq.
dated February 23, 2018 (Exhibit J hereto)
that were not included in the appendix are as
follows:
Exhibit A, Exhibit B, Exhibit D, Exhibit
E, Exhibit F, Exhibit G, Exhibit H, Exhibit
I, Exhibit M, Exhibit P, Exhibit Q, Exhibit
R, Exhibit T
These documents will be relied upon by
Respondent in response to a properly constructed appendix and appellant’s brief.
4.

Appellant Failed to Serve All Necessary
Parties to the Appeal

27. The cover to the appendix reveals that the parties that have appeared before the court below
have not been served with the appeal. The
notice of motion for summary judgment shows
that the Attorney General of the State of New
York was served with the motion. (Exhibit K).
Appellant included the Attorney General’s

214a
notice of appearance in the appendix, even
though it was not submitted to the court below
in connection with the summary judgment
motion. (A copy of the notice of appearance is
annexed hereto as Exhibit L). The Attorney
General was served with the notice of entry of
the July 20, 2018 Decree. (Exhibit D). The
Notice of Appeal (Exhibit A), the cover to the
appendix (annexed hereto as Exhibit M) and
the appellant’s brief (Exhibit G) show that the
Attorney General, a party to these proceedings,
has not been served with the notice of appeal or
with the Appellant’s brief and appendix.
Therefore, this appeal cannot proceed without
the proper parties and it must be dismissed.
28. In sum, Appellant has shirked the proper procedure for prosecuting this appeal. Consequently, Respondent cannot proceed on (1) an
incomplete record, (2) an uncertified record, (3)
a record that does not comply with Court rules
or the CPLR, (4) an uncorrected transcript that
has not been settled, (5) on an appeal from an
interlocutory order to which notice of entry has
not been served or (6) from an appeal from a
final decree. In addition, the appendix excludes
critical documents from the record which were
relied upon by Respondent and the lower court
and it improperly injects new documents and
records that were not submitted to nor considered by the lower court. The appellant’s brief
improperly makes new arguments and relies
upon new matter dehors the record on appeal

215a
as well as other procedural and formatting
errors that violate the CPLR and Court rules.
He has not noticed all parties to this appeal,
nor has he served all parties with his appendix
and brief. For these reasons, the instant appeal
must be dismissed.
B. Portions of Appellant’s Brief and Appendix Must be Stricken
29. In the event that the Court deems it possible to
proceed without an appeal from the final
decree, upon an appendix that does not include
Respondent’s papers and also contains new
documents that were not submitted to the
court below, the improper contents of the
appendix must be stricken.
30. It is respectfully requested that the Court
strike those portions of the appendix referred
to in Paragraph 23, supra, for the reasons set
forth above.
31. In addition, portions of the Appellant’s brief
raises new factual and legal arguments based
upon the new improper documents. It also
injects new unsupported facts with no citation
to any record. These portions of the Appellant’s
brief must also be stricken. See Block, 71
A.D.2d at 511 (“Matter contained in the briefs,
not properly presented by the record, is not to
be considered by this court.”).
32. An appellant seeking reversal or modification
of a lower court’s order or judgment may not

216a
inject new facts or new legal arguments based
upon those new facts into the record on appeal.
Ray, 34 A.D.2d at 517. By way of example, the
first two paragraphs on page 8 of the Appellant’s brief discusses a June 3, 2016 “letter”
from Assistant Attorney General Lisa Barbieri.
(Exhibit G at p.8). However, this “letter” was
not presented by any party to the Surrogate’s
Court in connection with the summary judgment motion. (See the exhibit lists to the
motion for summary judgment, Exhibits H, I
and J hereto). In addition to the fact that this
document was not submitted to the Surrogate’s
Court for consideration on the motion for summary judgment, the “letter” is actually the
Attorney General’s objections to probate, containing mere allegations, which were rejected
by the Surrogate’s Court. No motion to accept
these objections was ever filed and they were
never prosecuted. The Attorney General was
served with the motion for summary judgment.
(Exhibit K). The Attorney General did not participate in the motion for summary judgment.
33. Since the Attorney General’s objections to probate were never submitted to the court below,
it is improper to inject this document into the
appendix on appeal. Block, 71 A.D.2d at 511.
Therefore, the Court should strike the following from page 8 of the Appellant’s brief:
For that reason, the State Attorney General severely admonished the petitioner for
fraud. Assistant Attorney General Lisa

217a
Barbieri said in her letter on June 3, 2016:
“The testator was not competent to make a
will.” The will “was procured by duress and
undue influence.” It “was caused or procured by actual or constructive fraud practice . . .” (Page A11-A13)
The State Attorney General’s opinions
are supported by the evidence we discovered.
34. The foregoing was but one example of the
improper arguments contained in the Appellant’s brief. Appellant’s improper references
are pervasive and extensive. The following portions of the Appellant’s brief must be stricken
on the basis that it refers to new facts not presented to the lower court or raises new legal
arguments based upon those new facts (see
Paragraph 23, supra):
• Page 8:

First full paragraph starting with “For that reason”
to the first sentence of the
second full paragraph ending with “evidence we discovered.”

• Page 9:

Second full paragraph, second sentence starting with
“Their counsel made” ending with “as their weapon”
as the transcript referred to
was not settled pursuant to
CPLR § 5525.

218a
• Page 9:

Last full paragraph starting
with “The State Attorney
General” ending with “the
key person.”

• Page 10:

First full paragraph, fifth
sentence starting with “We
can see”, ending at the bottom of the page with “(Page
A203 Line 2-Line 17)”.

• Page 11:

First full paragraph, starting
with
“Edward
R.
Curtin” ending with “his
perjury easily.”

• Page 14:

In the quoted testimony,
starting with middle of the
first sentence of the last
question “table about that”
to “(Page A397, line 4-line
A398-line 8).”

• Page 15:

First full paragraph starting with “The petitioner’s
counselors “to the end of the
third full paragraph, ending
with “(Page A594 Line 1 to
Line 3)” pursuant to CPLR
§ 5525.

• Pages 16-17:

Last full paragraph starting
with “In his April” to the
end of the section on page
17, ending with “(Page A54
Paragraph Third).

219a
• Pages 19-20:

Last full paragraph starting
with “The Court seems” to
the end of the first pull
paragraph on page 20, ending with “(Page A600 Line
1-6)” pursuant to CPLR
§ 5525.

• Page 26:

First full paragraph starting with “If they really”
ending with “(Page A590Page A591)” pursuant to
CPLR § 5525.

• Page 26:

Second numbered section,
starting with “2. The hard
copy” to “3.5 million dollars.”

• Page 30:

Second full paragraph,
starting with “That instrument did” ending with “Sydney actually said.”

• Page 30:

Last full paragraph, starting with “On the last” ending with “(Page A165)”.

• Page 31:

First two full paragraphs,
starting with “The instrument they” ending with “to
verify things.”

• Page 31:

Third full paragraph, references to A-353 and A-354.

220a
• Page 32:

First three full paragraphs,
starting with “Regarding
another important” ending
with “analyze the Will.)”.

• Page 33:

First
four
paragraphs,
starting with “In Edward R.
Curtin’s” ending with “son
was sick.”

• Pages 35-36:

First full paragraph, second
sentence starting with “The
telephone records” to the first
full paragraph on page 36,
ending with “(Page A203
Line 24-Page A204 line 22).”

• Pages 36-37:

Fifth full paragraph starting with “In her deposition”
to the first full paragraph
on page 37 after the
enumerated
paragraphs,
ending after the second sentence with “to the charity).”

• Page 36:

Second full paragraph after
the enumerated paragraph,
second sentence starting
with “In this case” ending
with “previous two Wills.”

• Page 38:

First full paragraph starting with “In Sydney’s autobiography” to the second
sentence of the same para-

221a
graph ending with “(Page
A 15-A 28).
• Pages 38-39:

Second
full
paragraph
starting with “The loving
feeling” ending on page 39
with “(Page A435-PA411)”,
except that page A-435 was
presented to the court
below.

• Pages 39-40:

First full paragraph starting with “Sydney’s background made” to the fourth
full paragraph on page 40
ending with “gave Richard
nothing.”

• Page 40:

Last full paragraph, second
sentence
starting
with
“Compared to how” and
ending with “(Page A35Page A37)”.

• Pages 40-41:

Last full paragraph, middle
of the third sentence starting with “just to prevent” to
the first full paragraph on
page 41, ending with “(Page
A 15-Page A34).

• Page 41:

Second full paragraph, fifth
sentence
starting
with
“Actually such a” ending
with “(Page A15-Page A34)”.

222a
• Page 42:

First full paragraph starting with “Richard did not”
ending with “Of psychiatric
hospitals.”

• Page 42:

Second
full
paragraph
starting with “A serious
and” ending with “ten years
later?”

• Pages 42-43:

Fourth
full
paragraph
starting with “The big difference” to the last paragraph on page 43 ending
with “any legal base.”

• Page 44:

First full paragraph, second
sentence starting with “He
did not” ending with “some
one’s affirmation.”

• Page 44:

Third full paragraph, second sentence starting with
“They are the” ending with
“(Page A335 Line 15 to Page
A336 Line 1)”.

• Page 44:

First enumerated paragraph
starting with “Sydney had
no reason” to the second
enumerated paragraph ending with “the Palmeri family.”

• Page 44:

Third enumerated paragraph,
second sentence starting

223a
with “This shows that” ending with “all these years.”
• Page 45:

First full paragraph starting with “We said the” and
ending with “Page A334
Line l)”.

• Page 45:

Third full paragraph starting with “We all know” ending with “by our court.”

• Page 46:

Deposition transcript starting with “A: Nov. 10th, 2015”
ending with “(Page A415
Line 10-Page A416 Line 18)”.
However, Page A-415 was
submitted to the court below,
and Respondent is not
requesting that the reference to that page be stricken.

• Page 47:

First full paragraph, second
sentence starting with “The
telephone records” ending
with “(Page A429 Lines 1525).

• Page 50:

First full paragraph starting with “In his earliest” to
the end of the second full
paragraph, ending with
“was legally blind.”

224a
• Page 51:

Fourth enumerated paragraph starting with “Diana
Palmeri said” ending with
“Line 5)”.

• Page 52:

Second full paragraph,
third sentence starting with
“Not only that” ending with
“the testator’s voice.”

• Page 52:

Third full paragraph starting with “Mr. Kern provided” ending with “he ‘sworn
to’?”.

• Page 53:

First full paragraph, second
sentence starting with “the
Objectant-counsel did” ending with “(Page A194)”.

• Pages 56-57:

Second full paragraph after
the enumerated paragraphs,
second sentence starting
with “After being deposed”
ending on page 57 with
“(Page A443 last paragraph
to A444)”.

• Pages 57-58:

Fourth
full
paragraph
starting with “Two days
before” to the end of the section on page 58 ending with
“in this way.”

• Pages 59-60:

Last full paragraph on page
59, fourth sentence starting

225a
with “It was for” to the end
of the section on page 60,
ending with “the Surrogate’s Court.”
• Page 62:

First full paragraph, second
sentence starting with “The
appellant hopes” to the final
paragraph ending with
Attorney General of NYS.”

These references to the portions of the record
correspond with the new documents that were
improperly injected into the appendix (see
Paragraph 23, supra). They recited new facts
and new arguments based upon the new materials that were not presented to the Surrogate’s
Court in connection with the motion for summary judgment or were simply argued with no
reference to the record whatsoever. These portions of the Appellant’s Brief must be stricken.
Block, 71 A.D.2d at 511; Ray, 34 A.D.2d at 517.
See also Matter of Maura B. v. Giovanni P., 111
A.D.3d 443, 444 (1st Dep’t 2013) (“Motion by
attorney for the child to strike petitioner’s
reply brief is granted to the extent of striking
references to matters dehors the record.”);
McGlone v. Port Auth. of N.Y. & N.J., 90
A.D.3d 479, 480 (1st Dep’t 2011) (striking “portions of respondents’ brief referring to matters
dehors the record.”).
35. It cannot be overlooked that Appellant appears
to be represented by Pia Fields, who is not an

226a
attorney. (Exhibit G at p.63-64). While the
preparation of the Appellant’s brief by Pia
Fields is of no moment, the attempt by Pia
Fields to represent Appellant is the improper
practice of law by a non-attorney. In fact, the
Appellant stated in his brief that “[i]n case I
am not available please allow Pia Fields to
handle the case for me.” (Exhibit G at p.63).
She is not a proper party entitled to notice of
this appeal or any related motion. This improper conduct cannot be condoned.
C. Respondent respectfully requests that
this matter be set for the November,
2018 Term
36. This appeal cannot proceed with the appendix
and Appellant’s brief in their current form. If
the motion to dismiss is not granted, it is necessary to adjourn the term of this Appeal to the
November, 2018 Term to permit sufficient time
to allow for the submission of this motion, the
decision therefrom and the completion of any
procedures that may be directed by this Court.
Accordingly, Respondent will not be submitting
her Respondent’s brief on August 8, 2018 to
allow for the Court to consider Respondent’s
application and direct appropriate relief.

227a
WHEREFORE, it is respectfully requested that the
Court enter an Order (1) dismissing the appeal in
its entirety, or alternatively (2) striking certain
portions of the appendix and Appellant’s brief and
to adjourning this appeal to the November 2018
Term and (3) granting such other and further relief
as the Court deems just, fair and equitable.
Dated: August 3, 2018
Huntington, New York
/s/

ALBERT V. MESSINA JR.
Albert V. Messina Jr.

228a
SUPREME COURT OF THE
STATE OF NEW YORK
APPELLATE DIVISION: FIRST DEPARTMENT
Motion for case 2016-111
PROBATE PROCEEDING, WILL OF
SYDNEY H. FIELDS
Decease

Respondent for Affirmation in opposition
to Interim stay dated on Aug. 16, 2018
I am the appellant from the case 2016-111. The
Surrogate admitted the Third Will of Sydney Fields
into Probate on the day of July 20th, 2018 (Exhibit
B) without notifying me. Respondent, Diana Palmeri,
the proponent of the Third Will was appointed
Executor. If I knew, I would have responded much
earlier. I requested a stay (Exhibit Al) on Aug 17th
to stop Ms. Parlmeri from disposing the assets of
the estate until this Court makes a final determination of the validity of the “Third Will”. I was
denied by one of the judges in this court. (Exhibit
A) Now I am to responding to the affirmation made
by Jules Martin Haas. (Exhibit B1). He successfully convinced the judge to reject the stay by
attacking me for harassing the testator, my father,
Sydney H. Fields.
I want to stress to this Court a few things: Firstly; The Court below committed reversible error in

229a
permitting the probate of the “Third Will” after a
motion for Summary judgment. Certainly the evidence Objectants to the Will produced for the Court
below were sufficient to create enough doubt as to
the veracity of the purported Will, to make it inappropriate to give a directed verdict in favor of the
proponents. The Court below was able to convince
herself that the purported “Third Will” represents
the “natural evolution of testator’s dispositional
intent” and banging the round peg into the square
hole ignored all of Objectants’ evidence to the contrary. Secondly; if this Court permits the Executor
to dispose of the estate assets then it will be impossible for me to chase after the parties who received
these assets if the final outcome entitles Objectant
to receive any of them. Lastly, the Court will make
a final ruling on this case in early November. If
this Court upholds this purported “Third Will”, the
legatees will not suffer any irreparable harm having to wait a few more months for their share in the
“booty”.
I am living on SSI due to a mental disability
since 1993. I borrowed $100,000 legal fee for this
case and lost within an hour in the Court below. I
have no choice but to appeal, acting Pro Se, with
the assistance of my ex-wife. I did not know that
she has no right talk to the judge. On Aug 17, I did
not expect that Respondent’s attorney, Jules Haas,
would attack me by bringing up the history of my
harassment of my father, the testator. He provided
a distorted picture of my actions to the judge, and
implied that that was the reason why I was disinherited. I did not know how to give the background

230a
and surrounding circumstances that may explain
my behavior. I do not deny what I have done when
I was crazy (It could tell something wrong from my
expression on the pictures) but it is very difficult
for me to admit my mental disability in front of the
judges. I hope all the other judges consider my difficulty. Mr. Haas knew my situation. In his letter
to the court dated March 27, 2017 he mentioned
that the “Objectant testified that he is a diagnosed
paranoid schizophrenic.” “I wish to stress that the
purpose of this application for an emergency conference is to obtain Court intervention. . . .”
(Exhibit K1 Page 2) However for successfully
attacking me they never mentioned my situation in
the court below. They used the same strategy and
they win in this court as well.
As a matter of fact my father still left a bequest
to me after those events. My father tried to be the
backbone of his family because his father died one
day before he was born and he knew how sad children were without fathers. For a few time he told
me that he worked hard for me and he wanted to
bring his family up to the middle class. When he
sent me to a psychiatric hospital in 1991 our relationship became worse. My mother who was also
crazy told me that he was supposed send me to a
law school not a mental hospital. I have received
psychiatric treatment by court order since 2009.
They sent me to hospitals involuntarily once in a
while even today. There are three members who
were mental disabled in Sydney Fields’ family and
the member’s relationship was destroyed because
of that. (Exhibit G) My father knew my situation

231a
and he actually did not really blame me. From
1995-1996 after those “vicious campaign of terror”
(in Haas’ words) happened my father still gave me
an inheritance in the Will of 1997 (Exhibit H & 97
Will page 480). Since 1997 I did not contact him
and offend him anymore. 1997, refusing to end the
relationship with me he lost the right to visit the
children of my half-brother who was because of my
craziness. Fields’ family lost contacts since 1998
and it needs help. However, Palmeris’ use that as
an excuse to take away 9.9 million dollars from this
pitiful family. They did it by commit perjury and
forgery.
1. They claimed that the testator could read the
Will by using a magnify glass. (Exhibit F ) However
Vanguard’s phone transcript proved that Sydney
H. Fields once told his broker “with the magnifying
glass I can read large print, but I can’t read anything that’s on papers.” The conversation occurred
on 1st, Oct, five days before the Will signed.
(Exhibit E Page 197). Doctor Janet Serie’s medical
record also reflected that Sydney’s vision was very
poor on Oct 6th. In September, 2014 Sydney’s one
eye was blind and the other eye was legal blind and
in December 5th, 2014 his both eyes were blind.
(Exhibit E1 page 190). The judge in the Court
below ignored the testator’s statement and the
medical records. She believed affirmations those
six people made, one petitioner, two witnesses, and
three lawyers. They said Sydney was only legally
blind and even blind people have the right to make
a Will.

232a
2. The Court below stated in her decision that
“. . .[W]hen the execution was supervised by an
attorney and when there is a contemporaneous affidavit of the attesting witnesses reciting the facts of
due execution, as is the case here, a presumption of
proper execution arises. Here, the facts that the
attesting witnesses could not confirm whether
decedent had his magnifying glass that day (the
attorney-drafter and one of the witnesses testified
that he did) and could not provide a description of
the aide who accompanied decedent to the will execution, but who appears to have stayed in a separate waiting area, were insufficient to rebut the
presumption under the circumstances presented.”
(The attorney-drafter admitted that the Will was
never read out loud in front of the witnesses.
(Exhibit F1 Page 286 & K2) The Court did not follow “Advanced age is of itself no disqualification to
the making of a will, but in such a case the court
will more closely scrutinize the circumstances surrounding the preparation and execution of the
paper.” Matter of Hubert 26 Misc. 461 57 N.Y.
Supp. 648 Affd. 48 App Div. 91, 62 N.Y. Supp. 932
98 quoted in Annotated Consolidated Laws of New
York 1917. Also see Matter of MacCready 82 Misc
2d 531, 369 N.Y.S. 2d 325 (1975) with reference to
execution for the blind where valid execution was
found where the will was read aloud to the testator
in the presence of the witnesses, and the testator
then declared that which was read to be his will,
and made his cross-mark and also “If the Testator
is blind or cannot read, the will should be read to

233a
him in the presence of the witness” Weir v. Fitzgerald 2 Brad. 42.
3. Instead of the “natural evolution of testator’s
dispositional intent” the purported Third Will is a
radical departure. My father’s third wife’s Will did
not leave her nieces and nephews as much as the
purported “Third Will” for the 9.9 million dollars
estate. The court below did not request any support
document from them and only recognized the affirmations an Attorney-drafter made. (Exhibit K2)
4. There are forgery in the Will document. The
Third Will contains all the bequests on a single
page. Our handwriting expert confirmed that the
initial on that page with the distributions was not
the testator’s. The testator always need a X to indicated him where to sign and that forgery initial
was handled well without an “x” next to it. (Exhibit
I,3) The whole will can be changed by just initialing and substituting the key page without touching
the signature in the last page. Since the witnesses
did not know the contents of the Will, the handwriting experts opinion must be weighed. However,
the Court below seems to have missed this point,
stating that “there is no requirement that a testator initial the pages of a will for it to be valid
instead, all that is required in this regard is that it
have been signed at the end thereof”
5. The 2014 Will documents paper were invalid
itself. The Will said the testator was “she” instead
of “he”. (Exhibit I,1) The witnesses’ affidavit for the
Will had its date crossed out and was changed from

234a
2006 to 2014. According to the law, an affidavit
must be all typed or in all handwritten, but mixing
the two means there was an alteration and should
not be consider valid. (Exhibit I,2) This issue was
ignored by the court below as well.
6. They have no valid document to support the
2014 will. They only have attorney drafter’s testimony. His statement after Teresa died “Mr. Sydney
had come to embrace (Palmeri) as his own family”.
(Exhibit K2 Page 2 line 12-15). The only document
they presented was a piece of a paper that was purported to be written instructions for the revision of
the prior will made by Testator and provided the
Attorney-Drafter of the Will. However this document does not look like it was written by a 95 year
old blind man but looks like it was made by computer (Exhibit I). My father’s signature on the Will
shows that he could not sign in a straight line.
(Exhibit I,1) However this note they present purporting to be instructions on how to revise the Will
was written with a strong stroke, in a straight line
and the lettering appears to identical. That note
mentioned nothing about the 2014 Will. The Attorney-drafter Curtin testimony is the sole backup to
this note to the following concerning the purported
note. There is no video or phone tape as back up
but only relies on Attorney drafter’s credibility.
7. As a matter of a fact Curtin’s credibility is
questionable. In his first affirmation he mentions
how competent Sydney was he did not mention
Sydney’s vision status at all (Exhibit K2). He only
conceded this fact when the problem was brought

235a
up by the appellant. He refused to admit the appellant’s mental disability when characterizing Appellant’s harassment of his father. Further, He
testified that a maid took my father to his office the
day of the execution of the will, but none of the witnesses or the Attorney could describe her race, or
age. (The petitioner also refused to provide the
information.) It is possible that it was Diana
Palmeri who took the testator to the office that day,
because she once admitted that the first time she
met Attorney Curtin was on the day the Will was
signed. She denied it later because she had to pretend that she had nothing to do with the will and it
was all Sydney’s decision. Judge in the below court
agreed that not remember anything about the maid
is acceptable.
8. Beside Curtin’s affirmation, there were six
people who made affirmations to support the Proponent of the Will. Those people were not close to
the testator and it is impossible for them to know
what was in Sydney’s mind. In regards as to why
Sydney gave the Palmeri family that kind of money
those affirmations are useless. If Sydney loves
them so much and decided to give them all his
assets, he should at least show his affection in
some way and at some time. Even with one piece
strong evidence they do not need those affirmations. They not only created paper they also tried
hard to reject records that bother them, including
paper provided by them or those that have been
tiled in the court. (Exhibit K2, Page 10 to Page 14).

236a
The fact that the last Will is a radical departure
from prior testamentary schemes, consider the following: From the first Will to the last Will,
Palmeris’ inheritance increased from 50,000 dollars to 9.9 million dollars. The Fields family’s share
decreased from 6.5 million dollars to nothing. The
charity’s share decreased from 4.5 million dollars
to $1,500. That is why the Attorney General filed
objections to probate dated 3rd, June,2016. (Exhibit D) It is inappropriate to allow them to have a
decree of probate before the appeal is over. I hope
judges seriously consider our arguments and give
this case a fair judgment.
We are now asking this Court to stay the Executor of the Last Will and Testament of Sydney
Fields, appointed in the Court below, from disposing of any of the assets of the estate prior to a final
decision by this Court of the Appeal from the Court
below, and to any further relief this Court may
deem appropriate.
Thank you for your attention
Your truly Richard Fields
/s/

RICHARD FIELDS

State of: New York
County of: Nassau
The forgoing document was acknowledged
before me 21 day of August, 2018
/s/
KAM WAH HUNG
Kam Wah Hung, Notary Public
My Commission Expires April 7, 2021

237a
KAM WAH HUNG
Notary Public, State of New York
Reg. No. 01HU6357312
Qualified in Nassau County
Commission Expires 04/17/2021

238a
EXHIBIT LIST
EXHIBlT A: Summary Statement on Application
for Expedited Service and/or Interim
Relief
A1: Filing for a stay by Richard Fields
EXHIBIT B: Decree of probate in the Surrogate’s
Court
B1: Affirmation in opposition to an interim stay.
EXHIBIT C: Decision and order by Rita Mella in
the Surrogate’s Court
EXHIBIT D: NY State Attorney General’s objections to probate regarding Case
#2016-111
EXHIBIT E: Pages of Vanguard’s phone transcripts about the testator’s vision.
E1: Medical record about the testator’
vision ( Sep to Dec 2014)
EXHIBIT F: Page of deposition transcript of
Curtin said Sydney can read.
F1: Page of deposition transcript of
Curtin said no reading out loud in
Will execution.
EXHIBIT G: Sydney’s brief autobiography.
EXHIBIT H: Richard Fields’ harassing pictures he
sent to his father.

239a
H1: Page of court papers against Richard
Fields from 1995-1996.
H2: 1997 Will of Sydney Fields (included
Richard as a beneficiary).
EXHIBIT I: Noted that back up 2014 Will. (well
done but with only name and number)
I1: Last Will of Sydney Fields dated Oct
6, 2014. (signature)
I2: Witness affidavit for the 2014 Will
(with alterations).
I3: Handwriting expert’s report about
the forgery initial.
EXHIBIT J: Brief of the Appeal for Case #2016111 from Richard Fields.
EXHIBIT K: Jules Martin Haas, Esq. letter to the
court dated March 27, 2017
K1: Notice of Motion by Albert V. Messina,
Esq. dated August 3, 2018.
K2: Curtin’s affirmation date April 19,
2016
EXHIBIT L: Richard’s response to the motion on
August 3, 2018.

240a
SUPREME COURT OF THE
STATE OF NEW YORK
APPELLATE DIVISION: FIRST DEPARTMENT
Case #2016-111
PROBATE PROCEEDING, WILL OF
SYDNEY H. FIELDS
Deceased.

Respond to Affirmation on the
3rd of Aug., 2018
This is the response to the affirmation of Albert
V. Messina Jr., Esq., dated August 1, 2018. They
said our response to that “cannot be less than seven
days before the return date of this motion.” We
received their affirmation on the 8th of July and we
met the deadline they set.
This response was prepared by my son’s mother
Pia Fields who once was appointed as a trustee for
Lewis Fields by the testator Sydney H. Fields. I
might be involuntarily sent to a hospital at any
time right now. After the hearing and before the
Surrogate’s Court decision was made I wrote down
an affirmation saying that when I was not available Pia would take care of my case. I cannot concentrate myself on this court case and I have no
money to pay legal fees. I am Pro Se in this appeal
and believe I can get help from a person who is not

241a
attorney. My ex-wife was married to me for more
than twenty years and we are still like family
members. My getting help from her is not against
the law. The petitioner attacked us for that because
she would simply win the case if Pia did not interfere. All the issues in this case were decided upon
by her and discussed with me. I corrected her
spelling and grammar mistakes.
Pia Fields is sixty seven years old and still works
in full-time. She can have nine months to prepare
this appeal of the case. Yet written in her second
language, she finished the all of the documents and
printed them in two books within a month. Now
due to the order they made she finished this response
in four days. (I received it on 6th of August and forwarded it to her on the night of 7th of August.)
I noticed that the respondent was unable to submit her respondent’s brief on August 8, 2018 and
they asked for an adjournment of this appeal to
November, 2018.They had time for the decree
granting probate dated July 20, after they received
our brief and appendix for the appeal and they did
not have time to prepare their response brief. They
had three lawyers working for two years on this
case and they cannot be prepared for the hearing in
October, 2018? They cannot make it because it is
easy to make up a story but not easy to make up a
fact. They told enough lies: we received no document related to the decree granting probate and
we got no notification from the Surrogate’s Court
either. They are liquidating the assets of the
estate. I hope our judge will ignore their excuses

242a
and keep that hearing date and consider they failed
to submit their brief in time.
In general the affirmation of the 5th of August
ignored our major arguments. They did not mention Sydney Fields’ vision problem at all. If our
argument was fallacious they should have fought
back immediately. They were unable to prove why
the testator Sydney H. Fields loved those nieces
and nephew more then he loved his wife, their
aunt. All their attorneys did is play games, disqualify people, dismiss documents, and questioned our
procedures for filing the appeal.
People who work in the clerk’s offices of both
courts are professional. They refused to send out or
accept anything that did not meet their requirements and standards. We hand-delivered the
appeal document to their Movant Attorney Jules
Martin Haas in his Third Ave. office. Their other
attorney Albert V. Messina Jr. emailed that to all
the related parties on the same date of the 24th of
April. They had no way to say that they did not
know about the appeal. We reprinted the brief and
Appendix based on the instructions of the clerk of
the Supreme Court until they met the requirements. As long as the appeal was accepted the case
is in the court. Attacking the procedure to dismiss
the appeal is their strategy. We have only a few
days to finish this response and it is unnecessary to
discuss the filing procedure. We are going to discuss their attacking regarding omitted necessary
documents and injected new documents.
The clerks in the Supreme Court told us that not
all the documents but all the motions must be

243a
included in the appendix. It must be able to show
how the respondent thought. Since there are hundreds of documents we omitted all the exhibits in
our own motion and focused on introducing theirs.
We did not put depositions related to our own. We
kept all the exhibits in their first motion in
which they presented pictures, court papers, and
Sydney’s handwritten paper accusing the appellant
of harassing his father. We also kept their last
motions even though they had two attorneys who
wrote the same thing. In the appendix out of 600
pages at least 400 pages reflect the petitioner’s
opinion. Still they felt unsatisfied and wanted to
dismiss it.
They complained that the papers related to the
criminal court and IRS were omitted in the appendix. The appendix did mention that Sydney once
brought Richard to the criminal court (under
Kenneth’s pressure). Sydney felt upset about his
tax returns being released because of Richard’s
request through forgery. However, he did not really
hate Richard during that period. After all those
things happened, he still put Richard in his Will.
The money left to Richard was seven times more
than the $5,000 that he left to Diana whom he
knew for more than twenty years. That was the difference between blood and water in his mind. No
matter how Diana attacked Richard as a criminal,
she could not go anywhere because Richard lost his
mind at that time.
Besides that if important things were omitted
like the petitioner’s claim in the appendix, why didn’t they simply attach them in their affirmation?

244a
They said “it is unfair and impractical to expect
Respondent to reproduce a proper record.” Because
it needed “hundreds of omitted necessary pages to
argue that this appeal is based upon the facts.” If
that is the case, they have no basis to claim the
estate at all. They don’t need hundreds of papers,
all they need is a letter written by Sydney saying
how much he loved them or a video record explaining the distribution of the Will. They don’t have
that. They have difficulties to give the facts
because they can never prove why they deserve
Sydney’s love and money. (A few hundred copies of
the festival greeting cards were sent by Teresa and
were hardly signed by Sydney.) Sydney leaving
them all his assets is not a fact. The fact is that
they tried to take advantage of a family that has
three mentally disabled members.
To get the assets of the estate they have to rely
on perjury in the Attorney-drafter’s affirmations.
First of all he attested that Sydney embraced the
Palmaris as his own family members. He then had
to attest that Sydney was the only one who handed
a note to him. That note had only names and numbers. For that reason he has to attest that the note
did relate to the distribution of a Will. He had to
point out that the numbers were connected to
Sydney’s entire assets. He then attested that there
were telephone conversations switching the 5%
back from Diana and Victor
Saying it correctly, the petitioners need hundreds of papers to make affirmations and filed
them in the court. They felt unhappy because the
appendix did not include the half dozen affirma-

245a
tions she accumulated from unrelated people. The
appendix does not have all the papers to attack
Richard again and again like they wanted. Those
are the documents they claim are omitted.
Let us discuss about the new injected documents.
Any document as long as it is transferred and recognized by the other party before the deadline can
be used in the trial court. We didn’t get a chance for
a trial and the decision was made within one hour.
The court then refused to accept our documents
because the case was being appealed. The documents accumulated in the discovery period were
accepted by the trial court and are supposed to be
allowed to be used in the appeal. It is ridiculous
that they used the issue of whether or not they
were filed in that court as the basis to reject our
documents including the documents they are using.
Documents they rejected include:
1. Letters, orders, and decisions concerning a
proceeding for grandparent visitation in the New
Jersey Superior Court and handwritten autobiographies of Sydney Fields. Those actually are
court papers provide by the petitioner. They rejected the documents now because those documents
prove Sydney’s affection towards his family and
they show why the Fields family fell apart.
2. Subpoena Duces Tecum for Dr. Janet Searle
was ordered by the petitioner and forwarded to the
objectant. It confirms that Sydney’s vision problem
was serious. An ophthalmological record proves
Sydney H. Fields was totally blind in both eyes two
months after he signed the Will. They didn’t like to
recognize this.

246a
3. Edward Curtin’s affirmation of April 19, 2016
stated Sydney’s health situation and did not mention anything about his vision problem. The four
provisions he made in the Will he executed did not
consider Sydney’s vision problem. It proves that
the process was unduly executed and it hurt Curtain’s credibility. They wanted to hide the fact and
they rejected his affirmation.
4. They even rejected the transcript of the deposition related to Edward, Jill Curtin, and Diana
Palmeri. Something we quoted such as Curtin’s
affirmation about the Will signing is exactly same
as what they quoted. Curtin’s answer shows that
he committed perjury. That was why they had to
deny it. Actually the deposition was recorded by
the same person and the transcription was provided
by the same place. How come when the petitioner
used it the record was valid and when we used the
record, it was invalid? The documents filed in the
court or not are the standard the petitioner used to
mislead the Supreme Court. Again, their logic
reflects their poor credibility.
5. They reject all the telephone transcripts provided by Vanguard because it told something different from what they said. They filed affirmations
by whomever in the court and made them valid.
They meanwhile dismissed the phone records with
the testator’s speech and made them invalid.
6. They even rejected the letters Richard wrote
to Curtin. Those letters once made them panic and
they even asked for hearing from the court. They

247a
rejected those letters because they prove they knew
Richard’s mental state but did not mention them
in their motions. It hurt their credibility and they
didn’t like that.
In general the documents they considered were
injected actually are things that they tried to omit.
The documents they did not like the most was the
Attorney General’s letter about this case. They said
that was already rejected by the Court. Even
though the letter was rejected by the court, it
should be filed somewhere as a document. The
appendix can include all the court papers. That the
letter from the Attorney General was rejected does
not mean that their opinion was wrong. However,
in the petitioner’s mind the Surrogate’s Court
means everything.
Basing on their logic they already are ignoring
the appeal and the Supreme Court because Judge
Rita Mella already adjudicated their case. As a
matter of fact after the appeal process in the
Supreme Court they made a decree granting probate in the Surrogate’s Court and had Judge Hon.
Rita Mella admit it to probate. They said they had
no time to prepare the respondent’s brief and they
had time to celebrate their victory. They appropriated 9.9 million dollars without a bond deposit at
this time. We hope the judges in the Supreme
Court show them the power of the law: give no
adjournment to this appeal and consider that they
are failing to submit their respondent’s brief.
Dated: August 11, 2018

248a
Yours Truly,
Richard J. Fields
To: Albert V. Messina Jr.

249a
Dear Judge in the Supreme Court:
The above response reflects my opinions about the
petitioners affirmation dated August 3, 2018. I
hope the judge seriously considers their perjury
and their fallacious logic regarding this case.
Thank you for your attention.
Yours Truly,
Richard J. Fields

250a
Gmail–For case 2016-111

Page 1 of 1

[GMAIL LOGO]
Jules Haas <attorney.haas845@gmail.com>
For case 2016-111
Sun, Aug 12, 2018 at 10:21 PM
Pia Fields <piachan1016@yahoo.com>
To: Jules Haas <attorney.haas845@gmail.com>
Mr. Haas: Thanks for your respond and instruction. That motion is for let you know what we are
concern. Tomorrow I will hand delivery a motion
with Richard’s affidavit and the copy of the Court’s
decree of probate to you. The Supreme Court needs
you to be there when they start the process. I hope
you can co-operate and set up the time asap. if you
meet the appointment you at least can get legal fee
from the petitioner. If you ignore us you will get
trouble for we never receive your document relate
to the decree of probate. I believe you know the difference. It is not worth for some fee to do thing over
the limit. If they have strong back up material and
that is a good will Curtin can just take care of the
case and do not need to spend big money on you.
They need some one function as their gun. I sent
our respond regarding to your Aug, 5 affirmation in
a certified mail to Albert Messian on Saturday.
Attach it in this email and will give you a affidavit
page tomorrow.

251a
Tomorrow 4:30 Pm. I will be in your office 805 third
Ave.
Thank you for your attention.
[Quoted text hidden]
[Attached Document Respond.docx
26K]

252a

EXHIBIT 13

253a
SUPREME COURT OF THE
STATE OF NEW YORK
APPELLATE DIVISION: FIRST DEPARTMENT
Case 2016-111
08/10/18
PROBATE PROCEEDING, WILL

OF

SYDNEY H. FIELDS
Deceased.

NOTICE OF MOTION
P LEASE T AKE N OTICE that the affirmation of
Richard Fields dated August 10, 2018 is an order to
the Petitioner-Respondent Diana Palmeri. She
need be stopped decree from using the granting
probate of the Will of Sydney H. Fields. Their
actions seriously violated the law for the reasons
below:
1.

They decree granting probate after knowing that the appeal was accepted by the
NYS Supreme Court-Appellate Division:
First Department.

2.

They did not notify the Appellant Richard
Fields of the action they took.

3.

The Judge and Court did not send their
decision to the Appellant. The Appellant

254a
noticed it from a record room 10 days after
the decision made.
The Appellant has strong evidences to prove
that the Respondent Diana Palmeri and her
attorney committed perjury. Sydney Fields
could not read typed words when the Will was
signed and the Will execution they provided
was not at all for a blind man.
We therefore request that the Appellate
Division First Department stopping the petitioner from liquidating the 9.9 million dollar
assets from the husband of their aunt who
predeceased him. Sydney never even gave all
his assets even to his wife Teresa Fields. Even
their aunt did not leave each of those nieces
and nephew as what the probated Will did.
They presented no evidence to prove that
Sydney embraced them like family members
and they just have the Attorney-drafter making affirmations. At this moment the way they
act like is to steal and run. People who assisting her will be hold the responsible as well. We
are ready to see you anytime this week. If get
no respond about that, we will wait for you in
Friday, 17th Aug, 9AM in the Supreme Court.
We set the time in case you are not co-operate.
This is the final motion.
Your sincerely Richard J Fields
/s/ RICHARD J FIELDS

255a
CC: Albert V. Messina JR
Jules Martin Haas
Clark of Surrogate’s Court
David Lawrence III (NYS Attorney General)
The foregoing document was acknowledged
before me this 10th day of August 2018
/s/
LANETTE BARNES
Notary Public
LANETTE BARNES
Notary Public, State of New York
No. 04BA6349837
Qualified in Bronx County
Commission Expires Oct. 3 [ILLEGIBLE]

256a

EXHIBIT 14

257a

258a

259a

EXHIBIT 15

260a

261a
SUPREME COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
Index No. 101305-18
Richard J. Fields
Plaintiff,
Against
Diana Palmeri
Defendant
Complaint
TO THE SUPREME COURT OF THE STATE
YORK, COUNTY OF NEW YORK

OF

NEW

The complaint of the plaintiff, Richard Fields,
respectfully shows and alleges as follows
1.

The plaintiff herein, Richard Fields, is
supported by the SSI program due to a
mental disability. He resides at 2830
Pitkin Avenue Brooklyn, NY 11208. (A
facility for psychiatric patients funded by
the government.)

2.

The defendant herein, Diana Palmeri,
resides at 80 Forest Avenue Paramus, NJ
07652.

3.

Diana Palmeri is the niece of Teresa Fields,
my father, Sydney Fields’ pre-deceased
third wife. In 2016 Diana Palmeri filed

262a
Sydney Fields’ purported third Will in the
New York County Surrogate’s Court in
Manhattan. She is the executor and one of
the beneficiaries under this purported
Will. Her family members are also the
sole beneficiaries under this purported
Third Will. The decision of the Surrogate’s
Court to probate the Third Will is currently being appealed.
4.

There are many suspicious elements in
this purported Third Will, which I challenged during the court proceedings in
that court.

5.

The Third Will is a radical departure from
the previous extant Wills executed by my
father. From the first Will to the third
Will the share of the Palmeri family
increased from $75,000 to 9.9 million dollars, and the Fields family’s share deceased
from 6.5 million dollars to nothing. The
share of the estate left to various charities
decreased from 3.5-5.0 million dollars to
$1,500. (Compare three Wills in Exhibit
A). For that reason the Attorney General
of New York State believed something was
wrong in this purported third Will and
attempted to intervene. (Exhibit B)

6.

As a matter of fact the defendant mislead
the judge by committing perjury. At this
time there is a decree of probate that
allows them to distribute the money from

263a
the estate without a bonded deposit.
(Exhibit C)
7.

The manner of execution of the Third Will
raises many questions as to its authenticity. The Will was signed on Oct 6th 2014
when the testator Sydney Fields was 96
years old. However, five days before the
signing ceremony Sydney spoke with his
broker from Vanguard and claimed that
with a magnifying glass he could only
read large print but not the typed words
on paper. Vanguard’s telephone recording
system recorded his conversation. (Exhibit
D) According to medical records: Sydney’s
one eye was totally blind and one eye was
legally blind in Sept. 2014. Two months
later both his eyes were considered fully
blind. (Exhibit D1). However, Diana
Palmeri, the attorney-drafter Curtin, and
his wife attested that my father could
read documents by using a magnifying
glass. (Exhibit E) Being misled the judge
in the court below determined my father’s
vision based on what the attesting witnesses said “there was a magnifying
glass.” (Exhibit C1 Page 4)

8.

The attorney drafter Curtin admits that
he never read the Will out loud in front of
the witnesses. (Exhibit E1) That means
the process he provided was not duly executed for people who could not read. The
judge in the court below made a decision

264a
without reviewing the procedures and
simply said a “blind person may make a
Will” (Exhibit C1 page 5). Matter of
Hubert 26 Misc. 461 57 N.Y. Supp. 648
Affd. 48 App Div. 91, 62 N.Y. Supp. 932 98
quoted in Annotated Consolidated Laws of
New York 1917. Also see Matter of MacCready 82 Misc. 2d 531, 369 N.Y.S. 2d 325
(1975) with reference to execution for the
blind where valid execution was found
where the Will was read aloud to the testator in the presence of the witnesses, and
the testator then declared that which was
read to be his Will, and made his crossmark and also “If the Testator is blind or
cannot read, the will should be read to
him in the presence of the witness” Weir
v. Fitzgerald 2 Brad. 42.
9.

The Will that the witnesses signed said
the testator was “she” not “him.” (Exhibit
A last page of 2014 Will) It could mean
that they were not there when the Will
was signed. The date of a typed affidavit
for that Will was altered with a pen, and
changed from 2006 to 2014. (Exhibit A
2014 Will affidavit page) By law a notary
public would not accept a typed document
that was altered with a pen. The judge in
the court below did not think the errors
are an issue.

10. My handwriting expert Mr. Curt Baggett
confirmed that the initial on a page was a

265a
forgery. (Exhibit F) That page contained
the entire terms of distribution and substituting it can alter the whole Will. Since
the witnesses did not know the content of
the Will and therefore nobody could confirm that the purported Third Will that
was offered for probate was the same one
that my father signed. The judge in the
court below ignored our argument about
the forgery for the reason that: “There is
no requirement that a testator initial the
pages of a Will for it to be valid.” (Exhibit
C1 Page 6).
11. After my father signed the Will he took it
home with him where it was “discovered”
after his death by Diana Palmeri. The
attorney did not keep a copy.
12. The paper they presented to back up the
Will was not complete and also raises the
suspicion of forgery. It did not mention
the Will draft at all but had only names
and numbers. (Exhibit G) It had no date,
no signature, and no stamp. Only the
attorney drafter attested that the instrument was presented to him by my father
and related to the distribution of his
assets. Besides that, the names on that
note were written identically with a
strong stroke and in a straight line. As a
96 year old blind man, my father could not
even sign his name in the same way and
on the same line. (Samples in Exhibits F

266a
& G) That note looked more like it was
made by copying and pasting on a computer. The judge in the court below ignored
my argument because “the attorneydrafter testified that. . . .” (Exhibit C1)
13. A few days before the Will was signed,
Sydney Fields arranged a fund transfer
from his wife’s accounts back to his individual account and Diana Palmeri did not
know about this until a broker mentioned
it 1.5 years later. It is obvious that my
father was trying to assert control over
his money, and did not trust those to
whom the purported third Will left this
money. (Exhibit D) The judge in the court
below ignored the action that my father
took but only accepted that attorney’s testimony.
14. All the important issues related to the
Will are based on attorney Curtin’s affirmation but Curtin’s credibility is questionable. They said it was a maid who
brought my father to the office that day.
However, none of witnesses could identify
any physical characteristics of this maid,
neither her race nor her apparent age.
They refused to provide the contact information for the maid as well.
He hid the vision problem Sydney had in
his earlier affirmation. (Exhibit I Pages 1
& 2) They noticed my mentally disability

267a
(Exhibit J) but chose to ignore it. They
told the judge that harassing my father is
the reason why I could not get the inheritance.
As a matter of fact my father knew my
mental status (you can tell from my
expression in those pictures I sent to
him). After receiving the harassing pictures and filing orders of protection in
1995 and 1996 (Exhibit H) my father still
left me money in the 1997 Will (Exhibit A
Will of 1997). I did not bother and upset
my father since then. It is weird that in
2006, nine years later, he got mad at me
and left his family members almost nothing. It was because someone unduly influenced him. How Diana Palmeri unduly
influenced the judge is how they unduly
influenced my father in those years. My
father was 90 years old and lost his vision
day by day. He was under duress in that
kind of situation and he had to listen to
the people he relied on. He had to make
some execution to accuses his owe family
when he allowed his wife to control more
of his assets. However, it does not mean
the defendant can use the words my
father said twelve years ago to attack me
today. (Exhibit K Page 2, last paragraph)
Beside that it was my mother’s lawyer
who convinced me to go against my father.
He kept the money and gave me nothing
eventually. That is how a lawyer made

268a
attesting and cheating me then. People
did the same thing as well today. Therefore I need evidence about what my father
actually said in 2014 not just a lawyer’s
attestation. Time could wash away many
unhappy things particularly between a
father and son whose blood is thicker than
water. My father might try to give money
to his own family when he had the portion
back from his deceased wife. My father
loved us very much. He would not leave
his children nothing. (Exhibit K)
15. Diana Palmeri believed the Fields family
members did not deserve the inheritance
because we did not contact each other for
20 years. However, why the Palmeri family is deserving is unexplained, because
they also had little contact with my
father. As a matter of a fact my father
hardly saw those petitioners in the last
two decades as well. (They live in Hawaii,
Ecuador, Argentina, and North Carolina).
Those who live in New Jersey only met my
father a few times a year on holidays. My
father never spent an overnight in their
homes. They did not and could not explain
WHY my father loved them more than he
loved his wife (their aunt). Under the second Will of 2009, even their aunt would
get 50% of my father’s assets if he predeceased her (Exhibit A, 2006 Will) but
under the alleged Third Will her nephews

269a
and nieces get 100% of these assets. Also
their aunt did not give even her assets to
each of those nieces and nephews as the
purported Third Will provides. They cannot prove that my father embraced them
like family members but only had an attorney say so through attestation. (Exhibit I
Page 2) The court below did not question
the unsupported change in the probated
Will and allowed the defendant to step on
a person who was a mental disability.
At this moment there is a decree of probate that
does not require the defendant to post a bond. They
will take away all of my father’s 9.9 million dollars
and leave me on SSI.
T HEREFORE , the plaintiff demands an order
directing the defendant, Diana Palmieri, as Executor of the Last Will and Testament of Sydney
Fields, not to distribute the estate of Sydney Fields
until the appeal ends in the Appellate Division
First Department. Thank you for your attention.
Dated: September 5, 2018
Richard Fields
Signature
2830 Pitkin Avenue Brooklyn, NY 11208

270a
[After writing your complaint, notarize and
attach this verification to confirm that it is
true]
VERIFICATION
STATE

OF

COUNTY

NEW YORK

OF

QUEENS ss:

Richard J. Fields, being duly sworn, deposes and
says:
I am the plaintiff in the above-entitled action. I
have read the foregoing complaint and know the
contents thereof. The same are true to my knowledge, except as to matters therein stated to be
alleged on information and belief, and as to those
matters I believe them to be true.
RICHARD FIELDS
[sign your name in front of a Notary]
RICHARD FIELDS
[print your name, address and phone
no.]
Sworn to before me this
4 day of September, 2018
/s/
KAM WAH HUNG
Notary Public

271a
KAM WAH HUNG
Notary Public, State of New York
Reg. No. 01HU6357312
Qualified in Nassau County
Commission Expires 04/17/2021

272a
Index
Exhibit A: Wills of 1997 and 2006 and 2014
Exhibit B. Attorney General’s Letter of Objection
Exhibit C. Surrogate’s Court Decree of Probate
Exhibit C1. Surrogate’s Court Decision and
Order
Exhibit D. Page of Vanguard’s Telephone Transcripts recorded that Sydney cannot read.
Exhibit D1. Doctor’s notes about Sydney’s vision
Exhibit E. Pages of Deposition related to the
defendant and the Attorney-drafter’s perjury.
Exhibit E1. Attorney-drafter did not read the
Will out loud in front of the witness.
Exhibit F. Handwriting expert’s letter about the
initial forgery.
Exhibit G. Testator’s “handwritten notes” for the
probated Will.
Exhibit H. Harassing pictures and documents
related to the court order.
Exhibit I. Attorney-drafter’s affirmation of April,
2016
Exhibit J. Attorney for the defendant’s letters and
complaint about the plaintiff’s mental status.
Exhibit K. Testator’s brief biography. It shows his
affection to his family.

273a

EXHIBIT 16

274a

275a

276a

277a

278a

EXHIBIT 17

279a
SUPREME COURT OF THE
STATE OF NEW YORK
APPELLATE DIVISION: FIRST DEPARTMENT
File No.: 2016-111
Probate Proceeding,
Will of
SYDNEY H. FIELDS,
Deceased.
NOTICE OF ENTRY
PLEASE TAKE NOTICE that the within is a true
and correct copy of an Order of the Appellate Division of the Supreme Court, First Judicial Department entered in the office of the clerk of the within
named Court on September 25, 2018.
Dated: Huntington, New York
September 25, 2018
/s/
ALBERT V. MESSINA JR.
Novick & Associates, P.C.
By: Albert V. Messina Jr., Esq.
Attorneys for Respondent Diana Palmeri
202 East Main Street, Suite 208
Huntington, New York 11743
(631) 547-0300

280a
TO:
Richard Fields
Objectant/Appellant Pro Se
2830 Pitkin Avenue
Brooklyn, New York 11208
New York State Attorney General
Division of Appeals & Opinions
Respondent
28 Liberty Street
New York, New York 10005-1400
Edward Curtin, Esq.
Counsel for Respondent
220 West 71st Street, Suite 31
New York, New York 10023
Jules Martin Haas, Esq.
Co-Counsel for Respondent
805 Third Avenue, 12th Floor
New York, New York 10022

281a
Surrogate’s Court
M-3860
M-4076
File No. 2016-111
At a Term of the Appellate Division of the
Supreme Court held in and for the First Judicial
Department in the County of New York on September 25, 2018.
PRESENT:
Hon. David Friedman,
Barbara R. Kapnick
Marcy L. Kahn
Ellen Gesmer
Cynthia S. Kern,

Justice Presiding,

Justices.

Probate Proceeding, Will of
Sydney H. Fields,
Deceased.
An appeal having been taken by objectant-appellant Richard J. Fields from an order of the Surrogates Court, New York County, entered on or about
March 26, 2018, and said appeal having been perfected,
And appellant Richard J. Fields having moved to
reverse the probate decree, and to stay petitioner
from liquidating the estate assets (M-4076),

282a
And petitioner-respondent having cross-moved to
dismiss the aforesaid appeal or, in the alternative,
to strike certain portions of the appellants appendix and brief, to adjourn the appeal to the November 2018 Term, and for other relief (M-3860),
Now, upon reading and filing the papers with
respect to the motion and cross motion, and due
deliberation having been had thereon,
It is ordered that the cross motion by petitioner
is granted and the appeal is dismissed (M-3860).
The motion by appellant to reverse the probate
decree and stay petitioner from liquidating the
estate assets is denied (M-4076).
ENTERED: September 25, 2018
/s/

ILLEGIBLE
CLERK

283a
SUPREME COURT OF THE
STATE OF NEW YORK
APPELLATE DIVISION: FIRST DEPARTMENT
File No. 2016-111
PROBATE PROCEEDING, WILL

OF

SYDNEY H. FIELDS
Deceased.
STATE

OF

NEW YORK

)
ss:

COUNTY

OF

SUFFOLK

)

AFFIDAVIT OF SERVICE
Albert V. Messina Jr., being duly sworn deposes
and says: deponent is not a party to the action, is
over the age of 18 years of age, and is employed at
Novick & Associates, P.C., 202 East Main Street,
Suite 208, Huntington, New York 11743.
On September 25, 2018, deponent served a
Notice of Entry upon:
Richard J. Fields
Objectant-Appellant Pro Se
2830 Pitkin Avenue
Brooklyn, New York 11208
FedEx Tracking: No.7733 2012 5376

284a
Attorney General of the State of New York
Division of Appeals and Opinions
Respondent
28 Liberty Street
New York, New York 10005
FedEx Tracking No.7733 2008 2612
by depositing a true copy thereof with Federal
Express Overnight Delivery.
/s/

ALBERT V. MESSINA JR.
Albert V. Messina Jr.

Sworn to before me this
25th day of September, 2018
/s/

JAKYUNG CHOI
Notary Public
JAKYUNG CHOI
Notary Public, State of New York
No. 02CH6218756
Qualified in Nassau County
Commission Expires March 8, 2022

285a

EXHIBIT 18

286a
SUPREME COURT OF THE
STATE OF NEW YORK
APPELLATE DIVISION: FIRST DEPARTMENT
Index No. 2016-111
RICHARD FIELDS (PLAINTIFF)
AGAINST
DIANA PALMERI (RESPONDENT)
Notice Of Motion For A Poor Person To
Request To Reopen The Case Of
PLEASE TAKE NOTICE that upon the annexed affidavit of Richard Fields sworn to the 20th day of
October 2018, the Undersigned will move this
Court at a term there of to be held at the Appellate
Division Courthouse locate at 25th street and
Madison Avenue, New York, N.Y., 10010, on the
13th day of November, 2018 at 10:00 am, for an
order to vacate the judgment dismissing the case of
index #2016-111
Dated: 25th Oct/2018
/s/ RICHARD FIELDS
Richard Fields
2830 Pitkin Avenue
Brooklyn, NY 11208
To: Jules M. Haas (Respondent’s attorney)
805 Third Ave 12 floor
NEW YORK, NY 10022

287a
SUPREME COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
Case #101305-18
RICHARD FIELDS,

Plaintiff
—Against—

DIANA PALMERI,

Defendant

Cross motion
16th Oct, 2018 Motion
I, Richard Fields, request that this court to
reverse the probate decree issued by the Surrogate’s Court and stay Diana Palmeri from liquidating the assets of the estate of Sydney Fields. Diana
Palmeri has no blood relationship with Sydney.
Her aunt was Sydney’s third wife who predeceased
him and they were New Yorkers before they died.
Diana had an unduly Will execution from the
lawyer Edward Curtin who practices in New York
City. His affirmations made the Palmeris’ inheritance increase from $50,000 to 9.9 million dollars
and made the charity’s share decrease from 3.5 million dollars to $1,500. For that reason the NY State
Attorney General believed the Will was involved
with a felony. They probated the Will in the Surrogate’s Court of the County of New York. Now they
claim that the New York State Supreme Court has
no jurisdiction over Diana Palmeri because she

288a
lives in New Jersey. In their opinion criminals from
outside of the state can commit whatever crimes
they want to commit and the courts in New York
have no right to prosecute them. They are not honest people and tell lies by making affirmations.
Below are the games they play to dismiss my case
and obtain the probate decree in the court below:
1.

Two months after the Will was signed on the
6th of Oct, 2014, a doctor confirmed that both
Sydney’s eyes were blind but not just legally
blind. On the 1st of Oct, Sydney claimed that
he could not read typed words on paper and
with a magnifying glass he could only read
large print. However, Diana Plameri’s three
lawyers and one of their wives insisted that
Sydney read the Will with a magnifying glass
and for that reason the executor did not read
the Will out loud in front of the witnesses.
Their perjury made the judge consider that the
Will execution was duly and ignored my
father’s a statement that was recorded by Vanguard’s telephone recording system.

2.

Diana does not have valid documents to
explain why Sydney gave those nieces all his
money and assets but in the previous Wills he
only allowed their aunt, his wife, to control
50% of his estate (in case he predeceases her).
The documents Diana presented were either
outdated, invalid, incomplete and/or were
involved with forgery. Her witnesses did not
know the content of the Will and they could not

289a
prove that the Will they probated is the same
Will that Sydney signed. She could have
changed the whole Will by forging an initial on
the distribution page. The note they used to
support the 2014 Will did not have a word
related to the Will. It has no date and no signature but only has names and numbers. A number “40” next to Diana Palmeri’s name could
mean 40 thousand dollars, 40 pennies, or 40
apples but not 40%. That is why she needed
Curtin to testify that the note was given by
Sydney; the numbers should tie up with the %
and indicate the distribution of all Sydney’s
assets. Curtin also had testified that the final
% in the Will was switched from 5% from Diana
to Victor, who was also basing his claims on his
discussions with Sydney on the telephone.
Again they did not record any related conversation.
3.

Besides the note, all important issues related
to the Will were solely based on Curtin’s testimony, such as: Sydney considered the Palmeris
to be like his family members; Sydney indicated to use his words in 2006 to support the 2014
Will and made sure his children and grandchildren got nothing; Sydney still blamed me even
though I did not bother him for 20 years;
Sydney could read the Will by using a magnifying glass. Again a 9.9 million dollars estate
was based on someone’s affirmations without documentation.

290a
4.

Diana’s and Curtin’s credibility are questionable. In his earliest affirmation Curtin claimed
that Sydney was in perfect situation to make a
Will before signing the Will. To hide Sydney’s
vision problem he chose not to mention it. They
did notice my mental problems and even asked
the court to stop me. However, they knew the
only way to get the estate is by attacking me
for harassing my father and they knew the law
rarely punished mental patients. To meet their
goals they purposely did not mention my situation and made the court simply accept their
accusations. Diana said she deserved my
father’s money and assets because the Fields
family did not contact each other for twenty
years. As a matter of fact there were three
mentally disabled members in the Fields family and that messed up their relationship all
those years. Diana took advantage from such a
sad situation. I am living on SSI and still
receiving medical treatment today. It is not
fair to let the government support me and
allow them to take my father’s money and
assets by committing perjury. The court should
stay her from liquidating Sydney’s estate
before a decision is made.
Thank You.

291a
Yours Truly,
/s/ RICHARD FIELDS
Richard Fields
2830 Pitkin Avenue
Brooklyn, NY 11208
CC: Jules M. Haas
805 Third Ave 12 Floor
New York N.Y. 10022

292a
To Whom It May Concern:
Please review the cross-motion above and order a
stay that does not allow Diana Palmeri to liquidate
the assets of the estate of Sydney H. Fields.
Thank You.
Yours Truly,
Richard Fields
/s/ RICHARD FIELDS
Subscribed and sworn to before me this
20th day of October 2018
/s/ VIVIAN CHING YING CHEUNG
Ching Ying Vivian Cheung, Notary Public
Queens County, New York
VIVIAN CHING YING CHEUNG
Notary Public, State of New York
Reg. No. 01CH6131099
Qualified in Queens County
Commission Expires July 25, 2021

293a

EXHIBIT 19

294a
Surrogate’s Court
M-5489
File No. 2016-111
At a Term of the Appellate Division of the
Supreme Court held in and for the First Judicial
Department in the County of New York on December 27, 2018.
Present – Hon. David Friedman, Justice Presiding,
Barbara R. Kapnick
Marcy L. Kahn
Ellen Gesmer
Cynthia S. Kern,
Justices.
Probate Proceeding, Will of
Sydney H. Fields,
Deceased.
Richard Fields,
Objectant-Appellant,
—against—
Diana Palmeri,
Respondent-Respondent.
An appeal having been taken by objectant-appellant Richard J. Fields from an order of the Surrogates Court, New York County, entered on or about
March 26, 2018,

295a
And an order of this Court having been entered
on September 25, 2018 (M-3860/M-4076), granting
petitioner’s cross motion to dismiss the appeal (M3860) and denying objectant-appellant’s motion to
reverse the decree and to stay the petitioner from
liquidating the estate assets (M-4076),
And objectant-appellant having moved to restore
the appeal,
Now, upon reading and filing the papers with
respect to the motion, and due deliberation having
been had thereon,
It is ordered that the motion is denied.
ENTERED:
/s/

[ILLEGIBLE]
CLERK

296a

EXHIBIT 20

297a
SUPREME COURT OF THE
STATE OF NEW YORK
APPELLATE DIVISION: FIRST DEPARTMENT
File No.: 2016-111
Probate Proceeding,
Will of
SYDNEY H. FIELDS,
Deceased.
NOTICE OF ENTRY
PLEASE TAKE NOTICE that the within is a true
and correct copy of an Order of the Appellate Division of the Supreme Court, First Judicial Department entered in the office of the clerk of the within
named Court on December 27, 2018.
Dated: Huntington, New York
January 2, 2019
/s/
ALBERT V. MESSINA JR.
Novick & Associates, P.C.
By: Albert V. Messina Jr., Esq.
Co-Counsel for Respondent Diana Palmeri
202 East Main Street, Suite 208
Huntington, New York 11743
(631) 547-0300

298a
TO:
Richard Fields
Objectant/Appellant Pro Se
2830 Pitkin Avenue
Brooklyn, New York 11208
New York State Attorney General
Division of Appeals & Opinions
Respondent
28 Liberty Street
New York, New York 10005-1400

299a
SUPREME COURT OF THE
STATE OF NEW YORK
APPELLATE DIVISION: FIRST DEPARTMENT
File No. 2016-111
PROBATE PROCEEDING, WILL

OF

SYDNEY H. FIELDS
Deceased.
STATE

OF

NEW YORK

)
ss:

COUNTY

OF

SUFFOLK

)

AFFIDAVIT OF SERVICE
Albert V. Messina Jr., being duly sworn deposes
and says: deponent is not a party to the action, is
over the age of 18 years of age, and is employed at
Novick & Associates, P.C., 202 East Main Street,
Suite 208, Huntington, New York 11743.
On January 2, 2019, deponent served a Notice
of Entry of an Order dated December 27, 2018
upon:
Richard J. Fields
Objectant-Appellant Pro Se
2830 Pitkin Avenue
Brooklyn, New York 11208
FedEx Tracking: No. 7740 9126 5145

300a
Attorney General of the State of New York
Division of Appeals and Opinions
Respondent
28 Liberty Street
New York, New York 10005
FedEx Tracking No. 7740 9131 2166
by depositing a true copy thereof with Federal
Express Overnight Delivery.
/s/

ALBERT V. MESSINA JR.
Albert V. Messina Jr.

Sworn to before me this
2nd day of January, 2019
/s/

CYNTHIA J. MEEHAN
Notary Public
CYNTHIA J. MEEHAN
Notary Public, State of New York
No. 4978575
Qualified in Suffolk County
Commission Expires March 4, 2019

301a

EXHIBIT 21

302a
New York Supreme Court
Appellate Division-first Department
Index No. 2016-111
Notice of Appeal
Estate of Sydney H. Fields
Please take notice that Richard Fields hereby
appeals to the New York State Court of Appeals the
decisions of the Appellate Division First Department of the Supreme Court of the State of New
York (M-3860/M-4076) regarding the judgment of
the Surrogate’s Court (M-5489) of the County of
New York and State of New York dated January
21, 2019, New York. Filed January 22, 2019.
Yours Truly, Richard Fields
/s/

RICHARD FIELDS
Signature
(Print Name)
(Address)
2830 Pitkin Avenue
Brooklyn, NY 11208
(Telephone Number)
718-235-0900
To: Jules Martin Haas, Esq.
805 Third Ave 12th Floor
New York, NY 10022

303a
Subscribed and sworn to before me this
22nd day of January 2019
/s/ VIVIAN CHING YING CHEUNG
Ching Ying Vivian, Notary Public
Queens County, New York
VIVIAN CHING YING CHEUNG
Notary Public, State of New York
Reg. No. 01CH6131099
Qualified in Queens County
Commission Expires July 25, 2021

304a

EXHIBIT 22

305a
[SEAL]
[LETTERHEAD OF STATE OF NEW YORK
COURT OF APPEALS]
January 28, 2019
Richard Fields
2830 Pitkin Avenue
Brooklyn, NY 11208
Re: Matter of Will of Fields (Fields v Palmeri)
Mo. No. 2019-125
Dear Mr. Fields:
I acknowledge receipt of your preliminary appeal
statement and notice of motion in the above matter. Your motion will be submitted to the Court on
the return date of February 11, 2019.
Material required by the Court’s Rules was not
located among your papers. Accordingly, you must
provide a statement indicating when and by what
method the September 25, 2018 Appellate Division
order was served with written notice of entry. If the
order was never served, please so state.
The Court of Appeals, on its own motion, will
consider its subject matter jurisdiction with respect
to whether the orders appealed from finally determine the proceeding within the meaning of the
Constitution and whether any basis exists for the
appeal taken as of right (CPLR 5601).
You and your adversary are invited to submit
comments in writing on the issue of subject matter
jurisdiction with proof of service on each other

306a
party. Such comments must be served and filed by
the February 11, 2019 return date of the motion for
leave to appeal.
Very truly yours,
/s/ JOHN P. ASIELLO
John P. Asiello
RMM:mg
cc: Jules Martin Haas, Esq.

307a

EXHIBIT 23

308a

309a
SUPREME COURT OF THE
STATE OF NEW YORK
APPELLATE DIVISION: FIRST DEPARTMENT
Case # 2016-111
08/10/18
PROBATE PROCEEDING, WILL

OF

SYDNEY H FIELDS
Deceased.
NOTICE OF MOTION
P LEASE T AKE N OTICE that the affirmation of
Richard Fields dated August 10, 2018 is an order to
the Petitioner-Respondent Diana Palmeri. She
need be stopped decree from using the granting
probate of the Will of Sydney H. Fields. Their
actions seriously violated the law for the reasons
below:
1.

They decree granting probate after knowing that the appeal was accepted by the
NYS Supreme Court-Appellate Division:
First Department.

2.

They did not notify the Appellant Richard
Fields of the action they took.

3.

The Judge and Court did not send their
decision to the Appellant. The Appellant
noticed it from a record room 10 days after
the decision made.

310a
The Appellant has strong evidences to prove that
the Respondent Diana Palmeri and her attorney
committed perjury. Sydney Fields could not read
typed words when the Will was signed and the Will
execution they provided was not at all for a blind
man.
We therefore request that the Appellate Division
First Department stopping the petitioner from liquidating the 9.9 million dollar assets from the husband of their aunt who predeceased him. Sydney
never even gave all his assets even to his wife Teresa Fields. Even their aunt did not leave each of
those nieces and nephew as what the probated Will
did. They presented no evidence to prove that Sydney embraced them like family members and they
just have the Attorney-drafter making affirmations. At this moment the way they act like is to
steal and run. People who assisting her will be hold
the responsible as well. We are ready to see you
anytime this week. If get no respond about that, we
will wait for you in Friday, 17th, Aug, 9am in the
Supreme Court.
Your sincerely Richard J Fields
/s/ RICHARD J FIELDS
CC: Albert V. Messina JR
Jules Martin Haas
Clark of Surrogate’s Court
David Lawrence III (NYS Attorney General)

311a
The foregoing document was acknowledged
before me this 10th day of August, 2018
/s/
LANETTE BARNES
Notary Public
LANETTE BARNES
Notary Public, State of New York
No. 04BA6349837
Qualified in Bronx County
Commission Expires October 31, 2020

312a
At a Surrogate’s Court held in and for the
County of New York at 31 Chambers Street,
New York, New York, on the 20th day of July,
2018
Date: July 20, 2018
File No.: 2016-111
PRESENT:
HON. RITA MELLA
Probate Proceeding,
Will of
SYDNEY H. FIELDS,
Deceased.
DECREE OF PROBATE
A Petition for Probate having been filed by Diana
Palmeri (“Petitioner’’) dated December 17, 2015
seeking a Decree admitting the Last Will and Testament of Sydney H. Fields dated October 6, 2014
to probate and the issuance of letters testamentary
to Petitioner; and
a Citation having been issued in connection with
such Petition, and jurisdiction having been
obtained over the necessary parties to said proceeding; and
an application having been filed by Diana
Palmeri dated June 6, 2016 seeking the issuance of
preliminary letters testamentary to Petitioner; and

313a
Preliminary letters testamentary having been
issued to Diana Palmeri on June 28, 2016; and
Petitioner having appeared by her attorneys,
Edward R. Curtin, Esq., co-counsel Jules Martin
Haas, Esq., and trial counsel Albert V. Messina Jr.
Esq., of Novick & Associates, P.C., and
Richard Fields, having initially appeared by his
counsel Dehai Zhang, Esq., and later by Richard
Alan Chen, Esq., and
Objections to Probate with Jury Demand dated
February 24, 2016, having been filed by Richard
Fields, alleging that the October 6, 2014 Will was
not duly executed, that Sydney H. Fields did not
possess the requisite testamentary capacity to execute the Will, that Sydney H. Fields did not know
or understand the contents of the Will and that the
Will was the product of fraud, duress and undue
influence, and
the parties by their respective counsel having
engaged in SCPA § 1404 examinations and CPLR
Article 31 discovery; and
Petitioner having filed a motion for summary
judgment pursuant to CPLR § 3212 dated November 28, 2017 seeking dismissal of the Objections to
Probate filed by Richard Fields; and
Petitioner having filed an affirmation in support
of motion for summary judgment of Jules Martin
Haas, Esq. dated November 28, 2017, including
deposition transcripts and other documents annexed
thereto as exhibits, the affirmation of Edward R.
Curtin, Esq., dated November 27, 2017, the affidavit of Diana Palmeri, sworn to on November 28,
2017, the affidavit of Adrienne Lawler sworn to on

314a
September 14, 2016, that affidavit of Arthur
Fishelman sworn to on June 12, 2017, the affidavit
of Stuart Michael sworn to on September 14, 2016,
the affidavit of Irving Rothbart sworn to on September 14, 2016, the affidavit of William McAllister sworn to on September 30, 2016, the affidavit of
Gloria Madero sworn to on July 12, 2017 and a
memorandum of law in support of motion of Albert
V. Messina Jr. dated November 28, 2017; and
Objectant Richard Fields having submitted an
affirmation with legal citations in opposition to
motion for summary judgment of Richard Alan
Chen, Esq., dated January 22, 2018, with exhibits
annexed thereto, and an affidavit from Richard
Fields sworn to on January 22, 2018; and
Petitioner having submitted a reply affirmation
of Jules Martin Haas, Esq., dated February 23,
2018, with exhibits annexed thereto; and
the allegations of the parties having been heard,
and oral argument of the motion for summary
judgment having been heard before the Court on
March 20, 2018, and upon all the pleadings and
proceedings heretofore filed and had herein, and
after due deliberation the Court having granted
granting Petitioner’s motion for summary judgment and dismissing the objections to probate on
March 20, 2018, and the Court having rendered its
written decision dated March 26, 2018;
NOW, upon motion of Novick & Associates, P.C.,
as attorneys for Petitioner, it is hereby
ORDERED, ADJUDGED and DECREED, that the written instrument dated October 6, 2014 offered for

315a
probate as the Last Will and Testament of Sydney
H. Fields herein be and the same is hereby admitted to probate; and it is further
ORDERED, ADJUDGED and DECREED that letters
testamentary shall issue to Diana Palmeri upon
qualification and without the posting of a bond;
and it is further
ORDERED, ADJUDGED and DECREED that preliminary letters testamentary dated July 19, 2016 are
hereby revoked, and it is further
ORDERED, ADJUDGED and DECREED that a judgment in favor of Petitioner for costs and disbursements has been denied in the Court’s exercise of
discretion.
/s/
[ILLEGIBLE]
SURROGATE

316a
Richard Fields
2830 Pitkin Ave #210
Brooklyn, NY 11201
To: Novick & Associates,
Albert V. Messina
202 East Main Street
Huntington, New York 11734
Dear Mr. Messina:
We did not attach the decree of probate with the
motion we sent on sat, Aug, 11 because we know
you have the copy. For preventing you use that as
an excuse to ignore our motion, we send a copy to
you today. The Supreme Court need all of us meet
there when they process the motion. Please set up
a date as soon as possible and notify us within this
week.
We received no document when you decree granting probate for the case # 2016-111. It was illegal
and can be considered committing crime for that
reason. You once returned our mail and rejected
our appeal because we work on Pro Se. We hope
you not play the same game this time. Meet the
appointment in the court room you will get paid
from your client. Ignoring us you will get the
responsibility for what you did. We believe you
understand the consequence. If that is a good will
and they have strong material to back it up as a
attorney Curtin can take care of it easily. They pay
big money for two lawyers and use you as guns. It
is not worth for small some money to give up you
bottom line. Take care.
cc. copy to Jules M Haas

317a
[SEAL]
[LETTERHEAD STATE OF NEW YORK
OFFICE OF THE ATTORNEY GENERAL]
July 26, 2018
Richard Fields
2830 Pitkin Avenue, # 210
Brooklyn, NY 11201
Re: Estate of Sydney Fields, No. 2016-111
Dear Mr. Fields:
The Office of the Attorney General’s appeals division represents the state respondent(s) in this
action. Please direct future decisions, orders, or
related correspondence, as well as service of all
papers, to:
Division of Appeals & Opinions
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
212-416-8020
nyoag.nycpdf@ag.ny.gov
Thank you.
Respectfully yours,
/s/ DAVID LAWRENCE III
David Lawrence III
Assistant Solicitor General

318a

EXHIBIT 24

319a
[LETTERHEAD NOVICK & ASSOCIATES, P.C.]
February 7, 2019
Via Federal Express
State of New York Court of Appeals
20 Eagle Street
Albany, New York 12207-1095
Attention: Clerk’s Office, Motion Support
Re: Matter of Will Fields (Fields v. Palmeri)
Surrogate’s Court’s Court File No.: 2016-111
App. Div. Docket Nos. M-3860/M-4076
Mo. No. 2019-125
Return Date: February 11, 2019
To the Court:
Enclosed herein for filing is the following:
•

Affirmation of Jules Martin Haas, Esq, in
Opposition to Motion to Leave to Appeal
to the Court of Appeals (One (1) Original
plus Six (6) copies); and

•

Original Affidavit of Service.

Thank you for your time and attention to this
matter
Very truly yours
/s/ KELLY GARONE
Kelly Garone
Paralegal

320a
cc: Richard Fields (via FedEx overnight delivery)
2830 Pitkin Avenue
Brooklyn, New York 11208
Attorney General of the State of New York
(via FedEx overnight delivery)
Division of Appeals and Opinions
Respondent
28 Liberty Street
New York, New York 10005

321a
NEW YORK STATE COURT OF APPEALS
Sur. Ct. File No: 2016-111
App.Div. Motion Nos.
Nos. M-3860/M-4076
Court of Appeals
Mo.No.2019-125
PROBATE PROCEEDING, WILL

OF

SYDNEY H. FIELDS,
Deceased.
AFFIRMATION IN OPPOSITION TO
MOTION FOR LEAVE TO APPEAL
TO THE COURT OF APPEALS
JULES MARTIN HAAS, an attorney duly admitted to
practice law in the State of New York, hereby
affirms the following under penalty of perjury:
1. I am co-counsel for Petitioner-Respondent
Diana Palmeri (“Diana” or “Respondent”) together
with Novick & Associates, P.C. and Edward R.
Curtin, Esq. in the above referenced appeal. This
affirmation is submitted in opposition to ObjectantAppellant Richard J. Fields’ (“Richard”) Motion For
Leave To Appeal to this Court the Order of the
Appellate Division, First Department dated September 25, 2018 (the “September 25, 2018 Order”)
(Exhibit A) in which the Appellate Division unanimously: (i) denied Richard’s motion to reverse the

322a
Probate Decree dated July 20, 2018 and Stay Diana
from liquidating the estate assets (M-4076); and (ii)
granted Diana’s cross-motion to dismiss Richard’s
appeal (M-3860).
2. This affirmation is based upon my personal
knowledge of the proceedings in this matter and
the information and papers previously submitted to
the Courts in connection therewith.
3. This Court should deny Richard leave to
appeal since the time to perfect such an appeal has
passed.1 Notice of Entry of the September 25, 2018
Order, along with a copy of said Order, was served
on Richard by Federal Express Overnight Delivery
on September 25, 2018 and forwarded to the Appellate Division for filing (Exhibit B). Pursuant to
CPLR § 5513, 5601 and 5602, Richard was required
to perfect his appeal to this Court on or before
October 26, 2018. Richard’s application to this
Court for leave to appeal is dated January 22, 2019
which is almost three months past the allowable
period to file his request.
1

Richard may not pursue an appeal to this Court pursuant to CPLR § 5601 as no statutory predicate under that
statute exists in this case, i.e., there is no dissent from two
justices of the Appellate Division, there is no construction of
the New York or United States Constitution or an order from
the Appellate division granting a new trial or hearing or a
non-final determination from the Appellate Division. Therefore, Richard is constrained to seek leave to appeal by permission pursuant to CPLR § 5602. As will be discussed herein,
none of the requirements of 22 NYCRR 500.22 have been satisfied.

323a
4. Additionally, Richard’s application is defective for failure to adhere to the Court of Appeals
Rules of Practice set forth in 22 NYCRR § 500.
These rules require that a movant seeking leave to
appeal must include pursuant to 22 NYCRR
§ 500.22(b):
(2) A statement of the procedural history of
the case, including a showing of the timeliness
of the motion.
(i) If no prior motion for leave to appeal to the
Court of Appeals was filed at the Appellate
Division, movant’s papers to this Court shall
demonstrate timeliness by stating the date
movant was served (see CPLR 2103[b]) with
the order or judgment sought to be appealed
from, with notice of entry.
Also, 22 NYCRR §500.22(b)(4) requires:
A concise statement of the questions presented for review and why the questions presented
merit review by this Court, such as that the
issues are novel or of public importance, present a conflict with prior decisions of this
Court, or involve a conflict among the departments of the Appellate Division. Movant shall
identify the particular portions of the record
where the questions sought to be reviewed are
raised and preserved.
5. Richard has not satisfied the threshold
requirements to grant leave to appeal to this Court.

324a
There is no novel issue alleged, nor is there an allegation of a conflict among the Departments or with
prior decisions of this Court. The controversy
involving Diana and Richard relates entirely and
solely to a Will Contest that was extensively litigated in the Surrogate’s Court, New York County.
6. Richard’s application to this Court is a stark
reflection of the substantive and procedural deficiencies which resulted in the unanimous dismissal
of his appeal by the Appellate Division. The appeal
below eminated from Richard’s Objections to the
probate of the Will of his father Sydney Fields
(“Sydney” or the “Decedent”).
7. Diana was the named executor and proponent
of the Last Will and Testament of Sydney Fields
dated October 6, 2014 (Exhibit C) (the “Will”).
Sydney died on November 10, 2015. Richard is a
surviving son of the Decedent. Sydney made no
provision for Richard in the Will and, in fact,
specifically disinherited Richard with the following
provision in Article FIFTH(b) of the Will:
Because my son Richard Fields hired a lawyer
to sue me for money and because I had to have
him arrested and brought to court for harassment of me and my wife, Teresa I deliberately
make no provision for him in this Will and it
is my intention that he receive no part of my
estate.
8. The Will was offered for probate by Diana in
the Surrogate’s Court, New York City. Richard
filed Objections to the probate of the Will. Surro-

325a
gate Mella in a Decision/Order dated March 26,
2018, dismissed Richard’s Objections in full and
granted probate to the Will (Exhibit D). The
Decree of Probate was entered on July 20, 2018
(Notice of entry of the probate decree dated July
31, 2018 is annexed hereto as Exhibit E). Notably,
no notice of appeal from the final Decree has been
served and the time to appeal has expired.
9. Richard was represented by an attorney,
Richard Alan Chen, Esq., throughout the Surrogate’s Court proceedings which encompassed thousands of pages of document discovery and extensive
deposition testimony. In addition, the Attorney
General for the State of New York filed a notice of
appearance. The Attorney General did not participate in the probate proceeding or in the subsequent
appeal.2
10. The overriding facts of the Surrogate’s Court
case showed that Richard had virtually no contact
with the Decedent during the decades leading up to
the execution of the Will. The Decedent specifically
disinherited Richard pursuant to language contained in Article FIFTH(b), set forth above.
11. This Will provision referred to Richard’s
vicious campaign of terror that he engaged in
2

One of the documents injected into the record, and
again injected in Richard’s papers before this Court, is entitled “Objections to Probate” from the Attorney General. These
objections were rejected by the Surrogate’s Court, they were
not litigated or included in the underlying summary judgment motion and the Attorney General did not participate in
the proceedings below.

326a
against the Decedent and his wife which was
intended to frighten and intimidate the Decedent
in an attempt to cause the Decedent to designate
Richard as a beneficiary of the estate. Richard sent
the Decedent photographs with Richard holding
guns and explosives and other weapons along with
threatening letters. A copy of some of these items is
annexed to Richard’s submission to this Court. The
Decedent refused to knuckle under to such acts and
he had Richard arrested, resulting in a restraining
order.
12. Richard then filed a pro se appeal with the
Appellate Division, First Department, which was
not only substantively baseless it was somewhat
incomprehensible. It failed to include substantive
portions of the Record below while inserting documents and alleged factual matters and assertions
not presented to the Surrogate.
13. Diana filed a motion with the Appellate Division to have Richard’s appeal dismissed.
14. Richard also made an application to the
Appellate Division to obtain a Stay to prevent
Diana, as Executor of the Decedent’s estate, from
distributing estate assets pending the determination of the appeal. In furtherance of such application, Richard sought an interim Stay from the
Appellate Division. After review and oral argument, the Appellate Division denied Richard’s
request for an interim Stay. (A copy of the August
17, 2018 Order denying Richard’s application for
an interim stay is annexed hereto as Exhibit F).

327a
15. Diana’s cross-motion to dismiss Richard’s
appeal was granted by the Appellate Division and
was based upon numerous procedural defects as
follows:
(a) Richard did not include necessary papers
in the appendix that were presented to the
court below on the motion for summary
judgment, omitting over 440 pages from
the record, including, for example, Respondents’ moving papers and his Objections to
Probate, a necessary pleading:
(b) Richard injected new documents (over 230
pages) into the record that were never presented to the court below on the motion for
summary judgment;
(c) Richard did not appeal from the final
decree of the court below, which was
entered after he filed his appeal;
(d) Richard did not appeal from an order, judgment or decree after notice of entry was
served;
(e) Richard did not settle the transcript of proceedings and ignored other rules of procedure;
(f) Richard did not subpoena the papers constituting the record on appeal from the
Surrogate’s Court clerk; and
(g) Richard did not serve all necessary parties
with a notice of appeal or with the Appellant’s brief and appendix. There is no evi-

328a
dence that the Attorney General office was
served with the notice of appeal or with the
appendix and brief. (A copy of the affirmation submitted in support of the motion to
dismiss, without exhibits, is annexed hereto as Exhibit G).
16. Based upon the above, Richard’s appeal and
request for a Stay was dismissed. (See Exhibit F).
17 Richard’s application to this Court is not only
procedurally defective, it does not even attempt to
identify any grounds upon which this Court might
grant discretionary relief. 22 NYCRR 500.22(b).
The rules of this Court require that a party present
to this Court a question of law that is sufficiently
important for review. Richard does not provide a
scintilla of justification for a permissive approval.
Instead, he sets forth a rambling litany of unfounded complaints regarding the Will ranging from perjury to forgery and stealing.3
18. While Richard’s personal views regarding
the outcome his case may reflect his own feelings,
there is no presentation of any novel or important
issue arising from any of the decisions and Orders
of the Courts below. In light of the provisions in the
Will which directly disinherits Richard based upon
his terrorizing his father and step mother, along
with the attorney draftsperson’s supervision of the
execution of the Will, the decision and Decree of the
3

Richard also failed to serve papers and notice this
motion pursuant to 22 NYCRR 500.22(a).

329a
Surrogate and the Appellate Division Orders are
clearly garden variety on their face. Richard has
provided no basis to disturb the September 25,
2018 decision of the Appellate Division and no
basis for granting leave to appeal to this Court.
19. Richard’s application to this Court should be
denied. It is procedurally defective. There are no
novel or public policy matters to be reviewed or
decided. Richard’s course of causing unfounded and
protracted litigation during Sydney’s lifetime and
now to his beneficiaries since 2015 must come to an
end. It is respectfully submitted that this Court
deny Richard’s application so that Sidney’s affairs
can rest peacefully hereafter.
Dated: New York, New York
February 6, 2019
/s/

JULES MARTIN HAAS
Jules Martin Haas

330a
NEW YORK STATE COURT OF APPEALS
Surrogate’s Court File No.: 2016-111
Appellate Division
First Department Appeal
Nos. M-3860/M-4076
MO. NO. 2019-125
PROBATE PROCEEDING, WILL

OF

SYDNEY H. FIELDS,
Deceased.
STATE

OF

NEW YORK

)
ss:

COUNTY

OF

SUFFOLK

)

AFFIRMATION IN OPPOSITION TO
MOTION FOR LEAVE TO APPEAL
TO THE COURT OF APPEALS
Kelly Garone, being duly sworn deposes and
says: deponent is not a party to the action, is over
the age of 18 years of age, and is employed at
Novick & Associates, P.C., 202 East Main Street,
Suite 208, Huntington, New York 11743.
On February 7, 2019, deponent served two (2)
copies each of the Affirmation of Jules Martin

331a
Haas, Esq., in Opposition to Motion to Leave
to Appeal to the Court of Appeals upon:
Richard J. Fields
Objectant-Appellant Pro Se
2830 Pitkin Avenue
Brooklyn, New York 11208
FedEx Tracking: No. 774413776245
Attorney General of the State of New York
Division of Appeals and Opinions
Respondent
28 Liberty Street
New York, New York 10005
FedEx Tracking No. 774413869290
by depositing a true copy thereof with Federal
Express Overnight Delivery.
/s/

KELLY GARONE
Kelly Garone

Sworn to before me this
7th day of February, 2019
/s/ ALBERT J. MESSINA JR.
Notary Public
ALBERT J. MESSINA JR.
Notary Public, State of New York
Registration No. 02ME6178564
Qualified in Suffolk County
Commission Expires December 3, 2019

332a

EXHIBIT 25

333a
State of New York
Court of Appeals
Decided and Entered on the
second day of April, 2019
Present,
Hon. Janet DiFiore, Chief Judge, presiding.
Mo. No. 2019-125
In the Matter of Will of Sydney H. Fields,
Deceased.
Richard Fields,
Appellant,
v.
Diana Palmeri,
Respondent.
Appellant having appealed and moved for leave
to appeal to the Court of Appeals in the above
cause;
Upon the papers filed and due deliberation, it is
ORDERED, on the Court’s own motion, that the
appeal, insofar as taken from the September 2018
Appellate Division order, is dismissed, without
costs, as untimely (see CPLR 5513[a]); and it is further
ORDERED, that the appeal, insofar as taken from
the December 2018 Appellate Division order, is dis-

334a
missed, without costs, upon the ground that such
order does not finally determine the proceeding
within the meaning of the Constitution; and it is
further
ORDERED, that the motion, insofar as it seeks
leave to appeal from the September 2018 Appellate
Division order, is dismissed as untimely (see CPLR
5513[b]); and it is further
ORDERED, that the motion, insofar as it seeks
leave to appeal from the December 2018 Appellate
Division order, is dismissed upon the ground that
such order does not finally determine the proceeding within the meaning of the Constitution.
/s/

JOHN P. ASIELLO
John P. Asiello
Clerk of the Court

335a

EXHIBIT 26

336a
SURROGATE’S COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
File No.: 2016-111
PROBATE PROCEEDING, WILL

OF

SYDNEY H. FIELDS
Deceased.
NOTICE OF ENTRY
PLEASE TAKE NOTICE, that the Decision by Hon.
Janet DiFiore, dated April 2, 2019, of which the
within is a true copy, has been entered in the office
of the Clerk of the Court, State of New York, Court
of Appeals, on the 2nd day of April, 2019.
Dated: April 4, 2019
Huntington, New York
Yours,
/s/
ALBERT V. MESSINA JR.
Novick & Associates
By: Albert V. Messina Jr., Esq.
Attorneys for Diana Palmeri
202 East Main Street
Huntington, New York 11743
(631) 547-0300

337a
To:
Richard J. Fields
Objectant-Appellant Pro Se
2830 Pitkin Avenue
Brooklyn, New York 11208

338a
SURROGATE’S COURT OF THE
STATE OF NEW YORK
COUNTY OF NEW YORK
File No.: 2016-111
PROBATE PROCEEDING, WILL

OF

SYDNEY H. FIELDS
Deceased.
STATE

NEW YORK )
ss:
OF S UFFOLK )

OF

COUNTY

NOTICE OF ENTRY
Kelly Garone, being duly sworn deposes and
says: deponent is not a party to the action, is over
the age of 18 years of age, and is employed at
Novick & Associates, P.C., 202 East Main Street,
Suite 208, Huntington, New York 11743.
On April 4, 2019, deponent served a Notice of
Entry of the Decision by Hon. Janet DiFiore,
dated April 2, 2019 upon:
Richard J. Fields
Objectant-Appellant Pro Se
2830 Pitkin Avenue
Brooklyn, New York 11208

339a
by depositing a true copy thereof in a postpaid,
wrapper in an official depository under the exclusive care and custody of the United States Postal
Service within the County of Suffolk and State of
New York.
/s/

KELLY GARONE
Kelly Garone

Sworn to before me this
4th day of April, 2019
/s/ ALBERT V. MESSINA JR.
Notary Public
ALBERT V. MESSINA JR.
NOTARY PUBLIC, STATE OF NEW YORK
Registration No. 02ME6178564
Qualified in Suffolk County
Commission Expires December 3, 2019

340a

EXHIBIT 27

341a
COURT OF APPEALS NEW YORK STATE
In the matter of the Probate Proceeding, Will of
Sydney H. Fields (deceased)
Motion for reargue the case (no. 2016-111)
because it was rejected by the New York State
Supreme Appellate Division First Department (M3860/ M076). As well as in Court of Appeals New
York State
Name of Appellant:
Richard J. Fields (Pro Se)
2830 Pitkin Avenue
Brooklyn, NY 11208
Petitioners-Respondents
Diana, Olga, Victor, Cynthia Palmeri
& Ana Garzon Yepez represented by
Jules M Haas, 805 Third Ave 12 Floor
New York 10022
I, Richard Fields present you a motion here
for rearguing the case related to Sydney Fields’
estate (number 2016-111). That will was filed
by Diana Palmari, a niece of Sydney’s third
wife (she predeceased him). Palmari’s five family members share all Sydney’s $9 million
assets and left the Fields’ family nothing.
Without any explanation they turned a 4 million dollar charity in the previous will to
1,500$. For that reason the Attorney General
of NY State considered it was involved with a

342a
felony (Exhibit B).Being misled, Judge Mella
only spent less than an hour to hear and dismiss such a case. After that all the Supreme
Courts of New York refused to review our
appeals at all. This should not be the way you
treat a mentally ill and poor person who lives
on SSI. Below are the arguments related to the
case:
Five days before the Will was signed Sydney
Fields made a statement (recorded by Vanguard)
saying that he could not read typed words on paper
even with a magnifying glass. A doctor’s note
proved later that he was blind in both of his eyes.
(Exhibit C1 & C2 page 2 line 12-19) Diana Palmeri,
her three lawyers, insisted that Sydney could read
documents with a magnifying glass. (Exhibit D)
Judge Mella totally ignored Sydney’s statement
recorde by the phone system and said: “Here, the
fact that the attesting witnesses could not confirm
whether decedent had his magnifying glass that
day (the attorney-drafter and one of the witness testified that he has).” (Exhibit A line 14 last par) She
determined if Sydney could read or not simply basing on if there was a magnifying glass.
The witness that Mella mentioned actually is the
attorney-drafter’s wife, Jill Curtain. She brought
up the subject of the magnifying glass but avoided
to confirm that she see Sydney read the will with it.
Below are her answers in her deposition: “I have a
memory of magnifying glass. It’s a black rectangle
with a handle, but I am not sure if that was Mr.
Field. I believe he might are you know.” Before the

343a
deposition was end, my lawyer asked again: “Did
you see Mr. Fields read with or without the magnifying glass?” Jill Curtin answered: “I have this little memory of him with the magnifying glass,
but. . .” Regarding that, Edward Curtin used
looked instead read most of the time. He said “He
was there with a magnifying glass. We looked at
every page. Whether he – I wasn’t inside his mind
to know whether he actually read every single
word” (Exhibit E page 1-3)
Mella also said: “That fact that decedent had
some visual impairment, even to the point of ‘legal’
blindness as objectant argues, does not change this
conclusion because blind persons may make wills.”
(Exhibit A, page 5, line 4 par 2). Sydney claimed
that he could not read and Edward Curtin admitted
that he never read the will out loud in front of the
witnesses. (Exhibit E)
) Yet the Will execution was considered duly by
judge Mella. (Matter of Hubert 26 Misc. 461 57
N.Y. Supp. 648 Affd. 48 App Div. 91, 62 N.Y. Supp.
932 98 quoted in Annotated Consolidated Laws of
New York 1917. Also see Matter of MacCready 82
Misc. 2d 531, 369 N.Y.S. 2d 325 (1975). In that case
the Will was valid only because it was read out loud
in front of both of the witnesses and the testator
who then signed.
Being convinced by the petitioner’s lawyers
Mella did not pay attention to a forged initial that
made on the paper with the % of distributions.
When no witness could confirm the content of the
will, putting down an initial and substituting a
page can easily change the whole will. Mella “sim-

344a
ply ignored our handwriting expert’s opinion about
the forged initial (Exhibit F) and said: “Even if the
court were to consider this letter an affidavit of an
expert, there is no requirement that a testator initial
the pages of a will for it to be valid.’’ (Exhibit A
page 6 line 4 par 2) That means she will not consider the consequences even though she knew that
there is a forged initial involving crime.
With five affidavits provided by friends Diana
Palmeri still could not explain why Sydney Fields
loved them so and gave them all his 9 million dollars in assets, double of what he gave their aunt,
his third wife. (Exhibit K) They have no any tape
record to prove Sydney’s intention, to record Sydney indication and conversation. The only so call
“dispositive terms of the proposed instrument” had
no date and mentioned nothing about the will.
According to Curtin said that the instrument was
provided by decedent orally (Exhibit G page 2-3)
without tape record. Mella mentioned and accepted
that paper without reviewing and considering our
argument (Exhibit A, page 5, line 6) That instrument was written with strong strokes, in a straight
line, and in an identical way. It did not look like it
was written by a 96 year old blind man but looked
like paste in computer Sydney’s signature on the
will showing he could hardly control his pen.
(Exhibit G)
Mella simply believed Edward Curtin’s attesting
and said similar things like him (Exhibit H1, page
2 line 14): “that is a natural will benefiting members of the family of decedent’s spouse, with whom

345a
decedent was close and whom he considered his
family.” (Exhibit A page 3, line 9, par 2)
However, according to Diana’s deposition Sydney’s connections with those beneficiaries were not
close at all because they live far from NY State.
Even Diana herself never met one of the beneficiaries, her cousin Ana Garzon Yepez. She did not
know the address of his brother Victor Palmeri Jr.
who lives in Hawaii. She only was sure Sydney met
Victor when he was in high school. Her sister Cynthia came to NJ every two years because her child
has autism. Sydney met those who live in NJ on
holidays, a few times a year and met the others
once a few years or less. Within 40 years Sydney
never have took a trip together with any of them
and never spent overnight in their home in NJ.
(Exhibit I) However the will shows: Sydney gave all
his assets, 9 million dollars to those people who
had no blood relationship with him and even did
not have any appreciation.
As a matter of fact, Vanguard’s tape showing
Sydney did not treat Diana like a family member.
Five days before signing the Will Sydney tried to
arrange a huge fund transfer. Could not read documents he still refused to get help from Diana Sydney was very afraid to let Edward Curtin know his
asset as well. (Exhibit C3) After the will was signed
he got exemption from the bank and limited
Diana’s power when he had her sign checks.
(Exhibit C4, page 2, line 6-line 10) The USB that
Vanguard provided reflected Sydney’s intentions
and recorded actions he took. It shows things were
totally different from what Diana and her lawyers

346a
introduced. Palmeri has no back up document for
that will. When they made up affirmations they
desperately dismissed the USB with Sydney’s
voice. It is luck that they had Judge Mella recognized those affirmation that made by an attesting
attorney. She totally ignored our arguments
backed up by Vanguard’s USB as well.
Curtin’s credibility is questionable. In the NYS
Attorney General’s objection, besides attacking the
Palmeri family it also attacked “other persons acting independently or in concert or in private with
Diana” (Exhibit B page 2 last two lines). As a matter of fact, Sydney felt worried or even looked panicky when his broker from Vanguard, Jeffrey Kern,
suggested to him to get help from Curtin (Exhibit
C3).
Curtin did not mention Sydney’s vision problem
in the affirmation he wrote in April 2014. (Exhibit
H1 page 2 line 7) They once requested the court to
stop me when I sent mail to them like crazy (Exhibit H2 page 2 last par). They knew about my mental
problem but never mentioned it when they
attacked me for harassing my father. They dismissed both the affirmation and the letter two
years later because we used those to question his
credibility.
In 1994-1996 my father filed for an order of protection and had me arrested but he still left me
some money in his 1997 will because he knew I was
mentally ill. (Exhibits K1&K2) He left nothing to
my half-brother Kenneth who forced him to end the
relationship with me. Blood is thicker than water
and the relations between fathers and sons can be

347a
improved easily. Curtin copied the words that my
father said in 2006 (Exhibit H1 Page 2 last par) to
support the will in 2014. Again he quoted those
words without documentation but used an affirmation only. (Exhibit H3)
They tried to tell lies to hide things without any
consistency. Regarding the first time Diana met
Curtin, Diana changed it from the will signed to
the will reading day in her deposition. However,
Curtin said there was no will reading at all.
(Exhibit D pages 1-3)
Curtin said it was an aide who accompanied Sydney to the law office when the will was signed.
However, both the witnesses and Curtin could not
mention the aide’s age, gender, or skin color. They
were unable to provide the way to contact the aide
as well. From Vanguard’s phone records we can tell
that one of the beneficiaries, Diana’s cousin, Ana
Garzon Yepez, answered the phones all the time
and marked down the appointments for Sydney.
She accompanied Sydney to the law office a few
days before but not the day when the will was
signed. Diana said she herself maybe was in New
York City that day but did not know Sydney was
signing a Will as well. If Sydney treated them like
family members why didn’t he let them know his
intentions and have them go to sign the will with
him? How can he not even care about any appreciation from the beneficiaries when he gave out all
his 9 million dollars?
Judge Mella ignored our argument and covered
things in the way Palmeris need. She said “The
beneficiaries had no direct involvement in the

348a
preparation or execution of the Will.” (Exhibit A,
page 3 line 17) “Description of the aide who accompanied decedent to the will execution, but who
appears to have stayed in a spate waiting area, were
insufficient to rebut the presumption under the circumstances presented.” (Exhibit A Page 5 par 1)
In 1991 my father took me to a psychiatric hospital. My mother told me that he was supposed to
send me to law school instead. That comment was
powerful enough to destroy my relationship with
my father. My mother was also mentally ill who
always cried in front of me when I was three years
old. She divorced my father and had only 80$/week
in child support and no alimony when my father
was already a multimillionaire. My father’s assets
mixed with my mother’s tears. She walked for one
hundred blocks in the winter when she put food on
a table to feed me like feeding a cat. Every half
hour she cursed and attacked my father and drove
me crazy. When I lost my mind in 1994 (could tell
from pictures in exhibit K1) I sent out harassing
pictures to my father and sent letters to threaten
my half-brother Kenneth.
Kenneth’s mother lived in a psychiatric hospital
all her life, since Kenneth was two years old. His
relationship with my father was not close because
he lived in school when he was very young. After
being threatened Kenneth forced my father to end
the relationship with me. Knowing that I was sick
my father refused to do it. For that reason he was
not allowed to visit Kenneth’s children. After they
had me arrested I did not bother them anymore.
Kenneth thought ending contact with my father

349a
can keep his family safe and did not know my
father was rich until they read that will to him. As
a Jew my father cared about his family very much.
We can see it from his filing a court case for visitation with his grandchildren. (Exhibit J last page)
He refused to abandon me, a sick son. Just things
were out of his control and the Palmeri family took
advantage of the situation.
To support that will, Mella mentioned that I
never saw my father for the last 19 years of
my life. (Exhibit A page 1 last par) I did not
see him because I did not want to bother him
when I was sick. In my opinion, our family did
not contact each other for many years and didn’t mean that the Palmeri family deserved all
my father’s 9 million dollars. The will execution process was unduly! Curtin did not read
it out loud in front of the witnesses when Vanguard’s tape record proved Sydney could not
read documents. Curtin and Diana Palmeri
committed perjury and said he could read
with a magnifying glass. Mella ignores the
fact and supports those people who took
advantage from a family that has three psychiatric patients. Your guys simply defend
Mella and no one in the Supreme Court is
willing to review our appeals. By American
law, psychiatric patients should be helped and
not be punished.
I am living on SSI now and receiving psychiatric
treatment under court order since 2009. Pia Fields,
my son’s mother, is paying the legal fees for this

350a
case. She composed the motions before I read, corrected and presented them since I acted Pro Se.
She involved herself so much because a tragedy
happened 100 years ago: 1918, in a flu that killed
26 million people all over the world, my grandmother was watching my grandfather’s dead body
being moved out as she gave birth to my father. A
doctor, Groginsky, risked his life to help my family
and signed both the death and birth certificates.
Picturing the sad scenery and admiring the brave
doctor Pia stepped in to help me 30 years ago when
I desperately needed her.
She suffered a lot due to the mental illness I
have. She met my father every week around two
years before and after our son Lewis was born. She
noticed that my father was very excited when seeing Lewis. To avoid being sent to a psychiatric hospital I ran away from them. If I did not do that
Lewis might have maintained a good relationship
with my father. My father told us that he worked
very hard to make the family middle class. His
father died early and he considered he was the
backbone of the family. With that sad background
it was impossible that he gave out all his assets to
those people when he did not need to care about his
wife’s feelings anymore. Pia did not expect that she
has to protect the family’s assets as well. She felt
sick that when the assets my father accumulated
all his life were stolen in our courtrooms nobody
gave a damn. We both feel sorry for Kenneth and
that is why we keep appealing.
We will continue to appeal this case until we
were thrown out entirely. Pia then will send my

351a
family’s story to the presses in Mainland China.
The Chinese will like to know how things are run
in the courtrooms when the Americans talk about
justice. She was the author of a book “Why Life
Events are Predestined and How Our Universe
Originated. (whydestiny.com). In last few years she
has published 1,000 articles on websites.
Pia also told me that if we win the case we should
set up a fund to memorialize doctor Groginsky and
my father. She will use the fund to promote her
ideas about building retirement homes. She said
compared with her proposal our case is insignificant and for the $100,000 legal fee she paid I will
allow her to mention her proposal here. She ties up
the two things together to bet its destiny. If we lose
she will shut her mouth and hope God Blesses
America.
Proposal about setting up retirement homes.
The debt of the US government is over 22 billion
dollars as of today and its social security fund will
dry in 2034. America could not, as Donald Trump
expects, be great again when the debt continued to
increase like that. Over 50% of our expenses relate
to social security, Medicare, Medicaid and welfare
for the low income class. Building up retirement
homes can help us reduce those mandatory expenses. The proposal is introduced below:
When people sign up the agreement the government will offer them is an apartment in the retirement center and to cover the rent with part of their
social security payment. A unit that build up with
$50,000 can rent for 700$/ monthly. The rent will
be deducted from the social security of the tenants

352a
who signed the agreement. In 30 years a $50,000
investment will save $240,000 social security for
the government. In this way government will no
longer be a welfare distributor but a big landlord
who invests the social security fund for our people
and our country.
People would like to move into the centers
because they are lively places with home care, companies and a lot of entertainments. In that kind of
facility in New York people have to pay over
$10,000 monthly for just a half room. Retirement
center cost is lower and the return value is high for
the reason as below:
1. The centers are not in the city. However it has
center transportations get to the city frequently
that makes people feel they live in the city.
2. People do not simply receive service there. They
take care of the older members (see what the person needs when hearing a bell ring) when they get
old someone will keep an eye on them. Government
no longer needs to provide home care jobs to people
and provide home care service to the same people
some years later.
3. Members are being taken cared by professional
health clerks. It will encourage people doing exercise instead of taking medicine. On that way we
can prevent medicate and Medicare fund being
overcharged by unnecessary health checkups.
4. People have entertainment and companies
there. They can sing, dance, cook, play poker,
watch TV and attend different classes. People can

353a
work in the center farm to produce organic vegetables, fruit and meat in exchange for free meals.
People can cook their own food or eat in the center.
People can register with friends or family members
who are over 50 years old. They will have privacy
anytime because they will have their own apartment.
On the whole, the management effort will make
land in the suburb that has the function of land in
the city. In that way we get our profit margin.
The philosophy is letting people have time to
entertain themselves and communicate with each
other. We will make people believe: A successful
life means spending the least material and obtaining the most joys. It is not worth it to struggle, to
sacrifice the leisure time for a high paying job and
then making big consumption. We are not through
with the market’s adjustment but through government arrange people’s lives. We are not for seeking
profit and ignore people’s benefits such as what
happened in our medical field today. It makes our
government and people bankrupt when somebody
in the medical field is getting rich today. The
retirement centers persuade people to get their
basic material needs and compensates with spiritual
entertainments. We have reasons to convince rich
business companies to limit their profits as well.
It sounds like we are promoting socialism. It is
because the population in this world is too crowded
compared with the material it has. When greedy
people are accumulating their fortune it is not easy
to maintain 7.5 trillion people’s basic needs. Our
governments are unable to continue distributing

354a
welfare due to the increasing debt. Developing
countries are being threatened by refugees. Conflicts between the poor and the rich cannot be eliminated by giving out welfare to the poor anymore.
We cannot rely on the market to automatically
adjust to bring in jobs and material for the 7.5 trillion people in this world. Abandon capitalist philosophy: using spiritual entertainment to substitute
material seeking is the best way we should do. Let
people have basic material needs and enrich life is
the functions that those retirement centers will
play. It can build up centers for people who are
young and need financial help, let them live and
work there. Hope this model can help the refugees
survive in their own countries.
We can end the capitalist system by changing
people’s life goal from chasing material to chase
spiritual entertainment. (Can be either reading
The Bible or playing pokers). People in the retirement centers do not have a lot of material but have
healthy organic food and enriched life. Things they
get are basically the same and at some point that is
socialism. The idea should work because we
approaching it in a totally different way:
1.

This system is not run by hatefully poor people
or corrupt leaders in a dictatorial way, like
most communist countries are.

2.

It does not need capitalist government to distribute welfare any more. Because it makes
people help each other and encourage the government to make profit. The government exists
as a big landlord when it has huge social secu-

355a
rity fund invests in real estate field in long
run.
It will change the society but not by using weapon,
causing bleeding or through street riots. We are
approaching it by changing the new generations’
valuate standard. When our young generations
start to use the least material to obtain the most
enjoyment but not seeking for and high paying job,
high consumptions and high profit the whole world
can be changed.
Retirement centers help people retire in their
fifties. That means it creates 20 to 30% jobs for the
society. People from the same country, graduate in
the same college, or people have the same religion
can set up their owe center. They will get funds
from the government and pay rent with their social
security later. Hopefully we can have funds from
businesses such as Amazon, Facebook, Microsoft
and Warren Buffett. In this way we can fulfill the
socialist system through a practical and peaceful
way.
Richard Fields
/s/ RICHARD FIELDS
April 20, 2019
NEW YORK )
) ss:
COUNTY OF QUEENS )
Sworn before me on this 20th day of April 2019
STATE

/s/

OF

HONG WU JIANG
Notary Public

356a
HONG WU JIANG
Notary Public, State of New York
No. 01HO6189625
Qualified in Kings County
Certificate Filed in Queens County
Commission Expires June 30, 2020
To: New York Supreme Court
Appellate Division—First Department
To: Jules Martin Haas
805 Third Ave 12th Floor
New York NY 10022
To: Lisa Barbieri
Assistant Attorney General
Index for exhibits
A. Judge Mella and the other court’s decisions.
B. NYS Attorney General’s objection opinion
about this case
C. Documents provided by Vanguard and Eye doctor
C1 Sydney said he could not read typed words
even with magnifying glass
C2. Doctor’s note confirm Sydney’s both eye
were blind
C3. Sydney refused to get help form Diana and
Curtin when made fund transfer
C4. Sydney limited Diana’s power on signing
checks.

357a
D. Palmeri and her lawyers’ perjury about Sydney’s vision.
E. Deposition of Edward Curtin and his wife Jill
Curtin
F.

Handwriting expert’s letter about the initial.

G. The instrument with the dispositive term.
H. Documents related to Curtin’s credibility
I.

Diana’s deposition disclosed Sydney hardly
meet those beneficiaries.

J.

Document reflecting relationship of the Fields
Family

K. Pictures, Order of Protection, and wills.

358a
Your court decision was lost in mail
To whom it may concern:
I know to reopen a case I have to attach your
rejected decision. I lost your mail since I was sent
to a psychiatric hospital against my will. Over
there I called and found out my case was already
being rejected on April 2. In order to meet the deadline to reopen the case I have no time to request
and wait for the court decision. Hope you do not
consider this is an uncompleted filing.
The attached is the doctor’s note. Please consider
my situation. Thank you!
Yours Truly,
/s/ RICHARD FIELDS
Richard Fields

359a

EXHIBIT 28

360a
[LETTERHEAD

OF

NOVICK & ASSOCIATES, P.C.]
May 9, 2019

Via Federal Express
State of New York Court of Appeals
20 Eagle Street
Albany, New York 12207-1095
Attention: Clerk’s Office, Motion Support
Re: Matter of Will Fields
(Fields v. Palmeri)
Surrogate’s Court’s Court
File No.: 2016-111
App. Div. Docket Nos. M-3860/M-4076
Court of Appeals Motion No. 2019-435
Return Date: May 13, 2019
To the Court:
Enclosed herein for filing is the following:
•

Affirmation of Jules Martin Haas, Esq, in
Opposition to Motion to Leave to Appeal
to the Court of Appeals (One (1) Original
plus Six (6) copies) ; and

•

Original Affidavit of Service.

Thank you for your time and attention to this
matter
Very truly yours,
/s/ KELLY GARONE
Kelly Garone
Paralegal

361a
cc: Richard Fields (via FedEx overnight delivery)
2830 Pitkin Avenue
Brooklyn, New York 11208
Attorney General of the State of New York
(via FedEx overnight delivery)
Division of Appeals and Opinions
Respondent
28 Liberty Street
New York, New York 10005

362a
NEW YORK STATE: COURT OF APPEALS
Surrogate’s Court
File No: 2016-111
Appellate Division
First Department Appeal
Nos. M-3860/M-4076
Court of Appeals Motion
No. 2019-435
PROBATE PROCEEDING, WILL

OF

SYDNEY H. FIELDS,
Deceased.

AFFIRMATION IN OPPOSITION TO
MOTION FOR LEAVE TO APPEAL
TO THE COURT OF APPEALS
JULES MARTIN HAAS, an attorney duly admitted to
practice law in the State of New York, hereby
affirms the following under penalty of perjury:
1. I am co-counsel for Petitioner-Respondent
Diana Palmeri (“Diana” or “Respondent”) together
will Novick & Associates, P.C. and Edward R.
Curtin, Esq. in the above referenced appeal. This
affirmation is submitted in opposition to ObjectantAppellant Richard J. Fields’ (“Richard”) motion to
reargue his Motion For Leave To Appeal to this
Court the Order of the Appellate Division, First

363a
Department dated September 25, 2018 (the “September 25, 2018 Order”) (Exhibit A) in which the
Appellate Division unanimously: (i) denied
Richard’s motion to reverse the Probate Decree
dated July 20, 2018 and Stay Diana from liquidating the estate assets (M-4076); and (ii) granted
Diana’s cross-motion to dismiss Richard’s appeal
(M-3860). Despite the procedural defects of his
motion, the Court has directed Petitioner-Respondent to file her opposition on or before May 13,
2019.
2. This affirmation is based upon my personal
knowledge of the proceedings in this matter and
the information and papers previously submitted to
the Courts in connection therewith.
3. This Court should deny Richard’s motion to
reargue. Richard’s application for leave to appeal
to this Court was denied in a Decision/Order of
this Court dated April 2, 2019, Mo.No. 2019-125.
(the “Court of Appeals Order”) (Exhibit B). A
Notice of Entry of the Court of Appeals Order was
served on Richard on April 4, 2019 (Exhibit C).
4. Richard does not specify any “ground upon
which reargument is sought and the points claimed
to have been overlooked or misapprehended by the
Court, with proper reference to the particular portions of the record and to the authorities relied
upon.” 22 NYCRR § 500.24(c); CPLR § 2221(d).
5. Richard’s submission is yet another rehash of
his distorted view of the substantive matters in

364a
this case. His assertions have been rejected by each
and every forum to which they were presented.
6. Annexed hereto as (Exhibit D) for the Court’s
reference is a copy of my “Affirmation In Opposition To Motion For Leave To Appeal To the Court of
Appeals” dated February 6, 2019, with exhibits
annexed thereto. The statements therein are incorporated herein by reference. In brief, Richard’s
father, Sydney Fields, specifically disinherited
Richard in his Will due to the stated reasons in the
Will that “Richard Fields hired a lawyer to sue me
for money and because I had to have him arrested
and brought to Court for harassment of me and my
wife, Teresa . . . .”
7. As noted above, Richard does not provide in
his request for reargument any reference or consideration of the grounds for dismissal set forth in the
Court of Appeals Order. The grounds were that his
appeal was untimely and lacked procedural merit.
(Exhibit B). Specifically, the appeal of the September 2018 Appellate Division order was dismissed as
untimely and the appeal from the December, 2018
Appellate Division order was dismissed as the
order did not finally determine the proceeding
within the meaning of the Constitution. (Id).
Therefore, Richard’s burden of proof was to show
precisely what this Court misapprehended or overlooked when considering the untimely appeals and
its lack of jurisdiction to hear appeals of non-final
determinations. 22 NYCRR § 500.24(c); CPLR
§ 2221(d).

365a
8. It is undisputed that Richard has not filed a
notice of appeal from the entry of the July 20, 2018
Probate Decree which finally determined the Surrogate’s Court proceeding, or that the time within
which to file such a notice expired on August 31,
2018. A copy of the affidavit of service of the notice
of entry of the July 20, 2018 Decree is annexed as
Exhibit E to my February 6, 2019 Affirmation
(which is annexed as Exhibit D to this affirmation).
Therefore, the Court was correct to determine that
it does not have jurisdiction to adjudicate the
appeal from the non-final December, 2018 Appellate Division Order.
9. It is also undisputed that Richard did not
seek leave to appeal from the entry of the September, 2018 Appellate Division Order on or before
October 26, 2018 and that his January 22, 2019
application for leave to appeal is untimely. A copy
of the affidavit of service of the notice of entry of
the September 25, 2018 Appellate Division Order is
annexed as Exhibit B to my February 6, 2019 Affirmation (which is annexed as Exhibit D to this affirmation). Therefore, the Court was correct to
determine that the appeal taken from the September 2018 Appellate Division order was untimely.
10. Richard has not provided any basis to disturb this Court’s April 2, 2019 Order.
11. Instead, Richard recounts his personal views
and commentary regarding the events and proceedings in the Surrogate’s Court, where he was represented by counsel. He threatens to continue to

366a
appeal this matter despite the frivolous nature of
such actions. He goes on to provide baseless threats
concerning reporting this case to the press in China
and his ideas about using his father’s estate to
establish retirement homes. The constant threat of
baseless litigation is preventing the orderly administration of this Estate. Richard and his former
wife Pia Fields should be cautioned against continuing with such frivolous conduct.
12. In view of the above, there is simply no basis
upon which the reargument of the dismissal of
Richard’s appeal to this Court can be allowed.
13. It is respectfully requested that Richard’s
application for reargument be denied in its
entirety.
Dated: New York, New York
May 8, 2019
/s/

JULES MARTIN HAAS
Jules Martin Haas

367a
NEW YORK STATE COURT OF APPEALS
Surrogate’s Court File No.: 2016-111
Appellate Division
First Department Appeal
Nos. M-3860/M-4076
Court of Appeals Motion
No.: 2019-435
PROBATE PROCEEDING, WILL

OF

SYDNEY H. FIELDS
Deceased.
STATE

OF

COUNTY

NEW YORK

OF

SUFFOLK

)
ss:
)

AFFIDAVIT OF SERVICE
Kelly Garone, being duly sworn deposes and
says: deponent is not a party to the action, is over
the age of 18 years of age, and is employed at
Novick & Associates, P.C., 202 East Main Street,
Suite 208, Huntington, New York 11743.
On May 9, 2019, deponent served two (2) copies
each of the Affirmation of Jules Martin Haas,
Esq., in Opposition to Motion to Leave to
Appeal to the Court of Appeals upon:

368a
Richard J. Fields
Objectant-Appellant Pro Se
2830 Pitkin Avenue
Brooklyn, New York 11208
FedEx. Tracking No. 775178121329
Attorney General of the State of New York
Division of Appeals and Opinions
Respondent
28 Liberty Street
New York, New York 10005
FedEx Tracking No. 775178167478
by depositing a true copy thereof with Federal
Express Overnight Delivery.
/s/

KELLY GARONE
Kelly Garone

Sworn to before me this
9th day of March, 2019
/s/ ALBERT V. MESSINA JR.
Notary Public
ALBERT V. MESSINA JR.
NOTARY PUBLIC, STATE OF NEW YORK
Registration No. 02ME6178564
Qualified in Suffolk County
Commission Expires December 3, 2019

369a

EXHIBIT 29

370a
State of New York
Court of Appeals
Decided and Entered on the
twenty-seventh day of June, 2019
Present,
Hon. Janet DiFiore, Chief Judge, presiding.
Mo. No. 2019-435
In the Matter of Will of Sydney H. Fields,
Deceased.
Richard Fields,
Appellant,
v.
Diana Palmeri,
Respondent.
Appellant having moved for reargument in the
above cause;
Upon the papers filed and due deliberation, it is
ORDERED, that the motion is denied.
/s/

JOHN P. ASIELLO
John P. Asiello
Clerk of the Court

371a

EXHIBIT 30

372a
[LETTERHEAD

OF

NOVICK & ASSOCIATES, P.C.]
July 1, 2019

Via Certified Mail, Return Receipt Requested
Surrogate’s Court, New York County
31 Chambers Street
New York, New York 10007
Attn: Probate Department
Re:

Estate of Sydney H. Fields
File No.: 2016-111

Dear Sir/Madam:
Enclosed for filing, please find the following documents in connection with the above referenced
matter:
1.

Notice of Entry of the Decision by Hon.
Janet DiFiore, dated June 27, 2019: and

2.

Original Affidavit of Service.

Kindly acknowledge receipt of the same by
stamping the enclosed copy of this letter and
returning it to me in the envelope provided.
Thank you for your time and attention to this
matter.
Very Truly yours,
/s/ KELLY GARONE
Kelly Garone
Paralegal

373a
Encls.
cc: Richard Fields
Diana Palmeri
Certified Article Number
9414 7266 9904 2148 1748 91
Sender’s Record

374a
[LETTERHEAD

OF

NOVICK & ASSOCIATES, P.C.]

Received July 8, 2019
July 1, 2019
Via Certified Mail, Return Receipt Requested
Surrogate’s Court, New York County
31 Chambers Street
New York, New York 10007
Attn: Probate Department
Re:

Estate of Sydney H. Fields
File No.: 2016-111

Dear Sir/Madam:
Enclosed for filing, please find the following documents in connection with the above referenced
matter:
1.

Notice of Entry of the Decision by Hon.
Janet DiFiore, dated June 27, 2019: and

2.

Original Affidavit of Service.

Kindly acknowledge receipt of the same by
stamping the enclosed copy of this letter and
returning it to me in the envelope provided.
Thank you for your time and attention to this
matter.
Very Truly yours,
/s/ KELLY GARONE
Kelly Garone
Paralegal

375a
Encls.
cc: Richard Fields
Diana Palmeri

376a
NEW YORK STATE COURT OF APPEALS
Surrogate’s Court File No.: 2016-111
Appellate Division
First Department Appeal
Nos. M-3860/M-4076
Court of Appeals Motion
No.: 2019-435
PROBATE PROCEEDING, WILL

OF

Sydney H. FIELDS
Deceased.
PLEASE TAKE NOTICE, that the Decision by Hon.
Janet DiFiore, dated June 27, 2019, of which the
within is a true copy, has been entered in the office
of the Clerk of the Court, State of New York, Court
of Appeals, on the 27th day June, 2019.
Dated: July 1, 2019
Huntington, New York
Yours,
/s/ ALBERT V. MESSINA JR.
Novick & Associates
By: Albert V. Messina Jr., Esq.
Attorneys for Diana Palmeri
202 East Main Street
Huntington, New York 11743
(631) 547-0300

377a
TO:
Richard J. Fields
Objectant-Appellant Pro Se
2830 Pitkin Avenue
Brooklyn, New York 11208
Attorney General of the State of New York
Division of Appeals and Opinions
Respondent
28 Liberty Street
New York, New York 10005

378a
NEW YORK STATE COURT OF APPEALS
Surrogate’s Court File No.: 2016-111
Appellate Division
First Department Appeal
Nos. M-3860/M-4076
Court of Appeals Motion
No.: 2019-435
PROBATE PROCEEDING, WILL

OF

SYDNEY H. FIELDS
Deceased.
STATE

OF

COUNTY

NEW YORK

OF

SUFFOLK

)
ss:
)

AFFIDAVIT OF SERVICE
Kelly Garone, being duly sworn deposes and
says: deponent is not a party to the action, is over
the age of 18 years of age, and is employed at
Novick & Associates, P.C., 202 East Main Street,
Suite 208, Huntington, New York 11743.
On July 1, 2019, deponent an Notice of Entry
of the Decision of Hon. Janet DiFiore dated
June 27, 2019 upon:

379a
Richard J. Fields
Objectant-Appellant Pro Se
2830 Pitkin Avenue
Brooklyn, New York 11208
Attorney General of the State of New York
Division of Appeals and Opinions
Respondent
28 Liberty Street
New York, New York 10005
by depositing a true copy thereof in a postpaid,
wrapper in an official depository under the exclusive care and custody of the United States Postal
Service within the County of Suffolk and State of
New York.
/s/

KELLY GARONE
Kelly Garone

Sworn to before me this
1st day of July, 2019
/s/ ALBERT V. MESSINA JR.
Notary Public
ALBERT V. MESSINA JR.
NOTARY PUBLIC, STATE OF NEW YORK
Registration No. 02ME6178564
Qualified in Suffolk County
Commission Expires December 3, 2019

